U . S . A G E N C Y F O R I N T E R N AT I O N A L D E V E L O P M E N T




    Semiannual Report to the Congress
     OFFICE OF INSPECTOR GENERAL

                    OCTOBER 1, 2013-MARCH 31, 2014
COVER: Charcoal retailers, or detallions, in Port-au-Prince sell fuel in rural Haiti. (Photo
by Paola Tejada for OIG.)
                                         MISSION

The mission of the Office of Inspector General is to provide independent oversight that
promotes efficiency and effectiveness while safeguarding the integrity of programs and
operations under USAID OIG’s jurisdiction.

                                          VISION

OIG’s vision is to be a leading oversight organization with a motivated and resourceful
workforce that produces quality products that facilitate mission achievement in foreign
assistance, that increases accountability, and that promotes good stewardship of foreign
assistance funds.




                                                      USAID OIG Semiannual Report to the Congress
INSPECTOR GENERAL HOTLINE


The hotline makes it easy to report allegations
of fraud, waste, abuse, mismanagement, or                      E-MAIL
                                                               ighotline@usaid.gov
misconduct in the programs and operations
of the United States Agency for International
                                                               COMPLAINT FORM
Development (USAID), the Millennium                            http://oig.usaid.gov/content/oig-hotline
Challenge Corporation (MCC), the United States
African Development Foundation (USADF),                        TELEPHONE
the Inter-American Foundation (IAF), and the                   1-202-712-1023
Overseas Private Investment Corporation (OPIC).
                                                               MAIL
Employees of these organizations, as well as
                                                               USAID OIG HOTLINE
contractors, program participants, and members
                                                               P.O. Box 657
of the general public, may report allegations                  Washington, DC 20044-0657
directly to the Office of Inspector General (OIG).
Complaints may be submitted electronically by
using e-mail or OIG’s online complaint form.

The Inspector General Act of 1978, as amended, and other laws protect those who make hotline
complaints. For example, the Whistleblower Protection Enhancement Act of 2012 provides protection to
employees who disclose misconduct or misuse of goverment resources.

Individuals who contact the hotline are not required to identify themselves and may request
confidentiality when submitting allegations. However, OIG encourages those who report allegations to
identify themselves so that they can be contacted if OIG has additional questions. Pursuant to
Section 7 of the Inspector General Act, OIG will not disclose the identity of an employee of USAID,
MCC, USADF, IAF, or OPIC who provides information unless that employee consents or unless the
Inspector General determines that such disclosure is unavoidable during the course of an investigation.
As a matter of policy, OIG will provide comparable protection to employees of contractors, grantees, and
others who provide information to the OIG and request confidentiality.

Individuals who are concerned about the confidentiality or anonymity of electronic communication may
submit allegations by telephone or mail.




	                                                    U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
CONTENTS



    Message from the Acting Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    Organizational Peformance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    Progress in Meeting Strategic Goals and Objectives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11
    Summary Tables. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  15
    Significant Findings and Activities: U.S. Agency for International Development . . . . . . . . . . . . . . .  21
       Acountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  23
       Food Security. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  29
       Crises, Conflict, and Instability. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  33
       Stable, Prosperous, and Democratic States. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  37
       Sustainable, Broad-Based Economic Growth . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  45
       Global Health and Strong Health Systems. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  57
       Building Institutional Capacity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  63
    Tables: U.S. Agency for International Development. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  67
    Significant Findings and Activities: Millennium Challenge Corporation. . . . . . . . . . . . . . . . . . . . .  135
       Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  137
       Economic Growth. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  139
       Management Accountability. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  141
    Tables: Millennium Challenge Corporation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  145
    Significant Findings and Tables: United States African Development Foundation . . . . . . . . . . . . .  151
    Significant Findings and Tables: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  157
    Inter-American Foundation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  157
    Significant Findings: Overseas Private Investment Corporation. . . . . . . . . . . . . . . . . . . . . . . . . . . . .  161
    Peer Reviews. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  163
    Abbreviations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  165




	                                                                               U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
    MESSAGE FROM THE ACTING INSPECTOR
    GENERAL



    I am pleased to present the U. S. Agency for
    International Development (USAID) Office of
    Inspector General (OIG) Semiannual Report to the
    Congress for the period of October 1, 2013, through
    March 31, 2014, in accordance with the Inspector
    General Act of 1978, as amended.

    During the reporting period, we provided vigorous,
    independent oversight of foreign assistance programs
    and operations, making adjustments and maintaining
    resolve in the face of an operating environment
    characterized by hardship and frequent change.

    Changing security conditions in the Middle East                    Acting Inspector General
    prompted our determination to relocate regional                    Michael Carroll

    operations from Egypt to Frankfurt, Germany.
    Although we plan to maintain our office in Cairo, U.S. employees in that office will focus on oversight of
    assistance to Egypt and report to our Frankfurt Regional Inspector General after that office is established
    this summer. Meanwhile, OIG auditors, investigators, and analysts based in Frankfurt will provide
    oversight of foreign assistance activities in other countries in the Middle East, as well as in Eastern
    Europe and the Caucasus.

    In Afghanistan, our work continued amid uncertainty surrounding the security transition and
    increasing violence in the lead up to watershed nationwide elections. During this period, we completed
    a review of USAID electoral assistance activities and concluded that they had strengthened Afghan
    institutions’ ability to promote credible, inclusive, and transparent elections. However, we also noted
    limitations in the coverage of these activities, found weaknesses in their sustainability, and observed
    monitoring and reporting problems.

    In addition to this work, we completed an audit of a project to improve access to finance in the
    agricultural sector in Afghanistan. We found that USAID’s project in this area facilitated lending but had
    limitations in its reach and sustainability. We also continued to make progress on the investigative front
    in Afghanistan, as our work resulted in the dismissal of six employees associated with foreign assistance
    programs.


                                                             USAID OIG Semiannual Report to the Congress 1
	
In Syria, the humanitarian crisis continued to
displace millions of people, affecting the entire                        OIG ACCOMPLISHMENTS DURING THE
                                                                         REPORTING PERIOD
region. To help assess the status of assistance to
displaced Syrians, we examined activities funded
                                                                         • More than $135 million in questioned costs
as part of the $845 million in USAID awards in                           and funds recommended to be put to better
this area through September 2013. We observed                            use
that USAID’s ability to conduct risk assessments
for related activities was limited by the security                       • $10.4 million in investigative recoveries and
situation and heard from implementing partners                           savings
about the effects of security conditions on their
                                                                         • 333 audit reports issued
work.
                                                                         • 110 investigations closed
As we respond to changes in the operating
environment in which aid programs are                     • 8 prosecutorial referrals
administered, we also take steps to reinforce
accountability within the broader base of foreign         • 55 administrative actions
assistance programs and operations. During the
reporting period, we completed work on how
the Agency implemented anti-trafficking-in-
persons policies, examined information security practices, looked at the use of premium-class travel
and government charge cards, assessed management of overtime pay, and studied the accuracy of
financial reporting. We provided training on cost principles and promoted fraud awareness during
events attended by more than 5,400 people around the world, while helping to hold those who commit
wrongdoing to account. Our investigative efforts yielded 15 significant personnel actions such as
dismissals, and we saw 7 suspensions and debarments.

While undertaking this work, we looked at agency efforts to increase the capacity of host governments to
meet their citizens’ needs. We reported, for example, on projects intended to strengthen public financial
management in Jordan and improve health-care system capacity to prevent and treat HIV/AIDS in
Mozambique. We also examined the direct use of host-country systems in implementing U.S.-funded
development projects by looking at government-to-government assistance in Pakistan and Palestinian
authorities’ use of U.S. Government water project supplies.

Just as we undertake efforts to improve the integrity, efficiency, and effectiveness of foreign assistance
programs, we also endeavor to improve the way in which we operate. Over the past year, OIG has
continued to make progress on internal improvements through an organizational development initiative
that included the efforts of a series of cross-functional employee-led working groups. After considering
the results of a 2012 OIG employee survey, we established the groups to explore options for improving
professional development, communications, and other key aspects of our operations. After thoughtful
consideration of these topics, these working groups presented their recommendations for improving



2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG’s internal operations during the reporting period. Meanwhile, in January, we brought together
managers from across our organization to discuss ways to foster a more open organizational culture that
supports our employees and their work, and to consider changes we should make in response to internal
and external developments affecting our office. In the coming months, we will prioritize and implement
recommendations arising from these two efforts with the aim of improving our working environment
and organizational performance.

We are committed to providing proper stewardship of U.S. taxpayer dollars and to delivering
independent, effective oversight of the agencies we oversee. The American people deserve to know the
extent to which foreign assistance funds are administered with efficiency and integrity. They can be
assured that OIG will to continue to provide the oversight needed to fight against fraud, waste, and abuse
in these programs.




                                                         USAID OIG Semiannual Report to the Congress 3
4	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
INTRODUCTION



History and Mandated Authority
USAID’s OIG was established on December 16, 1980, by a statutory amendment to the Foreign
Assistance Act of 1961. On December 29, 1981, the International Security and Development Cooperation
Act of 1981 brought the USAID Inspector General under the purview of the Inspector General Act of
1978. OIG assumed audit and investigative oversight of USADF and IAF in 1999 and of MCC in 2004.
OIG also maintains limited oversight authority of OPIC under 22 U.S.C. 2199(e).

The Inspector General Act authorizes the Inspector General to conduct and supervise audits
and investigations. Our mission is to provide independent oversight that promotes efficiency and
effectiveness while safeguarding the integrity of programs and operations under our jurisdiction. Some
of our work is mandated by statute or other requirements; other work is performed at the discretion
of OIG. When identifying and prioritizing appropriate audit and investigative activity, we consider
stakeholder interests and needs, alignment with strategic goals, program funding, and the risks
associated with the agency programs, including potential vulnerabilities in internal controls.


Areas of Responsibility
Audits

OIG audits activities relating to the worldwide foreign assistance programs and agency operations of
USAID, MCC, USADF, IAF, and OPIC. Audit activities include performance audits and reviews of
programs and management systems, financial statement audits required under the Chief Financial
Officers Act of 1990, and audits related to the financial accountability of grantees and contractors.

Investigations

OIG investigates allegations of fraud, waste, and abuse relating to the foreign assistance programs and
operations of our client agencies. Investigations of criminal, civil, and administrative violations cover all
facets of these worldwide operations. OIG also works proactively by providing fraud awareness briefings
and literature, audiovisual aids, and advice on fraud prevention strategies for agency personnel and
employees of foreign assistance implementers worldwide.




	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   5
Joint Work and Partners
OIG participates in task forces and cooperates with other groups. In this reporting period, for example,
OIG contributed to task forces and interagency groups that provide oversight for U.S. Government
programs in Afghanistan, Iraq, and Pakistan and that assist the Department of Justice in addressing
procurement and grant fraud.

Southwest Asia Joint Planning Group

This group was formed to coordinate oversight activities in Afghanistan, Iraq, and Pakistan and the
surrounding areas. The group comprises representatives of the Government Accountability Office, the
Special Inspector General for Afghanistan Reconstruction, the U.S. Army Audit Agency, the Naval Audit
Service, the Air Force Audit Agency and the Offices of Inspector General for USAID, the Department of
Defense, and the Department of State.

Department of Justice and Federal Bureau of Investigation Task Forces

OIG participates in two task forces, the National Procurement Fraud Task Force and the International
Contract Corruption Task Force.

Coordinated Audit Plan for HIV/AIDS, Tuberculosis, and Malaria

OIG collaborates with its counterparts at the Departments of State and Health and Human Services to
develop an annual consolidated audit plan. The three OIGs work together to determine the audits each
office will conduct to make the best use of U.S. Government resources.

Working With Bilateral Donors

OIG participates in a group of bilateral donors from 12 countries, including the United States, that work
to improve transparency and accountability of multilateral organizations and take on other issues of
mutual interest.




6	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ORGANIZATIONAL PEFORMANCE
MEASURES



OIG established the following measures in its 2012-2016 strategic plan. The data below reflects our
progress as of mid-fiscal year 2014.

    Goal 1: Strengthen the ability of the organizations for which OIG provides oversight to
    manage and deliver foreign assistance efficiently and effectively through audit products
    and activities.

                                                                                                2014                           2014
                           Measure                                2013 Results
                                                                                           Year-End Target                Midyear Results


    Percentage of audits with recommendations that
                                                                        57%                        60%                           67%
    focus on program effectiveness and efficiency 1


    Percentage of agency expenditures audited                           65%                        60%                           77%



    Hours per audit                                                     973                   990 or less                         997

1
 Includes audits with recommendations or findings in the following categories: performance targets not met, insufficient coordination
among development partners, risk to projects’ sustainability, lack of host country support, inefficient operations, unsatisfactory contractor
performance, and inadequate commodity management or storage.




	                                                                  U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   7
    Goal 2: Deter and detect fraud, corruption, criminal activity, and misconduct in the
    programs, operations, and workforce of the organizations for which OIG provides
    oversight.

                                                                                             2014                         2014
                          Measure                                2013 Results
                                                                                        Year-End Target              Midyear Results


    Percentage of OIG investigations resulting in
    substantiated allegations that were referred for                 100%                         85%                      100%
    criminal, civil, or administrative action

    Percentage of referrals that resulted in criminal,
                                                                      89%                         80%                         70%
    civil, or administrative action

    Number of individuals reached through outreach
                                                                     6,259                     3,500                       4,963
    events




    Goal 3: Provide useful, timely, and relevant information to enable stakeholders to make
    informed decisions.


                                                                                         2014                         2014
                          Measure                              2013 Results
                                                                                    Year-End Target              Midyear Results


    Number of briefings and testimonies provided to
                                                                      17                     15                           9
    Congress


    Number of hits on the OIG Web site2                          6,377,829              2,000,000                    2,222,285


2
  As part of OIG’s current review of our strategic plan, this performance measure may be revised to reflect a more appropriate indicator
of Web site interest.




8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
    Goal 4: Continually improve the efficiency, effectiveness, and quality of OIG operations
    and outputs.


                                                                                            2014                         2014
                            Measure                              2013 Results
                                                                                       Year-End Target              Midyear Results


    Percentage of employees indicating satisfaction
                                                                                                                   Will be available at
    with OIG customer service, operations, and                         57%                     60%
                                                                                                                        year-end
    initiatives


    Percentage of major management milestones
    met relating to strategic planning, continuity
    of operations, policy development, financial                       82%                     80%                          50%
    resource management, operations planning, and
    external reporting requirements


    Percentage of OIG hours spent on indirect
                                                                       30%                30% or less                Not available 3
    tasks


3
    This data was not available at the time of reporting. The year-end result will be reported in the next Semiannual Report to the Congress.




                                                                             USAID OIG Semiannual Report to the Congress 9
  Goal 5: Recruit, develop, and retain a highly qualified, motivated, and diverse workforce
  with the necessary tools and training to fulfill OIG’s mission.


                                                                                   2014               2014
                          Measure                              2013 Results
                                                                              Year-End Target    Midyear Results


  Percentage of vacancies with qualified candidates
  accepting an offer of employment within 120                        100%          95%                 100%
  days

  Percentage of highly performing employees
                                                                     100%          90%                 98%
  retained


  Percentage of OIG employees expressing
  satisfaction with management policies and
                                                                                                Will be available at
  procedures, opportunities to improve their skills,
                                                                      47%          50%               year-end
  their ability to use their talents, recognition for
  good performance, and personal empowerment
  in work processes and their jobs



  Percentage of employees completing required
                                                                      77%          100%                90%
  core curriculum training for their level




10	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
PROGRESS IN MEETING STRATEGIC
GOALS AND OBJECTIVES



In 2012, OIG released its fiscal year (FY) 2012–2016 strategic plan. The five goals and supporting
strategies in the plan reaffirm our commitment to providing quality oversight to the agencies we serve
and informing the public and our stakeholders of how OIG is safeguarding taxpayer resources. The plan
also emphasizes our obligation to continually find ways to improve our own operations and to ensure
that our workforce is highly motived and well trained to carry out its responsibilities. OIG identified
15 performance indicators to assess progress toward achieving the goals articulated in the plan.

OIG has performed at a high level. We had more than $135 million in questioned costs and funds
recommended to be put to better use; nearly $10.5 million in investigative recoveries and savings;
and 55 administrative actions. We are on track to meet all of our 15 annual performance targets by
the end of the fiscal year. In fact, we are already exceeding several of our targets, particularly in terms
of audit outcomes, investigative results, stakeholder outreach, and employee retention. In addition,
we implemented numerous activities to promote the effectiveness and integrity of foreign assistance
programs, provide quality information for our stakeholders, and enhance OIG’s internal processes and
workforce.

Strategic Goal 1

OIG set a number of ambitious performance targets for our audit program. Currently, we are exceeding
our goals for percentage of agency expenditures audited and percentage of audits with recommendations
that focus on program effectiveness and efficiency. These measures are essential to confirming that OIG’s
audit activities focus on a reliable representation of the Agency’s portfolio and its critical programs. We
are on track to meet the average number of hours per audit, which helps make sure we use our resources
efficiently.

OIG is implementing a number of other activities that help bring us closer to meeting the goals in our
strategic plan. In addition to the audits summarized in this report, we have more than 20 audits and
reviews in various stages of completion that focus on internal controls and compliance requirements that
significantly affect the efficiency and effectiveness of foreign assistance programs. We are in the process
of conducting several audits and reviews of performance across program sectors. We are increasing our
use of surveys to conduct audits and reviews so that we can reach a wider range of stakeholders without
increasing costs. Finally, we have begun holding work planning meetings for the FY 2015 audit plan and
are coordinating closely with other oversight entities to ensure we are providing the most effective level
of oversight to foreign assistance programs.


	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   11
Strategic Goal 2

OIG is on track to meet our performance targets related to deterring and detecting fraud, waste,
and abuse in the programs for which we provide oversight. Of our investigations with substantiated
allegations, 100 percent have been referred for criminal, civil, or administrative action, and 70 percent
of those referrals have resulted in criminal, civil, or administrative action. Both of these measures
demonstrate that we are targeting our resources on matters with the greatest investigative merit. This
report has numerous examples of the investigations OIG has conducted to detect fraud, waste, and abuse
and the results of those investigations.

Finally, we have already exceeded our outreach goal for the entire year by reaching 4,963 individuals
through our outreach events. These education and relationship-building efforts help deter fraud, waste,
and abuse by increasing awareness of how to report criminal, civil, and administrative violations as well
as educating stakeholders on the consequences of committing these violations.

Strategic Goal 3

OIG’s performance results indicate that we are providing useful, timely, and relevant information to our
stakeholders. We are on track to meet the target for outreach to Congress and have already exceeded the
number of hits on our Web site.

In addition, we participated in a number of outreach efforts with Agency and mission representatives,
audit and oversight organizations, and other groups involved in assistance work. A number of our audits
and investigations have been positively covered by the media, and we continue to increase our presence
on Twitter, using the social media tool to announce the release of audit reports, discuss OIG’s mission,
advertise job openings, and market OIG’s hotlines.

Strategic Goal 4

OIG appears to be on track to meet its internal process measures. Currently, we have completed
50 percent of our fiscal year management milestones. We plan to conduct a follow-up customer
satisfaction survey in FY 2014 to determine whether we have improved our service levels. Data was not
available to determine the percent of time spent on indirect tasks, but we are confident that we are on
track to meet the year-end target.

Improving the efficiency, effectiveness, and quality of OIG operations has been a priority for us this year.
To ensure that we are basing resource allocations on the priorities of the agencies we oversee as well as
the risk factors in areas where foreign assistance is provided, we have begun restructuring OIG’s regional
and headquarters structure. In response to changing conditions and programming in the Middle East,




12 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG is opening a Regional Inspector General (RIG) office in Frankfurt, Germany. Our Cairo and Tel
Aviv offices will then report to this RIG.

OIG is reorganizing our MCC audit operation as well. Under the new oversight arrangement, the
MCC performance audit function will continue to operate as a distinct organizational unit, but it will
be relocated to OIG headquarters over the next year and report to a Deputy AIG for Audit. The MCC
financial audit function has been merged into OIG’s internal and external financial audit divisions. We
anticipate that this new arrangement will facilitate internal communication and supervision, make it
easier to bring the expertise of RIG staff to bear on MCC issues when needed, and potentially make
a broader array of professional opportunities available to audit staff. We also recognize that this new
arrangement will present some challenges. Without a staff presence in MCC’s offices, we will have to
work harder to keep lines of communication open with MCC officials and be sure that we have current
information on MCC’s programs and operational challenges.

Finally, we are in the process of executing several information technology projects to improve how work
is performed in the organization, including: (1) the development of a new Intranet that should allow for
increased communication and information-sharing, (2) an upgraded remote application to improve
workforce mobility, and (3) a new document management system that is in the beginning phases of
design.

Strategic Goal 5

OIG’s performance in building a high-quality workforce continues to be strong. We continue to do well
in the time it takes to hire employees, and we are successfully retaining highly performing employees. In
addition, 90 percent of employees have completed the core curriculum training required for their level.

In the FY 2013 employee survey, 47 percent of OIG employees expressed satisfaction with management
policies and procedures, opportunities to improve their skills, their ability to use their talents,
recognition for good performance, and personal empowerment in work processes and their jobs.
Although we have not yet readministered the survey for FY 2014, we have taken several significant steps
to try to address the survey results.

We established four employee work groups to address the critical issues identified through the survey,
including leadership communication, training and development, employee recognition, and human
resource policy and process questions. The work groups analyzed survey data to explore each of the
issues, researched best practices, developed improvement recommendations, and proposed next
steps for implementing the recommendations. Each group delivered a set of substantive, supported
recommendations that will play an important role in shaping the future of OIG.

In addition, OIG held a managers’ meeting to discuss internal and external challenges and opportunities
facing the organization and to consider how to respond to them. Four management work groups


                                                       USAID OIG Semiannual Report to the Congress 13
were formed to address key issues, including transparency and trust; staff training, development, and
promotion; putting the right employees in the right place; and organizational direction, philosophy, and
relevance. These groups also developed recommendations to improve how the workforce is managed.
Many of the recommendations complement and align with those provided by the employee work groups.
Finally, the Acting Inspector General has been traveling to each OIG office to meet with employees and
gather their perspectives on ways to improve the organizational culture and better support employees.

The next step is for OIG senior leadership to review the recommendations from each of these activities
and prioritize and coordinate the implementation. Strengthening the organizational culture is not going
to happen overnight, but we are committed to listening to what employees have told us and acting on
that feedback.

Overall, these performance results demonstrate that OIG is performing at a high level. As we move into
the second full year of measuring OIG’s progress against the current strategic goals and performance
indicators, we are reviewing the strategic plan and related indicators to ensure that they are still in line
with OIG’s priorities.




14	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SUMMARY TABLES



                                   Summary Table of Audits Conducted
                                     USAID, USADF, IAF, and OPIC
                                     October 1, 2013-March 31, 2014


            Type of Report                 Number of Reports                       Value of Questioned Costs ($)


                                              Financial Audits

    USAID programs and operations                  1                                           55,000,000*
    Foundations' programs and
                                                   2                                                   0
    operations
    U.S.–based contractors                        75                                            30,310,289

         Quality control reviews                   0                                                   0

    U.S.–based grantees                           34                                             2,518,286

         Quality control reviews                   0                                                   0

    Foreign–based organizations                   170                                            7,686,583

         Quality control reviews                   7                                              466,520

    Foreign Government                            12                                               23,187

    Enterprise funds                               1                                             2,769,459

                                            Performance Audits
                                                                                                 16,517,253
    USAID economy and efficiency                  24
                                                                                                 13,327,670*
    Foundations’ economy and                                                                       16,109
                                                   2
    efficiency                                                                                     42,696*
    Other                                          5                                            2,667,992*

    Total                                        333                                          131,346,044

                                                                                 *Funds recommended for better use




	                                                  U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   15
                                       Summary Table of Audits Conducted
                                                      MCC
                                         October 1, 2013-March 31, 2014


            Type of Report                            Number of Reports        Value of Questioned Costs


                                                          Financial Audits

 U.S.-based contractors                                          1                        0

 U.S.-based grantees                                             0                        0

 Foreign-based organizations                                     9                     3,701,018

 Quality control reviews                                         0                        0

 Local currency trust fund                                       0                        0

                                                        Performance Audits

 Economy and efficiency                                          2                        0

                                                                Other

                                                                 1                        0

 Total                                                          13                     3,701,018




16	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                    Summary Table of Investigative Activities Including Matters
                             Referred to Prosecutive Authorities
                               October 1, 2013-March 31, 2014


                           Workload                                        Civil Actions

Investigations opened                        61      Civil referrals                                1

Investigations closed                       110      Civil declinations                             0

                                                     Judgments                                      0

                                                     Settlements                                    0

                                                     Total                                          1

                        Criminal Actions                               Administrative Actions

Prosecutive referrals                        8       Reprimands/demotions                           0

Prosecutive declinations                     7       Personnel suspensions                          4

Arrests                                      0       Resignations/terminations                      11

Indictments                                  0       Recoveries                                     23

Convictions                                  1       Suspensions/debarments                         7

Sentencing                                   1       Systemic changes                               5

Fines/assessments                            0       Other                                          5

Restitutions                                 0

Total                                        17      Total                                          55

Recoveries and Savings

Judicial recoveries (criminal and civil)                                                            $0

Administrative recoveries                                                                       $10,449,920


Total                                                                                           $10,449,920




                                                   USAID OIG Semiannual Report to the Congress 17
                              Fraud Awareness Briefings Conducted Worldwide
                                      October 1, 2013-March 31, 2014
 OCTOBER 1, 2013-MARCH 31, 2014

           Month                         Location                        Sessions   Attendees

                                Bangkok, Thailand                              6      143

                                Dakar, Senegal                                 2       46

                                Kabul, Afghanistan                             2       10

         October                Kampala, Uganda                                11     650

                                Kingston, Jamaica                              2       53

                                San Salvador,
                                                                               2       121
                                El Salvador

                                Washington, D.C.                               1       32

                                Brussels, Belgium                              1       10

                                Canape Vert, Haiti                             1       39

                                Cap Haïtien, Haiti                             1       50

                                Port-au-Prince, Haiti                          3       59

        November                Petionville, Haiti                             1       15

                                Kabul, Afghanistan                             2       6

                                Kinshasa, Democratic
                                                                               7      242
                                Republic of Congo

                                Arlington, VA                                  2       30

                                Islamabad, Pakistan                            1       16

                                Abidjan, Cote d’Ivoire                         7      175

                                Islamabad, Pakistan                            3       114

                                Kabul, Afghanistan                             1       4
        December
                                Maputo, Mozambique                             1       31

                                Port-au-Prince, Haiti                          1       19

                                Washington, D.C.                               1       37




18	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                   Fraud Awareness Briefings Conducted Worldwide
                           October 1, 2013-March 31, 2014
OCTOBER 1, 2013-MARCH 31, 2014

      Month                Location         Sessions                  Attendees

                    Cotonou, Benin             5                         51

                    Dakar, Senegal             1                         10

                    Kabul, Afghanistan         1                          6

                    Manila, Philippines        2                         23

                    Port-au-Prince, Haiti      4                         72

                    Cap Haïtien, Haiti         2                         32

                    Cairo, Egypt               1                         10

                    Qena, Egypt                3                         30

     January        Luxor, Egypt               3                         29

                    Karachi, Pakistan          2                         138

                    Gulu, Uganda               2                         42

                    Jinja, Uganda              2                         102

                    Kampala, Uganda            5                         177

                    Mbarara, Uganda            2                         140

                    Washington, D.C.           4                         49

                    Falls Church, VA           1                         10

                    Lilongwe, Malawi           1                         40

                    Abuja, Nigeria             1                          5

                    Almaty, Kazakhstan         1                         104

                    Cairo, Egypt               4                         134
     February
                    Dakar, Senegal             3                         40

                    Herndon, VA                1                         15

                    Islamabad, Pakistan        2                         43




                                            USAID OIG Semiannual Report to the Congress 19
                               Fraud Awareness Briefings Conducted Worldwide
                                       October 1, 2013-March 31, 2014
 OCTOBER 1, 2013-MARCH 31, 2014

            Month                          Location                        Sessions    Attendees

                                 Jerusalem, Israel                                2       49

                                 Kabul, Afghanistan                               1       2

                                 Manila, Philippines                              1       28
    February (cont’d)            Port-au-Prince, Haiti                            1       12
                                 San Vicente, Paraguay                            1       13
                                 Tel Aviv, Israel                                 2       43
                                 Washington, D.C.                                 5      195
                                 Antananarivo,
                                                                                  3       50
                                 Madagascar
                                 Cairo, Egypt                                     2       32

                                 Dakar, Senegal                                   1       10

                                 Islamabad, Pakistan                              4       65
                                 Johannesburg, South
                                                                                  1       8
                                 Africa
                                 Kabul, Afghanistan                               1       4

            March                Karachi, Pakistan                                1       39

                                 Monrovia, Liberia                               17      578

                                 Phnom Penh, Cambodia                             1      130

                                 Rangoon, Burma                                   1       25

                                 Saclepea, Liberia                                1       93

                                 Saniquellie, Liberia                             3       50

                                 Suakoko, Liberia                                 1      108

                                 Washington, D.C.                                 3      225

 TOTAL                                                                           163    4,963




2 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND
ACTIVITIES: U.S. AGENCY FOR
INTERNATIONAL DEVELOPMENT




This mural was painted by the community of Mampuján in Colombia. (Photo by Janelle Conaway for USAID.)




	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   21
2 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ACOUNTABILITY




Contractor and Grantee Accountability—Audits
Overall Audit Activity

USAID is required by the Federal Acquisition Regulation, the Single Audit Act, Office of Management
and Budget (OMB) circulars, and its own internal policies and procedures to obtain appropriate and
timely audits of its contractors, grantees, and enterprise funds. OIG provides oversight of these audit
activities, ensuring that audits are conducted in accordance with appropriate quality standards.

Audits of U.S.-Based Companies

U.S.-based companies carry out many USAID-funded activities. The Defense Contract Audit Agency
(DCAA) conducts audits, reviews, and preaward surveys of U.S.-based contractors on USAID’s behalf.
OIG then reviews DCAA’s reports and transmits them to USAID management.

During this reporting period, OIG reviewed and transmitted 19 DCAA reports covering approximately
$802 million in costs (with questioned costs of more than $2.9 million); and reviewed and transmitted 38
incurred cost audit reports covering approximately $67 million in costs (with questioned costs of more
than $7 million).

Audits of U.S.-Based Grantees and Enterprise Funds

U.S.-based nonprofit organizations also receive significant USAID funds to implement development
programs overseas. As required by OMB Circular A-133, “Audits of States, Local Governments, and
Non-Profit Organizations,” nonfederal auditors perform annual financial audits of USAID grantees that
spend more than $500,000 in federal funds annually. The auditors are required to identify:

    •	   Significant deficiencies involving major programs.
    •	   Material noncompliance with laws and regulations.
    •	   Known fraud affecting federal awards.
    •	   The status of prior audit findings.

In some instances, USAID contracts with DCAA to perform special financial audits and with
independent public accounting firms to perform Agency-contracted financial audits of U.S.-based


	                                                     U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   23
grantees. OIG provides oversight for the nonfederal auditors performing these audits to determine
whether auditors have prepared audit reports in accordance with the reporting requirements of OMB
Circular A-133 and generally accepted government auditing standards.

OIG also conducts quality control reviews to (1) determine whether the underlying audits were
conducted in accordance with generally accepted government auditing standards and meet the
requirements of OMB A-133, (2) identify and follow up work needed to support the opinions contained
in the audit report, and (3) identify issues that may require management attention by federal officials.

Enterprise funds are U.S.-based nonprofit organizations established under the Support for East European
Democracy Act of 1989 (Public Law 101-179) and the Freedom Support Act of 1992). Currently, USAID
has two enterprise funds that invest in Eastern Europe, and two in Africa. Enterprise funds are subject to
annual audits of financial statements performed by private accounting firms and reviewed by OIG.

During the reporting period, OIG reviewed 24 A-133 Single Audit Act reports, and issued 1 review for
Agency-contracted audit reports, 1 limited scope review, and 1 enterprise funds review, covering USAID
funds of approximately $1.7 billion spent by U.S.-based grantees.

Audits of Foreign-Based Contractors and Grantees

OMB Circular A-133 does not apply to foreign-based contractors and grantees. Given the high-risk
environment in which USAID operates, however, USAID has extended similar audit requirements to
its foreign-based contractors and grantees through standard provisions included in grants, cooperative
agreements, and contracts. Financial audits of foreign-based contractors and grantees are normally
conducted by independent audit firms approved by OIG’s overseas regional offices.

Under the recipient-contracted audit program, audits are required for all foreign entities that spend
$300,000 or more in USAID funds during their fiscal year. USAID may also request financial audits of
nonprofit organizations that fall below the $300,000 threshold.

USAID’s financial audit requirements concerning its contracts, grants, and cooperative agreements with
foreign entities normally are satisfied under the recipient-contracted audit program. However, Agency-
contracted audits may be initiated by either USAID or OIG to provide additional audit coverage or
address specific concerns.

OIG reviews all audit reports and, if they are found to be in compliance with OIG’s Guidelines for
Financial Audits Contracted by Foreign Recipients, transmits the reports to the appropriate USAID
mission for corrective actions. Audit firms also are notified of any problems identified in the audit
reports.




2 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
During this reporting period, OIG reviewed 170 audits of foreign-based organizations, covering more
than $915 million in expenditures and resulting in about $8 million in questioned costs, as well as
12 audits of funds granted to foreign governments, covering $79 million in expenditures and $23,000
in questioned costs. OIG also completed seven quality control reviews to ensure that the audits were
completed in accordance with appropriate audit standards.

Employee Misconduct

Foreign Service National Terminated for Defrauding U.S. Government

In January 2014, USAID OIG received allegations that a Foreign Service National (FSN) leasing agent in
Kazakhstan was engaged in a kickback scheme with a local real estate agent. The FSN employee worked
exclusively with the agent on USAID rental properties. The FSN employee admitted to OIG investigators
that for several years she inflated rental property charges to the U.S. Consulate in exchange for a share of
the agent’s first month’s commission. The FSN employee was terminated in March 2014 as a result of the
investigation.

USAID Executive Officer Abused Motor Pool

An executive officer in Latin America, who oversaw motor pool activities, improperly ordered the
use of USAID vehicles to transport him and others back and forth between home and work. In
November 2013, USAID management issued a bill of collection to the employee to recoup the fuel costs
associated with the improper vehicle usage.

USAID Foreign Service National Terminated for Violating USAID Procurement Guidelines in
Afghanistan

A USAID FSN was terminated in October 2013 for violating procurement policies related to a multi-
million-dollar contract in Afghanistan. The Special Inspector General for Afghanistan Reconstruction
(SIGAR) received an allegation in June 2013 that the employee sought a bribe from a potential bidder
on a USAID contract. After a joint investigation by OIG and SIGAR found evidence the employee
violated several USAID policies related to the integrity of the procurement process, the employee was
terminated.

USAID Contractor Reimburses Funds to USAID

Central Asia Development Group (CADG) reported that an internal audit uncovered fraud perpetrated
by two Afghan employees in the province of Zabul. The investigation found the fraud was committed
by creating fictitious payment sheets on several cash-for-work projects between July 2012 and December
2012, which caused CADG to overcharge USAID more than $400,000. Both individuals resigned in



                                                        USAID OIG Semiannual Report to the Congress 25
December 2012 before CADG discovered the fraud. The matter was reported to the Afghan National
Police. Extensive efforts to locate the subjects were unsuccessful. In March 2014, CADG reimbursed the
amount.

Contract Suspended After Investigation of Fraud

OIG was advised that a USAID agreement officer’s representative (AOR) in Africa approved an
unauthorized $735,000 subaward for American Procurement Inc., which included a $454,000 cash
advance. OIG’s investigation confirmed that the AOR approved the work plan, budget, and the subaward
at the direction of the alternate AOR, who was a senior FSN. The alternate AOR misled the primary AOR
into believing he had received approval from the mission. The alternate acknowledged what he did and
admitted to not having received approval from the mission for the work plan or budget before resigning
in January 2014 in lieu of termination. The primary AOR was placed on a performance improvement
plan. The $735,000 subcontract was suspended.


Expanding Accountability
Corruption and lack of accountability are major impediments to development. They threaten to negate
years of economic growth, especially in the areas of the world subject to political instability and violence.

OIG audits and investigations provide two methods of safeguarding USAID funds. However, OIG
pursues additional methods to promote accountability and transparency, described below.

Expanding Supreme Audit Institutions’ Capabilities

OIG continues to work closely with selected supreme audit institutions (SAIs) in countries where USAID
is present. SAIs are the principal government audit agencies in the recipient countries and are often the
only organizations that have a legal mandate to audit the accounts and operations of their governments.
As such, SAIs may be called upon to audit funds provided to host governments by USAID or other
donors. OIG and USAID missions have signed memorandums of understanding (MOUs) with SAIs in
23 countries.

Before SAIs may conduct audits for USAID, they must demonstrate sufficient professional capacity and
independence. OIG often provides training to SAIs in how to conduct financial audits of USAID funds
in accordance with Agency guidelines and U.S. Government auditing standards. OIG provides quality
control for all audits of USAID funds performed by SAIs.

During this reporting period, SAIs issued 15 audit reports covering approximately $98 million in USAID
funds. They reported approximately $663,000 in questioned costs, 9 internal control weaknesses, and
20 material instances of noncompliance.



2 6 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Training USAID Staff and Others

OIG remains committed to preventing losses of development funds and continues to provide training in
cost principles and fraud awareness to USAID employees, contractors, grantees, SAIs, and auditors from
local accounting firms.

Cost Principles Training

USAID’s contracts and grants incorporate cost principles that define the types of costs that can be
legitimately charged to USAID programs.

To increase awareness of—and compliance with—cost principles and to promote the highest standards,
OIG conducts training for overseas USAID staff, contractors, grantees, and others.

This training provides a general overview of U.S. Government cost principles and actual examples
of instances that demonstrate concepts such as reasonableness, allocability, allowability, and various
specific cost principles (e.g., travel expenses or entertainment costs). The training also includes financial
audit requirements and accountability issues.

During this reporting period, OIG provided training in cost principles and related subjects in 7 countries
to approximately 500 people including employees of USAID and international nongovernmental
organizations, contractors and grantees, and auditors from local public accounting firms.

Fraud Awareness

During the current reporting period, OIG placed an emphasis on fraud prevention by providing
163 fraud awareness briefings to 4,963 people.

Investigations resulting in criminal or civil prosecution are publicized on USAID’s Web site and in other
settings, calling attention to prosecutorial actions taken against individuals or organizations whose
illegal activities have targeted foreign assistance activities and programs.

In addition, OIG has developed publications and educational materials. OIG hotline posters, fliers, and
cards have been distributed worldwide. To expand OIG’s outreach efforts, these materials are produced
in many languages.




                                                          USAID OIG Semiannual Report to the Congress 27
2 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
FOOD SECURITY



USAID’s agriculture and food security programs
work to increase food security through Feed                   SIGNIFICANT FINDINGS AND ACTIVITIES
the Future, the U.S. Government’s global
                                                              • OIG’s Audit of USAID’s Central Asian
hunger and food security initiative. The Agency
                                                              Republics’ Family Farming Program for
supports agricultural research and development,               Tajikistan found that the program has made
expanding and enhancing agricultural markets                  positive contributions through its technical
and trade, capacity development, global nutrition             assistance to food-insecure communities. For
programs, and investment in sustainable                       example, the program has assisted farmers
agriculture. It also provides food assistance to              in targeted communities by demonstrating
                                                              improved agricultural approaches. It also
vulnerable populations and those in crisis.
                                                              helped establish 20 water user associations and
                                                              trained women on nutrition enhancement and
OIG’s oversight of agriculture and food security              household economics. However, OIG found
programs this reporting period focused on                     several problems in contract modifications and
assistance programs in the Central Asian                      unreliable reported results.
Republics and Madagascar. Audits noted
problems with data quality, among other areas.                • Implementers made progress in meeting
                                                              program goals in USAID’s food security
                                                              program in Madagascar and received positive
Audit of USAID/Central Asian Republics’
                                                              feedback from beneficiaries. However, they
Family Farming Program for Tajikistan                         failed to divulge names of people suspected of
Report No. 5-176-14-002-P                                     fraud, including one employee who resigned
                                                              after being caught falsifying training receipts.
Approximately 30 percent of the population
of Tajikistan suffers from food insecurity.
Most affected are those in remote areas,
especially unskilled laborers, farmers, and
members of households headed by women.
To address Tajikistan’s food security problem, USAID/Central Asian Republics awarded a task order
to Development Alternatives Inc. (DAI) worth approximately $29 million to implement the Family
Farming Program for Tajikistan. For a 4-year period starting in September 2010, its main objectives are
improving food security by increasing the volume of agricultural production, increasing the income of
food insecure households to make food more accessible, and raising the standard of household nutrition
in various regions in which food insecurity exists.




	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   29
OIG found that the program has made positive contributions through its technical assistance to food-
insecure communities. For example, the program has assisted farmers in targeted communities by
demonstrating improved agricultural approaches. It also helped establish 20 water user associations and
trained women on nutrition enhancement and household economics.

OIG also found several problems. To start, when USAID decided to implement the Feed the Future
initiative in Tajikistan in late 2011—which changed the focus and components of the original program—
the mission sought to modify the contract task order. That modification, however, had not been executed
at the time of the audit, which took place 15 months later. The delay stemmed from the mission’s and
the contractor’s limited technical capacity and the frequent turnover of key officials. The slow progress
in modifying the task order delayed completion of the performance management and evaluation plan, a
critical tool for planning, monitoring, and documenting data.

In addition, OIG found that most of the program’s reported results were not reliable because the data
was not supported properly. Results for some indicators were not valid and did not measure the intended
result. These deficiencies impeded the mission’s ability to measure the program’s overall performance
and make informed decisions. Finally, the contractor did not implement required branding and marking
at all sites. Without proper branding, the people of Tajikistan will not realize that the assistance is
provided by the U.S. Government.

USAID has made management decisions on all four OIG recommendations and has taken final action
on two.

Audit of USAID’s Food Security Program in Madagascar
Report No. 4-962-14-002-P

Madagascar suffers from chronic food insecurity caused by low agricultural productivity, lack of dietary
diversity, and disease—all of which are exacerbated by natural disasters and poor governance. To
address Madagascar’s food insecurity, USAID awarded a 5-year, $84.7 million cooperative agreement to
Catholic Relief Services (CRS) in May 2009 to implement the Strengthening and Accessing Livelihoods
Opportunities for Household Impact (SALOHI) program. The goal of the program is to reduce food
insecurity by improving the health and nutritional status of children younger than 5, improving
household livelihoods, and strengthening communities’ resilience and ability to withstand economic
shocks and natural disasters.

OIG found that SALOHI met or made acceptable progress toward meeting the performance targets
related to those program goals. For instance, SALOHI had already reached its 5-year target for the
percentage of underweight children 0-59 months (a key measure of program impact). Beneficiary
feedback during OIG’s site visits was also quite positive.




3 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
However, inconsistent implementation reduced the program’s impact. Implementation strategies varied
among partners, and disaggregated performance results showed that some partners were not meeting
their targets while others exceeded theirs. Because SALOHI was structured as a consortium that
reported only consolidated results, USAID was unaware of these differences.

In addition, CRS did not divulge names of people suspected of fraud. It terminated employment
with seven individuals for falsifying hotel receipts, severed its subagreement with a local faith-based
organization for mismanaging funds and disregarding internal controls, and identified another
employee who resigned after being caught falsifying training receipts. CRS initiated a forensic audit
involving its entire SALOHI staff because of these concerns, and it recommended that its partners do
the same. However, CRS did not disclose to USAID the names of its former employees, contrary to the
guidance provided by the Agency’s Compliance Division. Further, CRS only planned to share the results
of the audit if U.S. Government funds were misappropriated.

OIG noted a number of additional issues with USAID’s leadership role in overseeing program
recommendations, environmental compliance, and ensuring appropriate branding and marking. Also,
USAID did not resolve commodity losses worth more than $80,000, and it did not address problems
with the quality of sorghum the program provided. There were also problems with performance data
precision and reliability.

USAID made management decisions on all 17 OIG recommendations and has taken final action on 3.

USAID Subcontractor Debarred Following Conviction on Drug Charges

The director general of a USAID/Haiti subcontractor, ANAPAAAH (the Association Nationale des
Producteurs Agricoles pour l’Avancement de l’Agriculture Haïtienne), was arrested by the Drug
Enforcement Administration on a charge of conspiracy to distribute cocaine. After being extradited
to the United States, he pled guilty to the federal charge in Florida and was sentenced to 51 months
in prison. An OIG review determined that the subject’s company received approximately $360,000
in funding under the USAID WINNER program. A referral from OIG to the USAID’s Compliance
Division resulted in his debarment in February 2014.




                                                       USAID OIG Semiannual Report to the Congress 31
32 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
CRISES, CONFLICT, AND INSTABILITY




With a focus on crisis prevention, response,
recovery, and transition, USAID works to                     SIGNIFICANT FINDINGS AND ACTIVITIES
strengthen resilience by helping states and
                                                             • OIG found that USAID had taken steps to
communities prepare for and mitigate the
                                                             establish policies and procedures to build
impacts of disasters. USAID works to provide                 positive environments with respect to its
life-saving humanitarian assistance; to accelerate           Syria-related activities. Although the ability
recovery by supporting livelihoods, markets,                 of these implementers to directly conduct
and the sustainable provision of basic services;             risk assessments in Syria is limited, USAID
and to address underlying grievances that cause              requires its implementers worldwide to submit
                                                             a safety and security plan with their proposals,
instability and conflict. The Agency also strives
                                                             including information on risk-mitigation
to promote peaceful political transitions by
                                                             measures. Implementers identified problems
strengthening civil society and respect for human            with detention, kidnapping, and snipers. Some
rights, facilitating reconciliation, supporting              said they were accepted in local communities,
effective democratic governance, and fostering               but their acceptance among fundamental
the resumption of basic economic activity.                   Islamist groups working with the opposition
                                                             was nonexistent, which increased their risk.
                                                             To the extent possible, implementers used
Survey of Selected USAID Syria-Related
                                                             full- or part-time staff and other networks
Activities
                                                             to monitor activities; however, implementers
Report No. 6-276-14-001-S                                    expressed concern that the security situation
                                                             was getting worse, limiting their ability to enter
As of September 2013, the U.S. Government had                the country.
committed more than $1 billion in assistance
in response to the Syrian conflict. The State                • OIG conducted several investigations during
                                                             this reporting period involving embezzlement
Department and USAID are the main agencies
                                                             and fraud. In one instance, OIG found that an
involved; the State Department has primary
                                                             Afghan employee working on a municipalities
responsibility for Syrian refugees, while USAID              program for Chemonics had stolen project
focuses on providing humanitarian aid to those               funds. The employee was referred to
still in Syria and supporting the countries that             the Afghan Attorney General’s office for
are taking in refugees. USAID has awarded                    prosecution. In another investigation, five
approximately $845 million through the                       employees—including a chief of party and
                                                             deputy chief of party—were terminated after
Agency’s Bureau for Democracy, Conflict, and
                                                             OIG identified improper hiring practices.
Humanitarian Assistance including: the Offices
of U.S. Foreign Disaster Assistance, Food for



	                                                  U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   33
Peace, Transition Initiatives, Conflict Management and Mitigation, and the Center of Excellence on
Democracy, Human Rights, and Governance. Officials said the Agency’s Bureau for the Middle East and
USAID/Jordan also were conducting Syria-related activities.

The five Office of Foreign Disaster Assistance implementers selected for review during this survey had
taken steps to establish policies and procedures to build positive environments. Although the ability of
these implementers to directly conduct risk assessments is limited, USAID requires all implementers—
including those working in response to the Syria crisis—to submit a safety and security plan with
their proposals. These plans must be specific about their planned activity locations and must include
information on risk-mitigation measures. In the proposals OIG reviewed during fieldwork, implementers
identified problems with detention, kidnapping, and snipers. Some implementers said they were
accepted in local communities, but their acceptance among fundamental Islamist groups working
with the opposition was nonexistent, which increased risks for those implementers. The implementers
also reported that the presence of these groups in many of the camps for internally displaced people in
northern Syria was increasing.

To the extent possible, implementers used full- or part-time staff and other networks to monitor
activities in Syria. However, implementers expressed concern that the security situation was getting
worse, limiting their ability to enter Syria.

OIG made no recommendations.

Audit of USAID/West Africa’s Peace Through Development II Program
Report No. 7-625-14-001-P

About 50 million people inhabit the Sahel region of Africa in some of the poorest, most unstable
countries in the world. Many are frustrated by the lack of economic opportunities, weak and corrupt
governments, and natural resource degradation. Therefore, they are vulnerable to violent extremism and
the influence of terrorist groups. Youth are especially vulnerable if they are unemployed, uneducated,
and do not have any job prospects.

Burkina Faso, Chad, Mauritania, and Niger are four countries in the Sahel that are at risk. Although
violent or extreme ideology is not widespread in these nations, the chances of it taking hold are likely
to increase if living standards and governments do not improve. To address these concerns, the U.S.
Departments of Defense and State and USAID have formed the Trans-Sahara Counterterrorism
Partnership to improve country and regional capabilities in the Sahel and the nearby Maghreb to defeat
terrorist organizations. Contributing to the goals of this partnership, USAID’s West Africa Regional
Mission awarded the nearly $62 million Peace Through Development II Program to International Relief
and Development (IRD) to help make communities less vulnerable.




34 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG found that IRD ran into significant problems in the first year, during which only 26 percent of
planned activities were implemented. By the end of March 2013, more than $10.4 million had been spent
with few results. Problems included cost overruns, which in some cases exceeded first-year projections
by more than 400 percent. With only 3 months left in the second year, the program had already exceeded
its annual budget for nearly all line items relating to operating expenses by 18 to 364 percent. In addition,
two of three local partners discontinued their partnerships with IRD because they were dissatisfied with
the company’s business practices. Moreover, OIG found problems with internal controls, policies, and
procedures, as well as data quality and training.

OIG made 12 recommendations, and USAID made management decisions on all of them. Final action
has been taken on four.

Chemonics Refunds Savings to USAID After Investigation Uncovers Embezzlement Scheme

In October 2013, USAID contractor Chemonics reported to OIG that an Afghan employee working
on the Regional Afghan Municipalities Program for Urban Populations for the Regional Command
South had stolen project funds. An internal investigation into the matter resulted in the termination of
the employee and the implementation of a new cash payment procedure to prevent future thefts. Since
the funds had already been charged to USAID, Chemonics repaid the amount in November 2013. In
February 2014, the subject was referred to the Afghan Attorney General’s Office for local prosecution.

Five USAID Contractors Terminated

Five employees of USAID implementer AECOM were terminated in November 2013 following an
investigation into allegations of improper hiring practices in the Stabilization in Key Areas–West
program based in Herat, Afghanistan. After receiving allegations in June and July 2012 about these
problems, OIG coordinated with AECOM to launch an inquiry into the matter. The investigation
uncovered evidence from an internal audit in June 2012 substantiating the allegations and leading to the
termination of the employees, including the chief of party and deputy chief of party.

Fraud-Related Termination of USAID Grant in Pakistan

An OIG investigation substantiated allegations of fraud against Sangam Development Organization
(SDO), a grantee under the Small Grants and Ambassador’s Fund Program (SGAFP) implemented
by the National Rural Support Program (NRSP), as well as kickbacks paid by SDO to two NRSP
employees related to the scheme. The investigation found that the SDO and NRSP employees conspired
to misrepresent the total number of biogas plants built under the grant, claiming payment for 100 when
only 80 were constructed. SDO personnel also knowingly falsified documents, withheld salary payments
from employees, and made payments to NRSP employees responsible for overseeing the program. OIG
has referred the matter to USAID/Pakistan for potential recovery of approximately $15,000 and has also



                                                         USAID OIG Semiannual Report to the Congress 35
referred SDO, its leadership, and two former NRSP employees for debarment. In addition, in November
2013, an NRSP employee was terminated and another resigned.

USAID Grant in Pakistan Terminated

In November 2013, NRSP terminated a grant that it awarded to Al-Mehboob Welfare Society (AMWS)
under the Small Grants and Ambassador’s Fund Program. The OIG investigation determined that
AMWS submitted inflated costs for sand filters in its grant proposal. In addition, NRSP modified its
application process to include further measures to strengthen the pre- and post-award process.




3 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
STABLE, PROSPEROUS, AND DEMOCRATIC
STATES



USAID’s efforts to promote democracy, human
rights, and good governance are multifaceted.                  SIGNIFICANT FINDINGS AND ACTIVITIES
They include supporting free and fair elections,
                                                               • OIG’s audit of USAID/Indonesia’s Kinerja
civil society, and independent media, as well
                                                               Program found that improvements made in the
as protecting human rights, which includes                     health sector were generally the direct result
countering trafficking in persons. USAID                       of the health clinics’ own internal initiatives,
recognizes that promoting accountability and                   with the district government having little or
transparency in the countries it serves is key to              no involvement. Although there was increased
these efforts.                                                 support from parents and the community in
                                                               the education process, greater transparency
                                                               in the planning and budgeting processes, and
OIG’s work noted challenges in the areas of
                                                               improvements in the overall appearance of
contract or program management, data quality,                  the school, these were primarily the result of
and internal controls.                                         actions taken by the school and not the district
                                                               government.
Audit of USAID/Colombia’s Consolidation and
Enhanced Livelihood Initiative-Central Region                  • OIG found that USAID/Iraq’s Administrative
                                                               Reform Project had mixed results. USAID is
Report No. 1-514-14-004-P
                                                               carrying out the national policy development
                                                               component successfully but is struggling with
According to the U.S. State Department, endemic                the civil service reform and administrative
violence and social inequities, combined with                  decentralization components. The latter two
limited government presence, have led to the                   components—which represent 72 percent
expansion of illicit drug cultivation and an                   of the project’s funding—faced a number of
illicit economy in large areas of Colombia.                    challenges that hindered progress, including
                                                               lack of full support from the Iraqi Government.
To address these problems, the Colombian
Government unveiled Plan Colombia in 1999
                                                               • Individuals at the Ministry of Finance and
as a comprehensive strategy to promote peace,                  other counterparts said that USAID/Jordan’s
combat the narcotics industry, revive the national             Financial Reform Project has provided valuable
economy, improve respect for human rights, and                 technical assistance. OIG auditors, however,
strengthen Colombian democratic and social                     found that the scope of the project had been
institutions. In 2004, the Colombian Government                expanded beyond its original intent and
                                                               objectives had become unclear.
was able to establish, for the first time in
recent history, a presence in all the country’s
municipalities.



	                                                    U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   37
To maintain state presence in areas previously controlled by non-state armed groups, the government
launched the National Consolidation Plan in 2007. To support this effort, USAID—through Tetra Tech—
initiated the $115 million Consolidation and Enhanced Livelihood Initiative-Central Region (CELI-
Central) in April 2011. Tetra Tech directly implemented an initial wave of rapid-response activities in
the target municipalities. These activities included small infrastructure projects, such as building school
bathrooms, cafeterias, and playgrounds, as well as paving roads and making donations for libraries and
other community spaces.

OIG determined that the mission successfully implemented a number of activities designed to help
communities gain confidence in the government, such as those to improve or foster infrastructure,
land ownership, economic development, good governance, and social development. Funds were used
to respond to urgent priorities of the targeted region, such as providing support to purchase land for
displaced people. In addition, the initiative supported capacity-building projects using profits from oil,
gas, and mineral development in the country. CELI-Central also helped form 36 alliances that provided
technical assistance to farmer and producer associations seeking to improve their businesses.

OIG noted some areas that needed improvement, however. CELI-Central did not achieve many of
its expected results because targets for the first 2 years were too ambitious. Some activities started or
finished late, and Tetra Tech had problems with staff turnover. In addition, USAID had not given Tetra
Tech any training on counter-trafficking in persons, despite the fact that the United Nations Office on
Drugs and Crime reported that Colombia’s endemic violence and internal armed conflict, together with
the production of narcotics and illicit crops, have made the country vulnerable to trafficking in persons.

OIG made two recommendations. USAID made management decisions on both and has taken final
action on one.

Audit of USAID/Indonesia’s Kinerja Program
Report No. 5-497-14-001-P

In September 2010, USAID awarded a 5-year, $24.8 million cooperative agreement to RTI International
to implement the Kinerja-Local Governance Service Improvement Program (Kinerja). Working with
a consortium of five partners, Kinerja (the Indonesian word for “performance”) seeks to improve how
local governments deliver public services.

Although the program was making some progress, OIG found that local governments needed to
make greater efforts in supporting the program’s service improvement activities. Although service
improvements were noted, most of them—particularly in the health and education sectors—were
attributed to either Kinerja-supported technical support provided directly to the service delivery units
(SDUs) or activities jointly carried out by the SDU and the local community. For instance, improvements




3 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
made in the health sector were generally the direct result of the health clinics’ own internal initiatives,
with the district government having little or no involvement. The head of one clinic said it had not
received any additional funding, staff, or equipment from the district, which was also the case in other
clinics visited.

The education sector experienced similar improvements but the same issue. Although there was
increased support from parents and the community, greater transparency in the planning and budgeting
processes, and improvements in the overall appearance of the schools, these were primarily the result of
actions taken by the schools and not the district government.

OIG made three recommendations, and USAID made management decisions on all of them.

Audit of USAID/Iraq’s Administrative Reform Project
Report No. 6-267-14-004-P

Political instability and sectarian violence have affected the Iraqi Government’s ability to develop,
finance, and implement programs and projects to meet local needs. Since 2003, Iraq has been
transferring power to its 18 provinces. However, the challenge of improving Iraq’s public institutions, the
large size of its federal service, and the outdated tools available to the Government’s employees to meet
local demand for quality services have made transition difficult.

USAID awarded Management Systems International Inc. a 4-year, $156.7 million contract in June
2011 to implement the Administrative Reform Project, the goal of which is to improve how the Iraqi
Government delivers public services. USAID/Iraq adopted a “whole of government approach” to
implementing the project, which involves working with all levels of government from the central to the
provincial. The project focused on three components: civil service reform, national policy management,
and administrative decentralization reform (i.e., decentralizing administrative functions to lower levels
of government and strengthening human and financial resources at the provincial level).

OIG found mixed results. USAID is carrying out the national policy development component
successfully but is struggling with the civil service reform and administrative decentralization
components. The latter two components, which represent 72 percent of the project’s funding, faced a
number of challenges that hindered progress.

The two components lacked full support from the Iraqi Government. As a result, USAID was unable
to address the underlying challenges of civil service reform and efforts to help central ministries devise
regulations, and instructions on giving authority to lower levels of government stalled. In addition, the
project did not help five ministries improve business functions as planned. None had improved their
operations and completed organizational development cycles or developed action plans to improve their




                                                         USAID OIG Semiannual Report to the Congress 39
budget execution. Only two of the ministries reengineered their key businesses, and only one began
developing standard operating procedures.

OIG also found problems with USAID’s project oversight. The mission paid more than $1 million in
fees for contract deliverables that did not meet contract requirements, and overall oversight of contract
administration was weak.

OIG made ten recommendations, and USAID reached management decisions on all of them. Final
action has been taken on all but one.

Audit of USAID/Iraq’s Broadening Participation Through Civil Society Project
Report No. 6-267-14-006-P

Since 2003, Iraq has made progress transitioning from an authoritarian to a more democratic
government in which civil society can operate more openly. Consequently, international donors have
poured millions of dollars into civil society organizations (CSOs), and their numbers have increased
significantly since 2003. With shifting priorities and a reduced budget, USAID/Iraq’s challenge is to
ensure that the mission solidifies its achievements in civil society before the Agency leaves Iraq.

To strengthen the civil society sector to help Iraq become a more participatory democracy, the mission
awarded a 3-year, $75 million cooperative agreement to Mercy Corps to carry out the Broadening
Participation Through Civil Society Project. These funds included $15 million from the Marla Ruzicka
Iraqi War Victims Fund, directed by Congress to help victims of conflict.

OIG found that the activities Mercy Corps implemented in its first year generally had positive results,
such as helping to build organizational capacity for more than 80 local CSOs and helping civilian victims
of conflict start small businesses and address community needs.

However, the project as a whole was behind, and numerous activities were changed substantially or
canceled. Challenges included the departure of a key subpartner responsible for implementing numerous
activities. In addition, the mission reduced the project budget from $75 million to $55 million and asked
Mercy Corps to adjust activities without modifying the cooperative agreement’s project description,
budget, or performance management plan accordingly. Moreover, OIG identified internal control
problems with Mercy Corps’ grant process, as well as issues with USAID’s financial system that resulted
in incorrectly reported spending on a congressional directive.

OIG made four recommendations to help the mission improve the project. USAID has made
management decisions on all four recommendations and taken final action on three.




4 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Audit of USAID/Iraq’s Elections Support Follow-on Project
Report No. 6-267-14-002-P

Since 2004, USAID has been actively helping the Iraqi Government hold free, fair, and credible
elections. In the past decade, Iraq has gone from a dictatorship to holding eight successful elections,
with the assistance of two consecutive democracy and governance projects funded by USAID/Iraq. A
March 2012 audit of the first project, the 7-year, $103 million Electoral Technical Assistance Program,
concluded that the program did not achieve one of its main goals. That goal called for implementing
partner International Foundation for Electoral Systems to help build the Iraqi Independent High
Electoral Commission’s (IHEC’s) capacity so it could manage the electoral system with minimal
international assistance. The mission agreed to take corrective action implementing recommendations
in the follow-on Elections Support Project designed to help IHEC become a self-sufficient entity and to
implement OIG’s 11 recommendations.

In this follow-up audit, OIG determined that the actions the mission took in response to the
11 recommendations in the previous audit report were largely effective. However, the auditors noted that
strategic planning and capacity-building activities were not meeting targets, thus jeopardizing IHEC’s
ability to strategically plan for future elections effectively.

USAID/Iraq took final action on the one recommendation.

Audit of USAID/Pakistan’s Government-to-Government Assistance Program
Report No. G-391-14-002-P

Under USAID/Pakistan’s Government-to-Government Assistance Program, transfers of funds are
intended to meet objectives such as building Government of Pakistan institutional capacity, improving
the partnership between the United States and Pakistan to achieve more effective development,
increasing mutual accountability, and building capacity for Pakistani Government systems to achieve
sustainability in development programs. To date, USAID/Pakistan has disbursed $960 million in
government-to-government assistance to the Government of Pakistan and its subnational governments.
A previous audit of USAID/Pakistan’s government-to-government cash transfer agreement under the
Benazir Income Support Program (Report No. G-391-12-006-P, May 21, 2012), made clear the risk
inherent in this kind of assistance. OIG noted that potential misappropriation of funds, unauthorized
deposits, or diversions to the wrong accounts could occur.

OIG conducted this audit to determine whether USAID/Pakistan was managing its government-to-
government assistance program to achieve the mission’s development goals, such as creating improved
opportunities for work and education, increasing stability in certain areas, and improving the Pakistani
people’s economic status.




                                                       USAID OIG Semiannual Report to the Congress 41
Because program achievements were not properly measured or documented, OIG relied on anecdotal
evidence for feedback about USAID/Pakistan’s government-to-government assistance projects. The
mission had not conducted reassessments, updated assessments, or evaluated its government-to-
government assistance projects, nor had it validated training activities designed to build capacity in
government entities implementing government-to-government projects. However, staff members at
some of the five entities OIG included in the audit expressed their appreciation for capacity-building
training and USAID funding of their projects.

OIG identified four weaknesses in the mission’s assistance program, including a need to reassess
Government of Pakistan implementing entities, the existence of conflicting guidance on requirements
for project design and implementation, the need to validate the effectiveness of training intended
to increase the capacity of government entities, and data quality problems. OIG made eight
recommendations to help USAID/Pakistan strengthen its management of the Government-
to-Government Assistance Program, and USAID has made a management decision on one
recommendation thus far.

Review of USAID/Afghanistan’s Electoral Assistance Program
Report No. F-306-14-001-S

Afghanistan’s presidential and provincial council elections in April 2014 are widely regarded as a
watershed event in the country’s future development. The U.S. Government believes that Afghanistan’s
ability to sustain governance, development, and security gains after 2014 will largely depend on
a successful presidential election and a smooth transfer of power. The Government of the Islamic
Republic of Afghanistan and members of the international community have agreed that credible
and inclusive elections are essential to a secure, just, stable, and prosperous Afghanistan. Consistent
with this recognition, the government is committed to conduct credible, inclusive, and transparent
presidential and parliamentary elections in 2014 and 2015 according to the Afghan Constitution, in
which all citizens have the opportunity to participate freely.

Toward this end, USAID sponsored efforts to improve Afghanistan’s voter registry, promoted civic
coalition building, and encouraged civic education and advocacy efforts in Afghanistan provinces and
districts. USAID projects in this area, at a cost of more than $200 million, were designed to promote
public consultation on the legal framework surrounding elections, develop the capacity of Afghan
electoral institutions, and support citizen participation so that elections reflect Afghan leadership and
choices.

OIG found that USAID assistance strengthened Afghan institutions’ ability to promote electoral
credibility, inclusiveness, and transparency and contributed to Afghan solutions to longer-term
electoral issues. Despite these successes, OIG noted limitations in plans for electoral support, including
a lack of support arrangements for electoral dispute resolution, a need to further define and implement



4 2 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
plans for support of independent domestic observers and women in key electoral roles, and a need to
refine the focus of USAID-sponsored civic education and outreach activities. In addition, provincial
council elections in 2014 proceeded under a voting system in which candidates may win with a very
small percentage of the vote, and elected officials often do not represent a majority of voters in their
constituencies. Moreover, several significant voter registration weaknesses mentioned in a previous OIG
report remained and were expected to affect the April elections. The audit also found problems with
sustainability of activities and monitoring and reporting weaknesses.

OIG made ten recommendations to improve the management of USAID/Afghanistan’s Electoral
Assistance Program. USAID has reached management decisions on all of them and taken final action on
two.

Review of USAID’s New Counter-Trafficking in Persons Program
Report No. 9-000-14-001-S

In 2000, Congress enacted the Trafficking Victims Protection Act (Public Law No. 106-386) to combat
trafficking in persons. The Act and its reauthorizations have promoted prevention, protection, and
prosecution and have included specific requirements for U.S. Government departments and agencies to
address trafficking in persons.

According to the Agency, between fiscal years 2001 and 2011, USAID programmed more than
$180 million in 68 countries and regional missions for countering trafficking in persons. In
February 2011, USAID launched a counter-trafficking in persons (C-TIP) code of conduct, which
prohibits employees from engaging in actions that foster trafficking in persons (TIP) and requires
USAID personnel to report suspected human trafficking cases. The code also requires that each mission
designate a C-TIP coordinator to disseminate TIP-related information and respond to TIP-related
inquiries. The Agency later issued implementing guidance and an Agency-wide standard operating
procedure for the code of conduct.

In February 2012, USAID issued a C-TIP policy, incorporating the principles established in the
Trafficking Victims Protection Act and building on the C-TIP code of conduct. The C-TIP policy
contains seven guiding principles that are driven by five programming objectives, which include
integrating efforts to combat trafficking into relevant Agency initiatives and programs; improving
codification and application of learning in efforts to combat trafficking; enhancing institutional
accountability to combat TIP as a result of training and coordination; augmenting C-TIP investments in
critical trafficking challenge countries; and increasing investments in TIP prevention and protection in
conflict and crisis-affected areas.

OIG reviewed USAID’s new program and found that the C-TIP policy aligns with the Agency’s broader
strategic plans and objectives, builds in flexibility, and reflects the experience of those inside and outside



                                                          USAID OIG Semiannual Report to the Congress 43
the Agency. However, although the center completed work and has important activities under way,
USAID faces challenges implementing the policy. For example, the policy implementation plan did not
establish priorities, C-TIP coordinators said they did not receive training to implement the policy, and a
cognizant USAID/Washington unit lacked data to monitor C-TIP policy implementation.

OIG made 11 recommendations to address these issues. USAID has made management decisions on all
of the recommendations.

USAID Cambodia Recovers Funds as Investigation Into Program Uncovers False Travel Claims

OIG previously reported on an investigation into false travel claims by Legal Support for Women and
Children in connection with a USAID-funded program in Cambodia. In January 2014, following OIG’s
investigation, the prime implementer, East West Management Institute, credited more than $535,000
back to USAID.

Former Employee of USAID Implementer Referred for Debarment for Soliciting Bribes

OIG referred a former employee of the Trust for Democratic Education and Accountability, an
implementer of the Citizen’s Voice Project in Pakistan, to USAID for debarment after an investigation
found that he solicited and received a bribe in connection with the program. The former employee
received a $30,000 bribe from a local information technology vendor in exchange for the promise of
future work on the USAID-funded project. The employee admitted to misconduct as part of a related
Pakistani police investigation as well as to passing bad checks in an effort to repay the bribe.

Former Employee Steals More Than $64,000 in USAID Funds

USAID awarded a grant to an Egyptian nongovernmental organization (NGO), Alliance for Arab
Women, to implement a civil society program. The NGO’s former accountant stole old checkbooks
from the NGO and forged the signatures of the NGO’s directors to illicitly withdraw $64,000 of USAID-
provided funds from the NGO’s accounts. The former employee was debarred, and the NGO was issued
a bill for collection for the embezzled funds. Egyptian judicial authorities issued an arrest warrant for the
accountant, who has since fled the country.




4 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SUSTAINABLE, BROAD-BASED ECONOMIC
GROWTH



USAID works to promote international economic
growth and trade by supporting sound economic                   SIGNIFICANT FINDINGS AND ACTIVITIES
policies, mobilizing entrepreneurs’ access to credit
                                                                • OIG’s audit of Haiti’s Improved Cooking
and markets, and supporting private enterprise.
                                                                Technology Program found that the program
Goals include building skills and capacity,                     did not reduce charcoal consumption by
developing an enabling regulatory environment,                  large users and households as significantly as
and encouraging market linkages.                                planned, reaching only 24 percent of the target.
                                                                Moreover, the stoves were too expensive for
USAID also seeks to promote economic growth                     many Haitians because the program has not yet
through education programming. These                            obtained carbon financing to reduce prices and
                                                                provide for its long-term financial sustainability.
programs work to improve early grade reading,
expand access to education and workforce                        • In OIG’s audit of USAID/Dominican
development, educate children and youth in crisis               Republic’s Effective Schools Program, OIG
and conflict, and provide training to address skill             found that the program provided significant
and knowledge gaps among mid- and high-level                    assistance to primary school education through
managers and professionals in other countries.                  school materials and activities such as training
                                                                classes, teacher mentoring, and workshops.
OIG’s audits during this reporting period noted                 Feedback from teachers and ministry officials
                                                                was positive overall, and teachers said training
problems with data quality, internal controls,
                                                                was helpful and practical. OIG also identified
inefficient operations, the need for improvement
                                                                problems with weak program monitoring,
in funds control, and program sustainability. OIG               absence of key documents—including a
also found $3.7 million in funds that could be put              sustainability plan—and the fact that the
to better use.                                                  implementer did not publicize success stories
                                                                as required.
Audit of USAID/Afghanistan’s Financial Access
                                                                • OIG’s audit of USAID/Guatemala’s
for Investing in the Development of Afghanistan
                                                                Multi-Sector Alliance Program identified
Project 	
                                                                opportunities for USAID to strengthen
Report No. F-306-14-002-P                                       program management. In addition, some
                                                                program activities had not demonstrated
USAID/Afghanistan’s Financial Access for                        sustainability.
Investing in the Development of Afghanistan
Project, a nearly $89 million effort implemented
by Chemonics, was initiated to build a sustainable,
diverse, and inclusive financial sector in the


	                                                     U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   45
country to generate and sustain quality employment. Its focus was on meeting the needs of micro-,
small, and medium-sized enterprises. With an anticipated completion date of August 2014, the project
was intended to enhance the capacity and outreach of financial institutions and their employees’ skills,
update and develop financial regulations, and provide technical assistance to mobile money providers.

OIG found that efforts to build capacity in financial institutions were generally working toward the
overarching project goal, and beneficiaries who received training had positive reviews. Moreover,
roughly 23 percent of the project’s financial industry trainees were women, a notable percentage because
women make up a considerably smaller percentage of workers in the industry. However, the project is
not meeting all of its objectives, particularly in the areas of facilitating job-creating loans to enterprises;
improving the enabling environment for policy, legal, and regulatory matters; and expanding mobile
money and branchless banking (the latter of which was not defined as a priority in the Afghanistan
National Development Strategy).

Across all objectives, OIG found several weaknesses, such as agribusiness activities not meeting
objectives; activities not strengthening the capacity of the central bank; the previously mentioned
difficulties with expanding mobile money banking; and a lack of a contract to conduct a financial audit
of the project.

The report includes four recommendations to strengthen USAID/Afghanistan’s Financial Access for
Investing in the Development of Afghanistan Project. USAID has reached management decisions on
each of the recommendations.

Audit of USAID/Dominican Republic’s Effective Schools Program
Report No. 1-517-14-001-P

In 2010, the United Nations Educational, Scientific and Cultural Organization and the World Forum
assessed the quality of education in the Dominican Republic and ranked its primary education as the
worst in the Central American and Caribbean region. Despite high enrollment, students were not
learning at the expected rate and received low scores on achievement tests in fundamental literacy and
mathematics. To enhance the quality of education in the country, USAID initiated the approximately
$17 million Effective Schools Program, which focuses on primary education in Grades 1 through
4. The program has three components: education management to strengthen school governance
practices; in-service training and curriculum development provided to existing teachers in participating
elementary schools to achieve significant improvements in reading, writing, and math; and monitoring
and evaluation to provide valid, reliable feedback about the program that supports changes, if warranted.

OIG found that the program has provided significant assistance to primary school education through
school materials and activities such as training classes, teacher mentoring, and workshops. Feedback




4 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
from teachers and ministry officials was positive overall, and teachers said training was helpful and
practical. During 2012, the mission reported that it had trained 4,729 teachers, surpassing the target
of 3,600. Nevertheless, the program might have been more successful if the various components were
integrated better. The grant agreement with Pontificia Universidad Católica Madre y Maestra (PUCMM)
stated that the components would be integrated to bring a comprehensive approach to affect the formal
education system as a whole; however, a November 2012 midterm evaluation observed that components
operated autonomously and recommended that PUCMM “seek opportunities to collaborate across
components at the project and at the school level” to make the program more efficient. Despite this
recommendation, PUCMM continued to manage the components as if each one were a separate project.

OIG also identified problems with weak program monitoring, absence of key documents—including a
sustainability plan—and the fact that the implementer did not publicize success stories as required. OIG
made ten recommendations to improve the program. USAID has reached management decisions on all
ten recommendations and has taken final action on seven.

Audit of USAID/Guatemala’s Multi-Sector Alliances Program
Report No. 1-520-14-002-P

Despite an abundance of natural and cultural resources, many Guatemalans live in poverty. In addition,
the nation has some of the lowest social indicators for the region in the areas of literacy, chronic child
malnutrition, and infant mortality. As part of USAID/Guatemala’s plan to address the country’s
challenges in health and education, the mission developed an approach to augment the impact of USAID
assistance through alliances with private organizations. The USAID public-partnership strategy includes
using funds from the private sector at a 2-to-1 ratio to the total USAID investment of approximately
$31 million.

OIG conducted this audit to determine whether the Multi-Sector Alliances Program and its
implementer, RTI International, were achieving their primary goal of forging alliances to support
development objectives of USAID missions in the Central America and Mexico regional strategy. OIG
found that USAID/Guatemala cannot determine whether program results are supporting that goal
because the mission did not set outcome indicators with tangible targets and time frames. Furthermore,
OIG found areas in which the mission could strengthen its management of the program, such as
documenting site visits and validating the accuracy of reported training data. OIG also determined that
the staff needed to monitor reconstruction activities to confirm that they were meeting environmental
requirements.

In addition, some program activities have not demonstrated sustainability. For example, water filtration
systems in one small community expired after 1 year and were not being replaced. The mission also
created two funds that did not have sustainability requirements and for which adequate USAID
guidance did not exist.



                                                       USAID OIG Semiannual Report to the Congress 47
OIG found that the mission had been proactive in validating RTI’s internal controls through a fiscal
year 2011 financial review. That review had 18 findings related to inadequate internal controls. Program
reviews conducted jointly by USAID and RTI in other countries had identified internal control
weaknesses, including the fabrication of data and employee theft. Because USAID/Guatemala took the
initiative to conduct such reviews, the mission recovered $26,615 in questioned costs and strengthened
internal controls over the program’s procurements and disbursements.

OIG made nine recommendations, and USAID made management decisions on all but one. Final action
has been taken on two of the recommendations.

Audit of USAID/Haiti’s Improved Cooking Technology Program
Report No. 1-521-14-005-P

Most Haitians meet their daily household energy needs with open fires or stoves that burn charcoal
or wood. Deforestation has caused erosion and destroyed natural watersheds, leaving Haiti vulnerable
to landslides and flash floods. In addition to environmental damage, relying on unclean fuels causes
health problems. Daily exposure to smoke from traditional cooking practices results in a range of
acute, chronic, and deadly health problems, especially respiratory illnesses. To address these problems,
USAID/Haiti entered into an $8.2 million contract with Chemonics International Inc. to implement the
Improved Cooking Technology Program. The program’s goal was to reduce charcoal consumption in
Haiti by establishing a thriving, sustainable, and affordable market for clean cooking solutions.

OIG found that the program has made some progress toward meeting its objectives. For example, it
has carried out systematic testing of various biomass stoves and selected four types to support and
promote through program-funded activities; developed strong relationships with five biomass stove
manufacturers and retailers to increase stove supply and price accessibility in several areas of Port-au-
Prince; helped manufacturers establish distribution networks and improve marketing and customer
service; trained 37 technicians in liquefied petroleum gas stove repair and manufacturing; and supported
and designed communications efforts to increase awareness of the improved cooking technology.

Despite these positive steps, the program did not reduce charcoal consumption by large users and
households as significantly as planned, reaching only 24 percent of the planned charcoal reduction
target (14,981 metric tons) and only 37 percent (10,905) of the anticipated beneficiaries. Moreover, the
stoves were too expensive for many Haitians because the program has not yet obtained carbon financing
to reduce prices and provide for the program’s long-term financial sustainability. Other aspects of the
cookstoves’ marketing effort needed to be addressed to expand sales, including establishment of a
certifying lab, improved marketing to promote the cookstoves through raffles, and elimination of an
unnecessary training component.




4 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG made 15 recommendations to improve USAID/Haiti’s implementation of the Improved Cooking
Technology Program. USAID has made management decisions on all of them and taken final action on
two.

Audit of USAID/Jamaica’s Basic Education Project
Report No. 1-532-14-003-P

Jamaica has made some progress in improving its educational system over the years and has achieved
near-universal enrollment rates in both primary and secondary education. However, the quality of
public education continues to face challenges because of inadequate teacher training, a lack of resources,
and the effects of crime and violence in schools. Over the past several years, on average, 71 percent of
fourth-grade students have been literate.

USAID/Jamaica’s Basic Education Project is intended to support programs that strengthen the quality,
efficiency, and equity of Jamaica’s primary education system. Juarez & Associates Inc. was chosen to
implement the project with an award of approximately $13 million. The project intended to strengthen
accountability in the education system by using measurement tools and standards, establishing reading
and math standards and improving student performance in those areas in the first through third grades,
strengthening public-private partnerships in education, and building capacity in various governmental
organizations to monitor school performance.

OIG found that the project was achieving some of the expected results. For example, the project
established reading and math standards for Grades 1-3 for the Ministry of Education and provided
training to more than 700 principals and teachers. It also provided approximately $938,000 in equipment
and supplies to the lowest-performing primary schools. Feedback from principals and teachers during
OIG’s site visits to 20 schools was positive overall.

However, OIG found that the project made little progress on seven of the original nine expected results
designed to strengthen the quality, efficiency, and equity of the primary education system. According
to mission officials, the lack of progress resulted from a shift in USAID strategy, funding constraints,
and the lack of institutional capacity in the Ministry of Education. Consequently, the mission reduced
funding by $3.8 million and the number of schools targeted from 250 to 172, eliminated efforts to
increase math proficiency, and dropped the expected result pertaining to strengthening public-private
partnerships. OIG also found that the mission paid the fixed-fee amount to the contractor although
some requirements were not completed and internal controls over supplies and equipment were weak.

This report made eight recommendations, and USAID has reached management decisions on all but
one. Final action has been taken on three recommendations.




                                                        USAID OIG Semiannual Report to the Congress 49
Audit of USAID/Jordan’s Fiscal Reform Project II
Report No. 6-278-14-003-P (Revised)

Although Jordan’s government debt as a percentage of gross domestic product decreased during the
past few years, reforms in the national government and economic challenges necessitate further fiscal
restraint and increased revenue to keep government debt at “acceptable” levels. To help the government,
USAID/Jordan launched the Fiscal Reform Project II (FRP II), which provides technical assistance to the
Ministry of Finance. In October 2009, USAID entered into a $38.5 million task order with Development
Alternatives Inc. to carry out the project, which was later increased to $43 million.

OIG conducted this audit to determine whether the project was achieving its main goals of
macroeconomic stability and economic growth through improving Jordan’s Ministry of Finance public
financial management and fiscal policy. OIG found that the project was partially meeting its goals.
Individuals at the Ministry of Finance and other counterparts said that FRP II had provided valuable
technical assistance and analysis, such as studies and a road map to develop a new energy strategy, tools
to develop strategies to improve fiscal management, and training in best practices and international
standards for government performance audits, among other advances. Also to its credit, the mission
took action in areas where reforms were stalled.

Despite these successes and proactive measures, OIG identified a number of problems. The mission did
not manage trade and investment funds effectively, nor did it follow requirements for using other than
full and open competition. To address the Government of Jordan’s needs, the mission expanded the
scope of the FRP II project beyond the original intent of fiscal reform, making the project’s objectives
unclear. In addition, because FRP II was directly staffing and supervising some government positions,
the ability of the government to sustain its financial management system is uncertain. OIG also
determined that the same type of assistance to Jordanian Customs will have diminishing marginal
returns because current and past investments have largely achieved results. The mission also had not
collected evidence from development experience and lessons learned to use in the design of a follow-on
project, thereby increasing the risk of duplicating past activities that had proven ineffective. Lastly,
USAID/Jordan’s performance monitoring was inadequate because data in FRP II’s annual performance
monitoring plans were not supported adequately.

OIG made five recommendations to address these and other problems, and USAID made management
decisions on all of them. After the issuance of the final report, the mission submitted revised
management decisions to resolve disagreements on two recommendations. OIG issued a revised
management decision memo in March 2014, acknowledging the revised management decisions and
resolving the disagreements.




5 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Audit of USAID/Pakistan’s Power Distribution Program
Report No. G-391-14-001-P

For almost a decade, Pakistan has grappled with a severe power crisis, and the gap between the demand
for and supply of electricity has increased for a variety of reasons (e.g., increased industrialization,
decreases in hydropower). Acute power shortages result in routine load shedding—disconnecting power
when demand exceeds supply—with outages ranging from 4 to 12 hours in both urban and rural areas.
Load shedding is reducing the output of the industrial sector, crippling economic growth, and creating
social unrest. In addition, lack of investment in the power sector has contributed to the shortage of
electricity. The investment shortfalls stem from distribution companies charging less than the full cost
of electricity supplied to consumers, the Government of Pakistan not paying the companies make-up
subsidies, and companies incurring high technical (e.g., poor quality of voltage) and nontechnical (e.g.,
theft of electricity) losses.

To help improve the performance of these distribution companies, in September 2010, the mission
awarded a $60 million task order—later increased to $230 million—to International Resources Group
to implement the Power Distribution Program. It has three components: (1) detailed reviews of the
operations of each distribution company to identify needs for improvement and the development
of action plans to address the needed improvements; (2) sustainability, governance improvement,
revenue improvement, loss reduction, and capacity building and training; and (3) technical assistance
in technology and implementing intensive changes in management, governance, and organizational
structure in two selected distribution companies, while continuing activities in the remaining
companies.

OIG found mixed results. The program contributed to the distribution companies’ engineering planning
and operations, billing technology, and training. However, the program had little effect on governance,
organizational structure, financial management, rate control, and staffing. Auditors identified several
problems and challenges, such as frequent modifications in the program’s scope, little progress in
improving distribution companies’ management and governance or in establishing tariffs, insufficient
program monitoring and financial oversight, a lack of milestones, and 29 months’ worth of charges for
weekend and overtime pay that were contrary to contract provisions.

OIG made seven recommendations to help USAID/Pakistan strengthen its management of the Power
Distribution Program, and USAID had made management decisions on five.




                                                       USAID OIG Semiannual Report to the Congress 51
Audit of USAID/Pakistan’s Sindh Basic Education Program
Report No. G-391-14-003-P

Pakistan’s education sector has been neglected in terms of public and private spending and Sindh, the
second-largest province in Pakistan and the country’s economic hub, exemplifies this problem. Poverty
and inadequate infrastructure are the main obstacles to attendance.

To assist the Sindh Government in enacting educational reforms and improving the learning
environment, USAID proposed a 5-year agreement with the Sindh Government to implement the Sindh
Basic Education Program. Under the agreement, the mission plans to provide $155 million in support
of the program. The program’s goal is to increase and sustain student enrollment in primary, middle,
and secondary schools in targeted locations by developing a school environment that is conducive to
teaching and learning. OIG audited the program to determine whether it was increasing and sustaining
student enrollment in primary and secondary schools in targeted areas.

On a positive note, OIG found that USAID’s program manager and his team had established a
good working relationship with Sindh Government officials. Although the project team has laid the
foundation for implementing the program’s school construction component, the program was not,
however, achieving its goal. It had built no schools and made very little, if any, improvement in early-
grade reading, community mobilization, or technical assistance to the Department of Education.
Therefore, the program had not made progress in developing a school environment conducive to
teaching and learning in order to increase and sustain student enrollment.

The program experienced implementation delays, which increased construction prices by
$1.3 million for six schools, and the local implementer chosen to implement activities under the reading
component of the program was terminated for lack of progress. Capacity-building efforts had not been
successful because the operational manuals provided to the implementation unit were too generic to
use and recruitment efforts filled less than half of the open positions. Moreover, the mission set an
unrealistic target for improving literacy (i.e., the target set exceeds by 37 percent the number of students
enrolled).

OIG made five recommendations to improve aspects of the program. USAID made management
decisions on all of them and took final action on three.

Audit of USAID/Peru’s Alternative Development Activities
Report No. 1-527-14-006-P

The U.S. and Peruvian Governments have collaborated on initiatives to eradicate coca, the
plant used to make the drug cocaine, and replace it with legal crops such as cacao, coffee, and
palm oil. In the San Martin Region (located in the north of the country) the mission has made



52	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
considerable progress. As part of its efforts to consolidate gains made in San Martin and to expand into
the nearby regions of Huanuco and Ucayali, USAID/Peru entered into two cooperative agreements: a
3-year, $8 million cooperative agreement with Centro de Información y Educación para la Prevención
del Abuso de Drogas (CEDRO), a Peruvian nongovernment organization, to implement the Digital
Inclusion Program, and a 4-year, $36 million cooperative agreement with CARANA Corp., a U.S.
consulting firm, to implement the Alianza Cacao Peru.

CEDRO is on track to meet its main goal of opening 30 technological centers in the 3 targeted regions.
As of January 2014, CEDRO has opened 25 centers, and the remaining 5 are scheduled to be opened by
April 2014. However, OIG found that CEDRO still had not developed a sustainability plan to address
how and who would continue to operate or finance the centers. Digital program employees said they
focused primarily on opening and establishing the centers and planned to address sustainability during
the time left.

CARANA showed limited results in the first year; only 380 hectares of cacao were planted out of the
overall goal of 28,000 hectares by 2016. This happened because CARANA’s chief of party and a key
subcontractor were replaced, a partner could not register in Peru, and the program’s leadership was
restructured and divided among three regional directors. In addition, the program ran into delays
obtaining plants.

Other issues concerned data collection and reporting. Both CARANA and CEDRO entered incorrect
data into USAID’s Training Results and Information Network. The mission overstated the program's
results for jobs created because they included numbers from a previous program. In addition, CEDRO
was not collecting data consistently at the technological centers, making it difficult to assess the benefit
or value of the centers.

OIG made seven recommendations, and USAID made management decisions on all of them, taking
final action on two.

Audit of USAID/Yemen’s Community Livelihoods Project
Report No. 6-279-14-001-P

Yemen ranks as one of the world’s poorest countries and one with a high population growth rate. This
combination is placing a serious strain on its already limited resources. Adding to these challenges,
Yemen has endured political strife and secessionist movements since the 1960s, which have hurt
safety and stability. In July 2010, USAID launched the $124 million Community Livelihoods Project
in Yemen to mitigate the causes of instability in that country. Through a cooperative agreement,
Creative Associates was to implement a variety of activities to increase employment opportunities,
promote community participation, strengthen local governance, and improve access to quality services,
particularly in health and education.



                                                          USAID OIG Semiannual Report to the Congress 53
 The project ran into problems early. Beginning in January 2011, widespread demonstrations rippled
throughout a number of Middle Eastern countries in what later became known as the “Arab Spring.”
The demonstrations sparked a revolution in Yemen that ended the 33-year rule of President Ali Abdullah
Saleh, and a new president took office in February 2012. Because of the revolution and the sweeping
effects it had on the country and the project, OIG divided its analysis of the project into two periods: pre-
revolution (July 2010 to February 2012) and post-revolution (March 2012 to March 2013).

Overall, the project has delivered mixed results. OIG found that it made limited progress in the first
20 months. It was delayed from the beginning because USAID/Yemen was slow to introduce the project
to various officials in the Yemeni Government. The revolution and subsequent personnel evacuations
continued to postpone progress. After the revolution, the project encountered additional delays as
staffing and security challenges arose. However, the mission made a number of adjustments to improve
and focus the project, creating some notable results. Officials from Yemen’s Ministry of Agriculture and
Irrigation told the audit team they were extremely pleased with the assistance, particularly the activities
related to pest control and demonstration plots. Feedback from beneficiaries was positive, including a
farmer who reported that the mission’s interventions helped him double his production that season.

OIG identified several areas for improvement, including better funds control and monitoring of progress,
as well as ensuring that goods are delivered and are in working order.

USAID made management decisions on all nine OIG recommendations and took final action on seven.

Review to Verify Whether Water Pipes and Fittings Purchased by USAID/West Bank and Gaza for
the Palestinian Water Authority Were Used as Intended on Approved Mission Projects
Report No. 6-294-14-002-S

In September 2009, USAID/West Bank and Gaza issued two task orders to procure pipes and fittings
worth $17.1 million to use in the USAID-funded Infrastructure Needs Program to support water
distribution improvement projects in the West Bank and Gaza. The mission hired MWH Global and
later Black & Veatch to provide construction management services. To support this effort, the mission—
acting through the Palestinian Water Authority (PWA)—signed a memorandum of understanding in
May 2010 in which PWA agreed to provide secure storage for pipes and materials at its storage yards until
USAID or its implementing partners needed them. The pipes are USAID’s property, intended for use in
designated USAID projects.

In October 2011, USAID transferred ownership of some of the pipes and fittings, worth $6.2 million,
to PWA. USAID made the transfer on the condition that PWA would use the materials for 14 projects
specified at the time of the transfer. Each of these projects required prior approval from the mission
for vetting to ensure that no project would benefit municipalities controlled by a designated terrorist
organization. As of September 2013, PWA and contractor records showed that 22,377 meters of these
transferred pipes, valued at $2.9 million, remained at the PWA storage yard.


5 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG found that all of the materials PWA used supported projects to improve the water supply to
Palestinians in the West Bank. However, PWA used more than $2 million worth of USAID-funded pipes
on 19 projects that had not been approved by USAID. Furthermore, PWA used materials worth almost
$400,000 that were not officially transferred for projects in the West Bank.

OIG made six recommendations to determine the reasonableness of certain costs associated with
materials used by PWA and to implement specific control activities. USAID made management decisions
on all of the recommendations and took final action on four of them.

UNICEF Self-Reports and Returns Overcharges to USAID

USAID provided the United Nation's Children's Fund (UNICEF) with a $7.8 million grant to support
water, sanitation, and hygiene components of a school rehabilitation program. UNICEF auditors and
investigators determined that the program was systematically overcharging by 25 to 100 percent and that
many of the schools being funded were underperforming. In January 2012, UNICEF reported that more
than $4 million in program funding had been misappropriated and estimated that about $600,000 of this
total had been provided by USAID. UNICEF invoked diplomatic immunity in this matter, which kept
OIG from fully investigating it. In October 2013, UNICEF returned the $600,000 to USAID.




                                                      USAID OIG Semiannual Report to the Congress 55
5 6 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
GLOBAL HEALTH AND STRONG HEALTH
SYSTEMS



USAID’s global health programs work to combat
and prevent HIV/AIDS, tuberculosis, malaria,                    SIGNIFICANT FINDINGS AND ACTIVITIES
neglected tropical diseases, pandemic influenza,
                                                                • OIG’s audit of USAID/Jordan’s Strengthening
and other emerging threats. They also focus
                                                                Family Planning Project found that activities
on health delivery systems, maternal and child                  had made progress in helping the Jordanian
health, and nutrition in vulnerable populations.                Association for Family Planning and Protection
Cross-cutting audit findings of USAID                           expand access to and improve the quality
health programs during this reporting period                    and use of family planning clinics. The project
included data quality problems, insufficient                    also made progress in providing quality
                                                                clinic renovations. Abt Associates held its
coordination among implementers, inefficient
                                                                subcontractors to high standards and did not
operations, noncompliance with procedures, and
                                                                pay for work that did not meet expectations.
sustainability issues.                                          OIG found some areas for improvement,
                                                                however, including a lack of progress in the
Audit of USAID/Jordan’s Strengthening Family                    project’s financial sustainability.
Planning Project
Report No. 6-278-14-005-P                                       • Although data limitations prevented OIG
                                                                from definitively determining the nationwide
                                                                impact of USAID/Kenya’s tuberculosis
To address concerns of population growth
                                                                activities, auditors found indications that the
and limited resources in Jordan, the mission                    mission’s tuberculosis and HIV activities had
awarded a $33 million cooperative agreement                     increased people’s access to health services.
to Abt Associates for the Strengthening Family                  For example, AMPATH Plus trained health
Planning Project in July 2010. Known locally as                 workers in the communities around health
Ta’ziz, the project provided services that included             facilities, resulting in the screening of almost
                                                                12,000 people during 2012. In addition,
training and the purchase and renovation of
                                                                APHIA Plus Nairobi Coast reported directly
family planning clinics throughout Jordan;
                                                                supporting 198 health facilities. Despite these
assisting the Jordanian Association for Family                  accomplishments, auditors noted concerns
Planning and Protection (JAFPP), the country’s                  with the projects’ financial sustainability and
only nongovernmental entity providing woman-                    data quality.
to-woman family planning services; and funding
family planning marketing campaigns and
community outreach efforts.

OIG found that the project made progress in helping JAFPP expand access to and improve the quality
and use of family planning services. It made it easier for women to access family planning services


	                                                     U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   57
through JAFPP and improved the quality of and increased demand for JAFPP services. However, the
project’s goals were not limited to JAFPP and were extended to the family planning private sector
generally. Because the project design and indicators focused on JAFPP, the results could not be projected
beyond that one provider.

One of the project’s highlights was quality clinic renovations. Auditors visited 12 of 14 renovated JAFPP
clinics. In some cases, the renovations occurred more than a year before the audit, yet there was little
visible wear. Floor and wall tiles were in good condition, as were windows, toilets, and other equipment
the project funded. Abt achieved consistent quality results in all the clinics by identifying specific
brands of each item. Furthermore, Abt held its subcontractors to high standards; for example, it refused
to pay the first subcontractor for work that did not meet expectations. Holding project subcontractors
accountable contributed to quality renovations.

OIG found some areas for improvement, however. JAFPP did not make progress toward becoming
financially sustainable because it lost money on each client from offering deeply discounted services.
OIG also found some discrepancies in reported results and in compliance with award procedures and
training database requirements.

OIG made eight recommendations to help USAID/Jordan improve its Strengthening Family Planning
Project. USAID made management decisions on all of them and took final action on five.

Audit of USAID/Kenya’s Tuberculosis Activities
Report No. 4-615-14-001-P

The tuberculosis (TB) epidemic in Kenya has hindered the country’s overall development by infecting
more than 100,000 Kenyans and killing thousands every year. Despite gains that the Government of
Kenya has made in TB care, diagnosis, and treatment, occurrences of TB in children under 15 and
multidrug-resistant TB are growing concerns. In 2010, the Kenyan Government drafted a new 5-year
strategic plan to address these concerns and build on previous gains.

USAID/Kenya drafted its own TB strategy for 2012-2016, which aims to improve TB detection and
treatment and to better diagnose and care for people coinfected with TB and HIV. OIG audited three
projects that support this strategy—TB Care, APHIA Plus Nairobi Coast, and AMPATH Plus—to
determine whether USAID/Kenya’s TB activities  have improved laboratory capabilities and access
to treatment and whether TB/HIV activities increased access to the service delivery system. Auditors
found that TB Care had improved laboratory capability and access to treatment. OIG reviewed data on
indicators such as the treatment success rate and the case detection rate, including a review of source
documentation in six TB control zones. Reported results for these indicators were 87 percent and
82 percent, respectively, which exceeded World Health Program targets.




5 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Although data limitations prevented OIG from definitively determining the projects’ impact nationwide,
auditors found indications that USAID/Kenya’s TB/HIV activities had increased people’s access to
health services. For example, AMPATH Plus trained health workers in the communities around health
facilities, resulting in the screening of almost 12,000 people during 2012. In addition, APHIA Plus
Nairobi Coast reported directly supporting 198 health facilities. At one, the district coordinator said
that APHIA Plus provided needed structural improvements. At another location, a different district
coordinator said that APHIA Plus officials had trained him in TB/HIV activities, which improved the
capacity of facilities and district coordinators.

Despite these accomplishments, auditors noted concerns with the projects’ financial sustainability and
data quality. Notably, the implementer’s payment of travel expenses for district coordinators created
disincentives for maximizing cost efficiency, inadvertently causing bloat.

OIG made three recommendations. USAID made management decisions on each of them and took final
action on one.

Audit of USAID/Mozambique’s Clinical HIV/AIDS Services Strengthening Project in Sofala, Manica,
and Tete Provinces
Report No. 4-656-14-003-P

Mozambique suffers from a generalized HIV and AIDS epidemic, with some 1.6 million people living
with HIV. The epidemic has strained the country’s health system and hindered economic growth by
reducing the labor supply and diverting funds to health care that could otherwise be used for investment.
As of December 31, 2012, the U.S. Government, through its global HIV initiative (i.e., the President's
Emergency Plan for AIDS Relief, or PEPFAR), had spent approximately $1.1 billion to combat HIV in
Mozambique.

In 2011, USAID initiated the Clinical HIV/AIDS Services Strengthening Project in the Sofala, Manica,
and Tete Provinces of Mozambique, implemented by Abt Associates. The project’s goal is to improve
the quality of the health services that the system provides and the integration of HIV care and related
primary health-care services, as well as to support interaction between the health system and the
community. Its total estimated cost is $111.4 million.

OIG found that the project was increasing access to and provision of high-quality HIV services by
supporting provincial health directorates in the targeted provinces. This support included paying
salaries for health-care workers, furnishing materials to health facilities, and providing technical
assistance. Health-care workers interviewed generally commended the technical assistance provided by
the project. These interventions have enhanced the ability of the health directorates in Sofala, Manica,
and Tete to deliver HIV services, which included enrolling infected individuals in antiretroviral




                                                       USAID OIG Semiannual Report to the Congress 59
treatments (including pregnant women in an effort to reduce the risk of mother-to-child transmission)
and providing counseling and testing services.

Despite these positive results, the auditors found that the project lacked a strategy to transfer routine
operating expenses to the Mozambican Government, did not effectively measure capacity-building
efforts, and did not extend grants to community-based organizations on time. Therefore, the project’s
impact was limited in creating sustainable Mozambican systems and integrating HIV services with
primary health care.

OIG made five recommendations to improve program activities, and USAID has made management
decisions on all of them.

Agreed-Upon Procedures Review of USAID Resources Managed by Inter-Religious Council of
Uganda Under Cooperative Agreement AID-617-A-10-00002
Report No. 4-617-14-001-S

Because Uganda is a deeply religious country, faith-based organizations (FBOs) play a key role in
combating HIV. According to a 2012 PEPFAR report, more than a third of clinical care in Uganda is
provided by FBOs. Accordingly, in December 2009, USAID/Uganda awarded a $30 million, 5-year,
cooperative agreement to the Inter-Religious Council of Uganda (IRCU) for a faith-based HIV/
AIDS response in Uganda. During this time, the Ugandan Parliament was considering an “Anti-
Homosexuality Bill” to prohibit same-sex relationships and criminalize the failure of individuals to
report suspected homosexuals to authorities. Despite the important role played by FBOs, Agency policy
is clear that “faith-based and community organizations may not use direct financial assistance from
USAID (or any other federal agency) to support inherently religious activities” and “faith-based and
community organizations may not, in providing USAID-funded program assistance, discriminate for
or against any actual or potential beneficiary on the basis of religion or religious belief.” As a result, the
IRCU award includes statements to this effect.

On the basis of these policies, outside groups have raised concerns that FBOs in Uganda, such as IRCU,
may have used U.S. Government funds to support the passage of the Anti-Homosexuality Bill (which
became law in February 2014) or to discriminate on the basis of religious beliefs. To address these
concerns, OIG reviewed IRCU’s work with FBOs and found that none of the annual work plans reviewed
or interviews or surveys conducted indicated that IRCU was supporting the bill through its support
of FBOs. However, OIG reviewed training courses that IRCU delivered and found one booklet that
contained questionable content—a statement calling on political leaders to “advocate” for the passage of
legislation “denouncing all forms of negative cultural practices”—that could be interpreted as supporting
the bill.




6 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG made one recommendation to USAID to determine and take appropriate action regarding this
statement. Although the mission conceded that the statement was ambiguous, they believed the authors’
intent was to advocate against practices such as female genital mutilation, wife sharing, and other forms
of gender violence.

The recommendation was closed upon report issuance.

Follow-On Review Uncovers Fraudulent Expenditures

An internal investigation by Abt Associates uncovered falsified travel vouchers submitted by staff
and management on an antimalarial project in Africa. Nine employees with the subcontractor signed
acknowledgment letters concerning the fraud and agreed to return misappropriated funding. The
self-disclosure by Abt also included descriptions of procurement irregularities; however, none of
the questioned costs pertaining to those irregularities were included. An examination of financial
documents by OIG found that $18,000 in additional USAID funding had been defrauded, which the
implementer credited back to USAID.

Employee Charged with Theft From South Sudan Project

In October 2013, OIG was notified about a theft of signed checks valued at $74,000 by an employee of
African Medical and Research Foundation, a local subimplementer of Jhpiego. The employee stole the
checks—which were intended to be used for employees' salaries—and cashed them before fleeing the
country. Of the $74,000, approximately $52,000 came from USAID funding. The employee was charged
in South Sudan for the theft and arrested in Uganda on a South Sudan warrant, where he is awaiting
extradition. As a result, Jhpiego changed several internal banking policies and paid $52,288 in restitution
to USAID.

OIG Investigation Leads to Recovery of More Than $4,000

In Southeast Asia, a USAID subimplementer, Cordial Hands, made false claims to its prime
implementer, PSI, regarding infectious disease trainings under a USAID-funded health program that
had not actually taken place. PSI found that Cordial Hands claimed expenses for trainings that had not
been held, inflated expenses for trainings that had been held, and attempted to bill PSI for expenses that
were not allocable to the USAID program. In addition, PSI identified other expenses for which there was
insufficient documentation to support the allocation of the costs to the USAID project. PSI reimbursed
USAID for more than $4,000 in disallowed costs.




                                                        USAID OIG Semiannual Report to the Congress 61
62	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
BUILDING INSTITUTIONAL CAPACITY




During this reporting period, OIG conducted
three audits of USAID management practices,                   SIGNIFICANT FINDINGS AND ACTIVITIES
involving overtime compensation, information
                                                              • OIG’s Audit of USAID/Afghanistan’s
management security, and financial management.
                                                              Management Controls Over Overtime
                                                              Compensation identified more than $16 million
Audit of USAID/Afghanistan’s Management                       in questioned costs, as well as problems with
Controls Over Overtime Compensation                           internal controls. Correct procedures were
Report No. F-306-14-001-P                                     not followed for 98 percent of overtime hours
                                                              audited.
The Afghanistan service recognition package is
                                                              • OIG's Audit of USAID’s Fiscal Year 2013
designed to recognize the “exceptional factors
                                                              Compliance With the Federal Information
involved in service in Afghanistan.” In addition              Security Management Act of 2002 found that
to basic salary, the package includes overtime and            USAID had not established an effective risk
other types of premium pay to compensate certain              management program to ensure that policies
categories of employees for substantial amounts               and procedures were assessed and working as
of extra work performed. At the same time,                    intended. Auditors concluded that USAID was
                                                              not in substantial compliance with FISMA.
employees are expected to manage their time
effectively and to make sure that any overtime
                                                              • OIG has rendered an unmodified opinion on
worked is essential to meet the U.S. Government’s             USAID’s principal financial statements for fiscal
goals.                                                        years 2013 and 2012. With respect to internal
                                                              control, we identified one deficiency that we
According to payroll reports generated by                     consider a material weakness (i.e., USAID’s
USAID’s electronic time and attendance system,                process for reconciling its fund balance with
                                                              the U.S. Treasury). In addition, OIG identified
webTA, USAID/Afghanistan’s employees
                                                              four significant deficiencies in internal control.
received premium pay for approximately
468,277 hours from January 1, 2011, to August 25,
2012. Approximately 333,348 hours of this
total, or 71 percent, were overtime hours. OIG
determined that although the mission paid
approximately $16.6 million for overtime
compensation, 94 percent of the overtime hours
(worth more than $15 million) were paid without
any record of overtime requests in webTA.



	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   63
Despite multiple directives from the mission reminding employees of overtime requirements, OIG found
widespread noncompliance. In fact, correct procedures were not followed for 98 percent of the overtime
hours audited. For instance, some of the requests that were recorded were missing required justifications.
Others that included justifications were too vague to tell what work was performed.

Overtime was controlled poorly because USAID/Afghanistan supervisors and employees were not
following established requirements for requesting and approving overtime. Although the mission
provided training to its employees on overtime policies and webTA, the training did not achieve an
acceptable degree of compliance with applicable regulations and USAID and mission policies regarding
overtime use. It is not enough to establish internal control policies; management also is responsible for
monitoring the effectiveness of those controls on an ongoing basis.

In addition, leaders did not exhibit a positive, supportive attitude toward internal control and
conscientious management. For example, they indicated that while the mission requires employees to ask
for overtime in advance, it allows individual supervisors to make exceptions. Giving them that discretion
rendered numerous USAID and mission policies inapplicable.

OIG recommended that USAID/Afghanistan determine the allowability of $16,283,163 in unsupported
questioned costs; however, the mission disagreed with this recommendation. In February 2014, after
the audit was finalized, USAID/Afghanistan gave OIG additional data that purported to show proof of
overtime approval. Without auditing the new data, OIG could not determine whether any overtime was
requested and approved in advance as reported by the mission.

Management decisions were made on all four recommendations.

Audit of USAID’s Fiscal Year 2013 Compliance with the Federal Information Security Management
Act of 2002
Report No. A-000-14-001-P

The Federal Information Security Management Act (FISMA) requires agencies to develop, document,
and implement an Agency-wide information security program to protect their information and
information systems, including those provided or managed by another agency, contractor, or other
source. The act also requires agencies to have an annual assessment of their information systems.

OIG contracted with the independent certified public accounting firm of Cotton & Company LLP
to conduct the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether USAID implemented certain minimum security controls for selected information
systems to reduce the risk of data tampering, unauthorized access to and disclosure of sensitive
information, and disruptions to USAID’s operations.




6 4	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
The auditors found that USAID had not established an effective risk management program to ensure
that policies and procedures were assessed and working as intended. In addition, auditors reported
that USAID’s decentralized management of information technology and information security did
not allow it to implement a process to effectively assess, respond to, and monitor information security
risks throughout the Agency. Consequently, auditors concluded that USAID was not in substantial
compliance with FISMA.

The auditors made 29 recommendations to help USAID strengthen its information security program.
USAID made management decisions on all 29 recommendations and took final action on 9 of them.

Audit of USAID’s Financial Statements for Fiscal Years 2013 and 2012
Report No. 0-000-14-001-C

OIG has rendered an unmodified opinion on USAID’s principal financial statements for fiscal years 2013
and 2012. With respect to internal controls, OIG identified one deficiency that we consider a material
weakness, which pertains to USAID’s process for reconciling its fund balance with the U.S. Treasury.
Additionally, we identified four significant deficiencies in internal control. They pertain to USAID’s
processes for (1) deobligating unliquidated obligations, (2) accounting for advances, (3) supporting
payroll deductions, and (4) reconciling intragovernmental transactions.

OIG did not find any instances of substantial noncompliance with federal financial management system
requirements, federal accounting standards, or the U.S. Standard General Ledger at the transaction level
as a result of our tests required under Section 803(a) of the Federal Financial Management Improvement
Act of 1996 (FFMIA), Public Law 104 208, Title VIII (31 U.S.C. 3512 note). However, we reported one
significant deficiency in the Agency’s annual Federal Information Security Management Act report, No.
A-000-14-001-P, dated October 15, 2013, which we classified as an instance of substantial noncompliance
with FFMIA as required by OMB Bulletin 14-02, “Audit Requirements for Federal Financial Statements.”

The report made four recommendations to improve USAID’s internal control over financial reporting.
USAID made management decisions on all four.

OIG Reporting Under the Government Charge Card Abuse Prevention Act of 2012

The Government Charge Card Abuse Prevention Act of 2012, Public Law 112-194, seeks to prevent
waste, fraud, and abuse of Government-wide charge card programs. The act distinguishes between two
types of charge cards—purchase cards and travel cards. It includes two requirements for ongoing OIG
reporting to the Office of Management and Budget (OMB). OMB has provided guidance for interpreting
these requirements in OMB Memorandum M-13-21, “Implementation of the Government Charge Card
Abuse Prevention Act of 2012.” Under the OMB guidance, one requirement is for semiannual joint (OIG




                                                       USAID OIG Semiannual Report to the Congress 65
and USAID) reports on purchase card violations and the other is for annual OIG reports on agency
implementation of audit recommendations relating to travel and purchase cards.

The semiannual joint reports on purchase card violations are required only if the executive agency has
more than $10 million in purchase card spending annually. Of the four agencies under OIG’s purview
(USAID, MCC, IAF, and USADF), only USAID met this $10 million threshold. OMB guidance states
that the agency should incorporate the joint reports into the charge card management plans due to OMB
on January 31, 2014. USAID/OIG submitted a memo (“OIG Input to Semiannual Joint (OIG/USAID)
Purchase Card Violation Report”) to USAID, and USAID included the memo in the joint report that
it created and submitted to OMB as part of its charge card management plan. The memo includes the
determination that OIG’s Office of Investigations did not conduct any investigations involving purchase
card violations in FY 2013, and states that OIG reviewed USAID’s “Summary Description of Confirmed
Violations Involving Misuse of a Purchase Card” for FY 2013. The next semiannual joint report is due to
OMB on July 31, 2014.

For the annual OIG reports on agency implementation of audit recommendations relating to travel and
purchase cards, OMB guidance states that these should report on open recommendations, as well as
those closed during the prior year. The OMB memo states that “IGs will report to the Director of OMB
120 days after the end of each fiscal year on agency progress in implementing audit recommendations,
beginning with the FY 2013 submission due by January 31, 2014.” The Acting Inspector General
submitted four reports to the OMB Director—one each for USAID, MCC, IAF and USADF. A thorough
search of OIG audit recommendations for these four agencies did not reveal any open recommendations
relating to travel or purchase card programs and did not reveal any closed in FY 2013 relating to
purchase cards. The search identified six recommendations that USAID closed in FY 2013 relating to its
travel card program.




6 6	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
TABLES: U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT


           Significant Recommendations Described Previously Without Final Action
                                          USAID
                              October 1, 2013-March 31, 2014

                                                              Date of        Rec.      Management               Final Action
    Report Number              Report Title
                                                              Report         No.       Decision Date            Target Date
                    Audit of Engender Health's
                                                                               2            1/15/09                6/30/15
    1-511-09-004-P* Management of Activities                  1/15/09
                                                                               3            1/15/09                6/30/15
                    Financed by USAID/Bolivia
                    Audit of USAID's Compliance
                    with the Federal Information                                3           11/9/10               12/31/14
    A-000-11-002-P                                            11/9/10
                    Security Management Act of 2002                            25           11/9/10               2/28/15
                    for Fiscal Year 2010
                    Audit of USAID's Financial
    0-000-11-001-C Statements for Fiscal Years 2010          11/12/10          1           11/12/10               12/31/14
                    and 2009
                    Review of USAID/Afghanistan's
     F-306-11-005-S Afghan Civilian Assistance                8/31/11          7            2/14/12                9/30/15
                    Program
                    Audit of USAID/Pakistan's Firms
    G-391-12-001-P                                            11/3/11          5                -                      -
                    Project
                                                                              6.1          11/15/11                5/15/14
                                                                              9.2          11/15/11               12/31/14
                                                                             13.1          11/15/11                5/15/14
                     Audit of USAID's Fiscal Year 2011
                                                                             15.1          11/15/11                5/15/14
                     Compliance With the Federal
    A-000-12-003-P                                            11/15/11       15.2          11/15/11                5/15/14
                     Information Security Management
                                                                              23           11/15/11               12/30/14
                     Act of 2002
                                                                              24           11/15/11               12/31/15
                                                                              27           11/15/11               12/30/14
                                                                              29           11/15/11                9/30/14
                     Audit of USAID/Angola's
    4-654-12-006-P   Public-Private Partnerships for          2/27/12          7            8/28/12                6/30/14
                     Development
                     Audit of USAID's Contracts for
    A-000-12-004-P                                            4/12/12          3            4/12/12                5/15/14
                     Cloud Computing Services
                     Audit of USAID/Afghanistan's
                     Internal Controls in the
    F-306-12-003-P                                            6/25/12          8            3/27/13                9/30/14
                     Administration of the Involuntary
                     Separate Maintenance Allowance
                     Audit of Commodities Funded
    4-615-12-011-P   Under the President's Malaria            6/28/12          1            6/28/12                 3/6/15
                     Initiative in Kenya




	                                                        U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   67
           Significant Recommendations Described Previously Without Final Action
                                          USAID
                              October 1, 2013-March 31, 2014

                                                                      Date of    Rec.   Management      Final Action
  Report Number                       Report Title
                                                                      Report     No.    Decision Date   Target Date
                 Audit of USAID/Peru's
  1-527-12-008-P                                                       9/19/12   10        9/19/12        4/15/14
                 Environmental Activities
                 Audit of USAID's Small Business                                  3        9/27/12        6/30/14
 9-000-12-005-P                                                        9/27/12
                 Utilization Practices                                            9        9/27/12        9/30/14
                 Audit of USAID/Egypt's Transition
 6-263-13-002-P*                                                      10/22/12    6       10/22/12        9/30/14
                 Support Grants Program
                                                                                   1      11/14/12       12/31/14
                                                                                  3.1     11/14/12        7/31/14
                                                                                  3.2     11/14/12        7/31/14
                                                                                   5      11/14/12        5/15/14
                                                                                  6.1     11/14/12        7/31/14
                                                                                  6.2     11/14/12        7/31/14
                                                                                  6.5     11/14/12        7/31/14
                                                                                  6.6     11/14/12        5/15/14
                                                                                  9.1     11/14/12        7/21/14
                                                                                  9.2     11/14/12        7/31/14
                                                                                 10.1     11/14/12        9/30/14
                         Audit of USAID's Fiscal Year 2012
                                                                                 10.2     11/14/12        9/30/14
                         Compliance With the Federal
 A-000-13-003-P                                                       11/14/12   10.3     11/14/12        9/30/14
                         Information Security Management
                                                                                 10.4     11/14/12        9/30/14
                         Act of 2002
                                                                                 12.1     11/14/12        5/15/14
                                                                                 12.2     11/14/12        5/15/14
                                                                                 12.3     11/14/12        5/15/14
                                                                                 13.1     11/14/12       12/20/14
                                                                                  14      11/14/12        9/30/14
                                                                                  15      11/14/12        9/30/14
                                                                                 16.1     11/14/12        5/15/14
                                                                                 16.2     11/14/12        9/30/14
                                                                                  20      11/14/12        4/30/14
                                                                                 21.1     11/14/12       12/30/14
                                                                                 21.2     11/14/12       12/30/14
                         Audit of USAID-Funded                                     4      6/25/13         6/14/14
                         Net Distribution Activities                               5      6/25/13         6/14/14
  4-621-13-003-P         Implemented by Mennonite                     11/15/12     6      6/25/13         6/14/14
                         Economic Development                                      7      6/25/13         6/14/14
                         Associates in Tanzania                                    8      11/15/12        6/14/14
                         Audit of USAID's Financial                                1      11/16/12       12/31/14
  0-000-13-001-C         Statements for Fiscal Years 2012             11/16/12     3      11/16/12        9/30/14
                         and 2011                                                  4      11/16/12        6/30/14
                         Audit of USAID/Cambodia's                                 2       6/5/13         4/30/14
  5-442-13-002-P                                                       12/7/12
                         Better Health Services Project                            3      12/7/12         4/30/14




6 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
       Significant Recommendations Described Previously Without Final Action
                                      USAID
                          October 1, 2013-March 31, 2014

                                                   Date of   Rec.   Management      Final Action
Report Number              Report Title
                                                   Report    No.    Decision Date   Target Date
                 Audit of USAID's Internal
                 Controls Over Prepositioned                  1        2/19/13        5/31/14
4-962-13-004-P                                     1/7/13
                 Food Assistance for the Horn of              3        2/19/13        7/31/14
                 Africa
                                                              1        1/30/13        4/30/14
                                                              3        1/30/13        4/30/14
               Audit of Selected Controls Over
                                                             8.1       1/30/13        4/30/14
A-000-13-004-P USAID Badges Used to Access         1/30/13
                                                              9        1/30/13        4/30/14
               USAID Facilities
                                                             10        1/30/13        4/30/14
                                                             11        1/30/13        4/30/14
                 Review of USAID/Jordan's Cash               10        1/31/13        4/30/14
6-278-13-001-S                                     1/31/13
                 Transfer Activities                         11        1/31/13        4/30/14
                                                              1         3/5/13        4/30/14
                 Audit of USAID/Angola's HIV/                 2         3/5/13        4/30/14
4-654-13-006-P                                     3/5/13
                 AIDS Activities                             10         9/5/13        6/30/14
                                                             11         3/5/13        6/30/14
                 Report on USAID's Compliance
                 With the Improper Payments
0-000-13-001-S                                     3/15/13    2        3/15/13        6/30/14
                 Elimination and Recovery Act of
                 2010
                 Audit of USAID/Bosnia-
                 Herzegovina's Fostering                      2        5/30/13        4/30/14
9-168-13-003-P                                     5/30/13
                 Interventions for Rapid Market               5        5/30/13        4/30/14
                 Advancement Project
                 Audit of USAID/Mali's Economic
7-688-13-003-P                                     5/31/13    8        5/31/13        4/30/14
                 Growth Activities
                                                              1         6/7/13        6/30/14
                 Review of USAID's Partner-
                                                              3         6/7/13        5/31/14
                 Country and Local Organization
                                                              4         6/7/13        5/31/14
9-000-13-003-S   Assessments Under                 6/7/13
                                                              5         6/7/13        5/31/14
                 Implementation and Procurement
                                                              6         6/7/13        5/31/14
                 Reform
                                                              7         6/7/13        5/31/14
                                                              1        1/30/14        6/12/14
                                                              2        6/12/13        6/12/14
                                                              3        1/30/14        6/12/14
                                                              4        1/30/14        6/12/14
                 Audit of USAID/Pakistan's
G-391-13-004-P                                     6/12/13    5        1/30/14        6/12/14
                 Agribusiness Project
                                                              6        1/30/14        6/12/14
                                                              7        1/30/14        6/12/14
                                                              8        1/30/14        6/12/14
                                                              9        1/30/14        6/12/14




                                                    USAID OIG Semiannual Report to the Congress 69
             Significant Recommendations Described Previously Without Final Action
                                            USAID
                                October 1, 2013-March 31, 2014

                                                                       Date of    Rec.   Management      Final Action
   Report Number                       Report Title
                                                                       Report     No.    Decision Date   Target Date
                          Audit of USAID/South Sudan's                             2        7/11/13        4/30/14
   4-668-13-008-P         Core Institutional Structures                 7/11/13    3        7/11/13        4/30/14
                          Project                                                  7        7/11/13        4/30/14
                          Audit of USAID/Indonesia's
                                                                                   4        7/24/13        7/24/14
    5-497-13-007-P        Indonesia Forest and Climate                 7/24/13
                                                                                   6        7/24/13        7/24/14
                          Support Project
                          Audit of USAID/East Africa's
                                                                                   1        7/26/13        4/30/14
   4-695-13-009-P         Maternal and Child Health                    7/26/13
                                                                                   2        7/26/13        4/30/14
                          Program in Burundi
                                                                                  5         7/30/13        6/30/14
                          Audit of USAID's Agricultural                           7         2/18/14        8/18/14
    4-612-13-010-P                                                     7/30/13
                          Programs in Malawi                                      12        7/30/13        5/31/14
                                                                                  13        7/30/13        5/31/14
                          Audit of USAID/Haiti's                                  1         8/2/13         4/30/14
  1-521-13-007-P          Leadership, Management and                    8/2/13    2         8/2/13         4/30/14
                          Sustainability Project                                  3         8/2/13         4/30/14
                                                                                  1          9/5/13        5/31/14
                                                                                  2          9/5/13        5/31/14
                          Audit of USAID/Haiti's Integrated                       3          9/5/13        5/31/14
    1-521-13-008-P        Financing for Value Chains and                9/5/13    4          9/5/13        5/31/14
                          Enterprises                                             5          9/5/13        5/31/14
                                                                                  6          9/5/13        5/31/14
                                                                                  7          9/5/13        5/31/14
                                                                                  1         9/15/13        4/30/14
                                                                                  2         9/15/13        4/30/14
                          Audit of USAID/West Bank and
                                                                                  3         9/15/13        4/30/14
    6-294-13-016-P        Gaza's Peace and Reconciliation               9/15/13
                                                                                  4         9/15/13        4/30/14
                          Program
                                                                                  5         9/15/13        4/30/14
                                                                                  6         9/15/13        4/30/14
                                                                                  1         9/17/13        8/15/14
                          Audit of USAID/Pakistan's Small
   G-391-13-005-P                                                       9/17/13   2         9/17/13        8/15/14
                          Grants Program
                                                                                  3         9/17/13        8/15/14




70 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
      Significant Recommendations Described Previously Without Final Action
                                     USAID
                         October 1, 2013-March 31, 2014

                                                  Date of   Rec.   Management       Final Action
Report Number              Report Title
                                                  Report    No.    Decision Date    Target Date
                                                              1       9/17/13          8/31/14
                                                              2       9/17/13          8/31/14
                                                              3       9/17/13          8/31/14
                                                              4       9/17/13          8/31/14
                                                              5       9/17/13          8/31/14
                                                              6       9/17/13          8/31/14
                                                              7       9/17/13          8/31/14
                                                              8       9/17/13          8/31/14
                                                              9       9/17/13          8/31/14
                                                             10       9/17/13          8/31/14
                                                             11       9/17/13          8/31/14
                 Audit of the Cost and Security              12       9/17/13          8/31/14
A-000-13-005-P   Policies and Procedures for      9/17/13    14       9/17/13          8/31/14
                 USAID's Mobile Devices                      15       9/17/13          8/31/14
                                                             16       9/17/13          8/31/14
                                                             17       9/17/13         12/31/14
                                                             18       9/17/13          8/31/14
                                                             19       9/17/13          8/31/14
                                                             20       9/17/13         12/31/14
                                                             21       9/17/13         12/31/14
                                                             22       9/17/13          8/31/14
                                                             23       9/17/13          8/31/14
                                                             24       9/17/13          8/31/14
                                                             25       9/17/13          8/31/14
                                                             26       9/17/13          8/31/14
                                                              1       9/18/13          2/1/15
                                                              2       9/18/13          2/1/15
                 Audit of USAID's Defense Base
9-000-13-005-P                                    9/18/13     3       9/18/13         4/30/14
                 Act Insurance Program
                                                              4       9/18/13          2/1/15
                                                              5       9/18/13         9/30/14
                                                              1      9/25/13          9/30/14
                 Audit of USAID/Afghanistan’s
F-306-13-001-P                                    9/25/13     2      9/25/13          9/30/14
                 Kandahar Helmand Power Project
                                                              3      9/25/13          9/30/14

                                                  *The vendor is on a repayment plan with USAID




                                                   USAID OIG Semiannual Report to the Congress 71
                   Incidents in Which OIG Was Refused Assistance or Information
                                               USAID
                                   October 1, 2013-March 31, 2014



Section 6(b)2) of the Inspector General Act of 1978 requires an inspector general to report to the head of the
agency whenever requested information or assistance is unreasonably refused or not provided.

During this reporting period, there were no reports of such instances.




7 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                                         Foreign Government
                            Close-out Financial Audit of USAID/
                            Pakistan Grant Agreement No.
                            391-IL-00-08-01111-00, Managed by           6               QC
G-391-14-002-R   10/3/13
                            Health Services Academy (HSA),              6               UN
                            for the Period From July 1, 2012, to
                            March 31, 2013
                            Financial Audit of the Program Titled
                            "Merit and Need Based Scholarship
                            Project," USAID/Pakistan Agreement         17               QC
G-391-14-003-R   10/11/13
                            No. 391-G-00-04-01023-00, for the          16               UN
                            Year Ended June 30, 2012; Managed
                            by Higher Education Commission
                            Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No.
                            391-SWA-FARA-001-00, Managed
G-391-14-005-R   10/25/13
                            by the Federally Administered Tribal
                            Areas Secretariat, for the Year Ended
                            June 30, 2012
                            Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No.
                            391-MUZ-FARA-004-00, Managed
G-391-14-006-R   10/30/13
                            by the Northern Power Generation
                            Company Limited, for the Year Ended
                            June 30, 2012




                                                       USAID OIG Semiannual Report to the Congress 73
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                          Date of
  Report Number                                        Report Title             Findings   Type of Findings
                          Report
                                                                                 ($000)
                                        Financial Audit of the USAID/Pakistan
                                        Program Assistance Agreement No.
                                        391-PEPA-ENR-SATPARA-PIL-001,
  G-391-14-007-R           11/1/13
                                        Managed by the Water and Power
                                        Development Authority, for the Year
                                        Ended June 30, 2012
                                        Financial Audit of the USAID/Pakistan
                                        Program Assistance Agreement No.
                                        391-TDR-FARA-002-00, Managed by
 G-391-14-008-R            11/1/13
                                        the Water and Power Development
                                        Authority, for the Year Ended
                                        June 30, 2012
                                        Financial Audit of the USAID/Pakistan
                                        Program Assistance Agreement No.
                                        391-PEPA-ENR-GOMAL-PIL-001,
  G-391-14-009-R           11/5/13
                                        Managed by the Water and Power
                                        Development Authority, for the Year
                                        Ended June 30, 2012
                                        Financial Audit of the USAID/Pakistan
                                        Program Assistance Agreement No.
                                        391-AAG-011-SWA-TANK, Managed
  G-391-14-010-R          12/4/13
                                        by the Federally Administered Tribal
                                        Areas Secretariat, for the Year Ended
                                        June 30, 2012
                                        Financial Audit of the USAID/
                                        Pakistan Program Assistance
                                        Agreement No. 391-013, Program
                                        Implementation Letter for the Kaur
  G-391-14-011-R          12/19/13
                                        Gomal Tanai Wana Road, Managed
                                        by the Federally Administered Tribal
                                        Areas Secretariat, for the Year
                                        Ended June 30, 2012
                                        Financial Audit of the USAID/
                                        Pakistan Project Implementation
                                        Letter No. 391-013-PIL-004, Project
  G-391-14-012-R           1/2/14       No. 391-013-004, Managed by the
                                        Federally Administered Tribal Areas
                                        Secretariat, for the Year Ended
                                        June 30, 2012




74	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Financial Audit of the USAID/
                            Pakistan Project Implementation
                            Letter No. 391-013-PIL-004, Project
G-391-14-013-R    1/2/14    No. 391-013-009, Managed by the
                            Federally Administered Tribal Areas
                            Secretariat, for the Year Ended
                            June 30, 2012
                            Financial Audit of the USAID/
                            Pakistan Project Implementation
                            Letter 391-013-PIL-004, Project
                            No. 391-013-010, for the Widening
G-391-14-014-R    1/9/14    and Reconstruction of Ahmed
                            Wam Tunnel, Managed by the
                            Federally Administered Tribal Areas
                            Secretariat, for the Year Ended
                            June 30, 2012
                                       Programs and Operations
                            Audit of USAID's Financial Statements
0-000-14-001-C   12/16/13                                            55,000             BU
                            for Fiscal Years 2013 and 2012
                                     Foreign-Based Organizations
                            Close Out Audit of the Certified
                            Expenditures Report Under Contract
                            No. AID-504-C-11-00001, Managed
1-534-14-001-N   3/19/14    by the Community Support and
                            Development Services Inc. (CSDS),
                            for the Period From January 1, 2012,
                            to September 30, 2013
                            Audit of the "Entrepreneurs Program
                            Superate," Cooperative Agreement
                            No. 519-A-10-00002 Between
                            the United States Agency for
1-519-14-001-R   10/3/13
                            International Development (USAID)
                            and Fundación Sagrera Palomo, for
                            the Period From January 1, 2012, to
                            December 31, 2012




                                                       USAID OIG Semiannual Report to the Congress 75
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                           Date of
  Report Number                                         Report Title            Findings   Type of Findings
                           Report
                                                                                 ($000)
                                        Close-Out Audit of the Certified
                                        Expenditures Report of USAID
                                        Resources Provided Under
                                        Contract No. AID-527-C-08-00010
  1-527-14-002-N           3/19/14                                                982            QC
                                        "Strengthening Institutions and
                                        Policies," Managed by Consultandes
                                        S.A. for the Period From January 1,
                                        2012, to June 30, 2013
                                        Audit of the Fund Accountability
                                        Statement of USAID Resources
                                        Provided Under Strategic Agreement
                                        No. 596-A-00-06-00078-00
                                        "Economic Freedom: Open
                                        Diversified Expanding Economies in
  1-596-14-002-R          10/10/13                                                12             QC
                                        Central America and the Dominican
                                        Republic CAFTA-DR," Managed
                                        by Comisión Centroamerica de
                                        Ambiente y Desarrollo (CCAD)
                                        for the Period From January 1 to
                                        December 31, 2012
                                        Financial Audit of USAID Assistance
                                        Agreement No. 522-0480 "More
                                        Responsive Governance Program
                                        and Elections and Political Processes     63             QC
  1-522-14-003-R          10/10/13
                                        Element," Managed by the Supreme          10             UN
                                        Electoral Tribunal (TSE) for the
                                        Period From January 1, 2012, to
                                        March 31, 2013
                                        Audit of the Fund Accountability
                                        Statement of Cooperative
                                        Agreement No. AID-527-G-11-00001
                                        "Strengthening the Climate
                                        Change Adaptive Capacity of Local
                                        Governments and Organizations
  1-527-14-004-R          10/10/13
                                        in Rural Southern Peru Program,"
                                        Managed by the Asociación
                                        Especializada para el Desarrollo
                                        Sostenible (AEDES), for the
                                        Period From February 16, 2011, to
                                        December 31, 2012




76	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Audit of Cooperative Agreement No.
                            518-A-00-07-00067-00, "Integrated
                            Municipal Development Program
                            (IMDP)," and 518-A-10-00005,
1-518-14-005-R   10/10/13   "Program to Combat the Trafficking
                            in Persons in Ecuador (TIP)," Managed
                            by the International Organization for
                            Migration (IOM), for the Year Ended
                            on December 31, 2012
                            Audit of the USAID Cooperative
                            Agreement No. 512-A-11-00002,
                            Increasing Testing Options and
                            Leadership on HIV/AIDS "Quero
1-512-14-006-R   10/16/13   Fazer" Program, Managed by Espaço
                            de Prevenção e Atenção Humanizada
                            (EPAH) for the Period From
                            January 1, 2012, to December 31,
                            2012
                            Close-out Audit of the Fund
                            Accountability Statement of
                            Cooperative Agreement No. 527-A-
                            10-00006 "The Cajamarca Nutrition
1-527-14-007-R   10/16/13   Alliance: Strengthening and Expanding
                            Predeci Program," Managed by the
                            Asociación Los Andes de Cajamarca
                            (ALAC), for the Period From
                            October 14, 2010, to April 13, 2013
                            Close-out Audit of the Fund
                            Accountability Statement of the
                            "Building More Inclusive and Equitable
                            Democracies in the Americas,"
                            Project No. RLA-A-00-09-00006-00,
1-598-14-008-R   10/15/13   and Audit of the "Strengthening
                            Electoral Management Project," No.
                            AID-518-A-11-00002, Managed by the
                            Inter-American Institute of Human
                            Rights (IIHR), for the Year Ended
                            December 31, 2012




                                                       USAID OIG Semiannual Report to the Congress 77
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                         Report Title             Findings   Type of Findings
                           Report
                                                                                  ($000)
                                        Close-out Audit of USAID Resources
                                        Managed by Digicel Foundation for
                                        the Redemption Market Project
                                                                                   121            QC
  1-532-14-009-R          10/18/13      Under Cooperative Agreement AID-
                                                                                   120            UN
                                        532-A-12-00001 for the Period From
                                        December 2, 2011, to December 30,
                                        2012
                                        Audit of the Fund Accountability
                                        Statement Under Cooperative
                                        Agreement No. AID-524-A-11-00001
                                        for the "Promotion of Economic and
                                        Social Development in Nicaragua
  1-524-14-010-R          10/21/13
                                        Program," Managed by Fundación
                                        Nicaraguense Para el Desarrollo
                                        Económico y Social (FUNIDES), for
                                        the Period From January 1, 2012, to
                                        December 31, 2012
                                        Audit of the Fund Accountability
                                        Statement of the Project "Education
                                        for Success Program on the South
                                        Atlantic Autonomous Region of
                                        Nicaragua," Cooperative Agreement
  1-524-14-011-R           11/6/13                                                 55             QC
                                        No. 524-A-10-00005, Managed by
                                        Fundación para la Autonomia y el
                                        Desarrollo de la Costa Atlantica de
                                        Nicaragua (FADCANIC), for the Year
                                        Ended on December 31, 2012
                                        Close-out Audit of the Fund
                                        Accountability Statement of the "Pilot
                                        Project to Provide Mental Health
                                        Services to Victims in Rural Areas
                                        Affected by Colombian Internal
  1-514-14-012-R          11/15/13
                                        Conflict," Managed by Fundación
                                        País Libre, Under the Cooperative
                                        Agreement AID-514-A-10-00003, for
                                        the Period From January 1, 2012, to
                                        November 30, 2012




78 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                    Amt. of
                 Date of
Report Number                          Report Title                 Findings     Type of Findings
                 Report
                                                                     ($000)
                           Audit of the Fund Accountability
                           Statement of Grant No:
                           538-LSSAG-538-2011-001 "Reduce
                           Risks to Human and Natural
1-538-14-013-R   1/21/14   Assets Resulting from Climate
                           Change Program," Managed by the
                           Organization of Eastern Caribbean
                           States (OECS), for the Period from
                           January 17, 2011, to June 30, 2012
                           Audit of the Strategic Objective
                           Agreement No. 527-0423, Managed
                           by the Comisión Nacional Para
1-527-14-014-R   1/22/14                                              357              QC
                           el Desarrollo y Vida Sin Drogas
                           (DEVIDA) for the Period From
                           January 1 to December 31, 2012
                           Financial Audit of the Strategic
                           Objective Agreement No. 527-0423,
                           Managed by the Regional Government         50               QC
1-527-14-015-R   2/20/14
                           of San Martin (GORESAM) for the            49               UN
                           Period From April 1 to December 31,
                           2012
                           Audit of the Agreements No. 532-IL-
                           532-4-ENV-AA-0007 and 532-IL-
                           ENV-AA-00005, for the "USAID/GOJ
                           Gustav Agricultural Rehabilitation
1-532-14-016-R   2/20/14   Project (GARP)," Managed by the             7               QC
                           Ministry of Agriculture and Fisheries
                           (MOAF), for the Period From
                           August 1, 2011, to September 30,
                           2012
                           Audit of the Agreement No. 532-IL-
                           532-AG-8- 00007, for the "Marketing
                           and Agriculture for Jamaican
                           Improved Competitiveness (MAJIC)           10               QC
1-532-14-017-R   2/26/14
                           Program," Managed by the Ministry           4               UN
                           of Agriculture and Fisheries (MOAF),
                           for the Period From May 4, 2011, to
                           September 30, 2012




                                                      USAID OIG Semiannual Report to the Congress 79
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Audit of USAID Resources Managed
                                         By the Caribbean HIV AIDS Alliance,
                                         Under Regional Strategic Assistance
                                         Cooperative Agreement Number
  1-538-14-018-R           3/20/14       AID-538-A-11-00001, "Eastern
                                         Caribbean Community Action Project
                                         11 (EC-CAP 11) Program" From
                                         the Period From March 1, 2011, to
                                         December 31, 2011
                                         Financial Audit of the Fund
                                         Accountability Statement of the
                                         "Awareness Program on Sport,
                                         Recreation and Culture for
                                         Wheelchair Users in Latin America,"
  1-527-14-019-R           3/28/14       Cooperative Agreement No.
                                         AID-527-A-11-00007, Managed
                                         by Fundación Arcangeles Para
                                         la Rehabilitación Integral for the
                                         Period From September 27, 2011, to
                                         December 31, 2012
                                         Audit of Community Development
                                         Foundation Mozaik Under Fund
                                         Accountability Statement USAID
  3-168-14-001-R           10/9/13
                                         Grant Agreement Nos. 168-A-00-10-
                                         00103-00 and 168-A-00-10-00101-00
                                         for Fiscal Year December 31, 2012
                                         Audit of ZOA, Under Agreement
                                         Nos. AID-OFDA-G-11-0098 and
  3-000-14-002-R           10/8/13
                                         AID-383-G-11-00004 for Fiscal Year
                                         Ended December 31, 2011
                                         Audit of New Eurasia Foundation
                                         (NEF) Fund Accountability
  3-118-14-003-R           10/9/13       Statement Under USAID Multiple            13             QC
                                         Agreements for the Fiscal Year Ended
                                         December 31, 2012
                                         Audit of Première Urgence-Aide
                                         Medicale Internationale (PUAMI)
                                                                                    7             QC
  3-000-14-004-R           10/9/13       Fund Accountability Statement Under
                                                                                    7             UN
                                         USAID Multiple Agreements for
                                         Fiscal Year Ended June 30, 2010




8 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                      Amt. of
                 Date of
Report Number                            Report Title                 Findings     Type of Findings
                 Report
                                                                       ($000)
                            Audit of Première Urgence-Aide
                            Medicale Internationale (PUAMI)
                            Fund Accountability Statement Under          1               QC
3-000-14-005-R   10/10/13
                            USAID Multiple Agreements for the            1               UN
                            Period July 1, 2010, to December 31,
                            2010
                            Audit of Fostering Entrepreneurship
                            in Rural Areas-Fruit Grower
                            Association "Integralna Proizvodnja
                            Voća" Fund Accountability Statement
3-168-14-006-R   10/10/13
                            Under USAID Cooperative
                            Agreement Number AID-
                            168-A-11-00003 for Fiscal Year (FY)
                            Ended December 31, 2012
                            Audit of Première Urgence - Aide
                            Medicale Internationale (PUAMI)
3-000-14-007-R   10/15/13   Fund Accountability Statement Under
                            USAID Multiple Agreements for Fiscal
                            Year Ended December 31, 2011
                            Audit of Solidarités International (SI)
                            Fund Accountability Statement Under
3-000-14-008-R   10/16/13
                            USAID Multiple Agreements for Fiscal
                            Year Ended December 31, 2012
                            Audit of European Cooperative for
                            Rural Development (EUCORD) Fund
                            Accountability Statement Under
3-000-14-009-R   10/17/13   USAID Cooperative Agreement
                            No. GHO-A-00-09-00008-00 for
                            the Period January 1, 2012, Through
                            August 31, 2012
                            Audit of International HIV/AIDS
                            Alliance Fund Accountability
3-000-14-010-R   10/18/13   Statement Under USAID Multiple
                            Agreements for Fiscal Year Ended
                            December 31, 2012




                                                        USAID OIG Semiannual Report to the Congress 81
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                         Report Title             Findings   Type of Findings
                           Report
                                                                                  ($000)
                                        Audit of Foundation Center for
                                        Entrepreneurship and Executive
                                        Development-CEED Macedonia
                                        (FCEED) Fund Accountability
  3-165-14-011-R          10/21/13                                                 10             QC
                                        Statement Under USAID Cooperative
                                        Agreement No. AID-165-A-11-00002
                                        for Fiscal Year Ended December 31,
                                        2012
                                        Audit of "Civic Network "OPORA"
                                        (OPORA) Fund Accountability
  3-121-14-012-R          10/23/13      Statement Under USAID Multiple
                                        Agreements for the Fiscal Year Ended
                                        December 31, 2012
                                        Audit of Save the Children UK Fund
                                        Accountability Statement Under
  3-000-14-013-R          10/23/13
                                        USAID Multiple Agreements for Fiscal
                                        Year Ended December 31, 2011
                                        Audit of Centers for Civic Initiatives
                                        Fund Accountability Statement Under
  3-168-14-014-R          10/23/13      Cooperative Agreement No. 168-
                                        A-00-08-00104-00 for Fiscal Year
                                        Ended December 31, 2011
                                        Audit of Centers for Civic Initiatives
                                        Fund Accountability Statement Under
  3-168-14-015-R          10/23/13      Cooperative Agreement No. 168-
                                        A-00-08-00104-00 for Fiscal Year
                                        Ended December 31, 2012
  3-000-14-016-R          10/29/13      Audit of Handicap International
                                        Under Multiple Agreements for Fiscal
                                        Year Ended December 31, 2012
                                        Audit of Action Contre La Faim-Fund
                                        Accountability Statement Under
  3-000-14-017-R          11/19/13
                                        USAID Multiple Agreements for Fiscal
                                        Year Ended December 31, 2012
                                        Closeout Audit of Agency for
                                        Technical Cooperation and
  3-000-14-018-R          11/19/13      Development (ACTED) Under
                                        Multiple Agreements for Fiscal Year
                                        Ended December 31, 2011




8 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Audit of the Foundation Open
                            Society Macedonia (FOSM)-Fund
                            Accountability Statement Under
3-165-14-019-R   12/11/13   Cooperative Agreement Nos.
                            165-A-00-04-00101-00 and AID-
                            165-A-12-00004 for the Year Ended
                            December 31, 2012
                            Audit of Armenian Young Lawyers
                            Association, Under USAID
3-111-14-020-R   12/5/13    Cooperative Agreement No. AID-
                            111-A-11-00002 for Fiscal Year Ended
                            December 31, 2012
                            Audit of Norwegian People's Aid-
                            Fund Accountability Statement Under
3-000-14-021-R   12/10/13
                            USAID Multiple Agreements for the
                            Year Ended December 31, 2011
                            Audit of Eurasia Partnership
                            Foundation Under USAID Multiple
3-111-14-022-R   12/11/13
                            Agreements for the Fiscal Year Ended
                            December 31, 2012
                            Audit of Danish Refugee Council
                            (DRC)-Fund Accountability Statement
3-000-14-023-R   12/17/13   Under USAID Multiple Agreements            14               QC
                            for the Year Ended December 31,
                            2011
                            Audit of Marie Stopes International
                            (MSI)-Fund Accountability Statement
                                                                      1,946             QC
3-000-14-024-R    1/6/14    Under USAID Multiple Agreements
                                                                      1,946             UN
                            for the Year Ended December 31,
                            2012
                            Audit of It's Your Choice NGO (IYC)-
                            Fund Accountability Statement Under
3-111-14-025-R    1/6/14    Agreement No. AID-111-G-11-00002
                            for the Year Ended December 31,
                            2012
                            Audit of Norwegian Refugee
                            Council (NRC)-Fund Accountability
                                                                       31               QC
3-000-14-026-R    1/6/14    Statement Under USAID Multiple
                                                                       23               UN
                            Agreements for the Year Ended
                            December 31, 2012



                                                       USAID OIG Semiannual Report to the Congress 83
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                               Amt. of
                           Date of
  Report Number                                         Report Title           Findings   Type of Findings
                           Report
                                                                                ($000)
                                        Audit of Business Startup Center
                                        Bitola (BSCB) Fund Accountability
                                        Statement Under USAID Cooperative         4             QC
  3-165-14-027-R           1/15/14
                                        Agreement No. 165-A-11-00104-
                                        00 for the Fiscal Year Ended
                                        December 31, 2012
                                        Audit of Building Markets, Ltd-Fund
                                        Accountability Statement Under
                                                                                 38             QC
  3-000-14-028-R           1/23/14      USAID Agreement No. AID-
                                                                                 31             UN
                                        669-G-12-00001 for the Period of
                                        March 5, 2012, Through June 30, 2012
                                        Audit of "UMID" Support to
                                        Social Development Public Union
                                        (UMID), Under USAID Cooperative
  3-112-14-029-R           1/27/14      Agreement No. 112-A-09-00003 and
                                        Sub-Award No. 669-11-100-3018-20
                                        for the Year Ended December 31,
                                        2012
                                        Audit of The United Nations
                                        Association of Georgia (UNAG)
  3-114-14-030-R           2/3/14       Under USAID Agreement No. AID-
                                        114-A-11-00002 for the Year Ended
                                        December 31, 2012
                                        Audit of Tearfund Under Multiple
  3-000-14-031-R           1/30/14      Agreements for Fiscal Year Ended
                                        March 31, 2013
                                        Audit of Centre UA, Under USAID
                                        Cooperative Agreement No. 121-A-          6             QC
  3-121-14-032-R           2/5/14
                                        00-08-00707-00 for the Year Ended         6             UN
                                        December 31, 2012
                                        Audit of Merlin Under Multiple
  3-000-14-033-R           3/3/14       Agreements for Fiscal Year Ended
                                        December 31, 2012
                                        Closeout Audit of Coalition for
                                        Independent Living (CIL) Fund
                                        Accountability Statement Under
                                                                                 232            QC
  3-114-14-034-R           3/3/14       USAID Agreement March 3, 2014
                                                                                 224            UN
                                        No. PWD 001 for the Period
                                        November 1, 2006, Through February
                                        29, 2012



8 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Audit of VSF Germany-Fund
                            Accountability Statement Under
3-000-14-035-R   3/6/14
                            Multiple Agreements for the Fiscal
                            Year December 31, 2012
                            Audit of Oxfam GB (OGB)- Fund
                            Accountability Statement Under              1               QC
3-000-14-036-R   3/6/14
                            USAID Multiple Agreements for the           1               UN
                            Year Ended March 31, 2013
                            Audit of Water and Sanitation for the
                            Urban Poor (WSUP) Under Multiple           66               QC
3-000-14-037-R   3/11/14
                            Agreements for the Year Ended              62               UN
                            March 31, 2013
                            Audit of ZOA Under USAID Multiple
3-000-14-039-R   3/18/14    Agreements for Fiscal Year Ended
                            December 31, 2012
                            Audit of Practical Action Under
3-000-14-040-R   3/20/14    Multiple Agreements for Fiscal Year
                            Ended March 31, 2013
                            Audit of Macedonian Civic
                            Education Center Under
                            Cooperative Agreements Nos.
3-165-14-041-R   3/24/14
                            AID-165-A-12-00002 and AID-
                            165-A-13-00001 for Fiscal Year Ended
                            December 31, 2012
                            Agency Contracted Closeout Audit
                            of USAID Resources Managed by
                            the Ministry of Education Under
                            Implementation Letters No. 615-
                            IL615-008-008, 615-IL-003-10-KIE,
                            615-IL615-008-011, 615-IL615-008-
4-615-14-001-N   11/13/13                                              18               QC
                            012 and 615-IL-008-013-MOE for the
                            Period From July 1, 2008, to June 30,
                            2011, and Implementation Letter No.
                            615-IL615-008-003-1 for the Period
                            From October 26, 2006, to June 30,
                            2008




                                                       USAID OIG Semiannual Report to the Congress 85
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Audit of USAID Resources Managed
                                         by Children of God Relief Institute
                                         (COGRI) for Lea Toto Program
                                         Under Cooperative Agreement No.
  4-615-14-001-R           10/2/13       AID-623-A-09-00008 and Closeout            8             QC
                                         Audit for Nyumbani Village Program,
                                         Cooperative Agreement Number
                                         AID-623-A-00-09-00027 for the Year
                                         Ended December 31, 2012
                                         Agency Contracted Audit of
                                         USAID Resources Managed by
                                         PricewaterhouseCoopers Limited
                                         Under Orphans and Vulnerable
                                         Children Scholarships Programme
                                         Agreement No. 623-C-00-09-00007-
                                                                                   107            QC
  4-615-14-002-N            12/5/13      00 for the Period From January 1,
                                         2009, to November 17, 2011, and
                                         Closeout Audit of Higher Education
                                         Scholarships Programme Agreement
                                         No. 623-C-00-08- 00022-00 for
                                         the Period From January 1, 2009, to
                                         April 22, 2012
                                         Audit of USAID Resources
                                         Managed by ADPP Mozambique
                                         Under Cooperative Agreement
                                         No. GHH-A-00-07-00038-00
                                         (closeout), Subagreement
                                         No. FFP-A-00-08-00084-02,
  4-969-14-002-R            10/3/13                                                21             QC
                                         Subagreement No.
                                         1U2GPS001542-01, Subagreement
                                         No. RLA-C-0004-00074-00
                                         and Subagreement No. AID-
                                         OAA-A-10-0020 for the Year Ended
                                         December 31, 2011
                                         Agency Contracted Closeout Audit
                                         of USAID Resources Managed by
                                         Deloitte Consulting LLP Under
  4-615-14-003-N           2/27/14       Contract No. AID-623-C-11-00010           105            QC
                                         (KEMSA Support Program) for the
                                         Period From May 10, 2011, to May 9,
                                         2013



8 6 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                    Amt. of
                 Date of
Report Number                          Report Title                 Findings     Type of Findings
                 Report
                                                                     ($000)
                           Audit of USAID Resources Managed
                           by Kenya Community Development
                           Foundation Under Cooperative                1               QC
4-615-14-003-R   10/3/13
                           Agreement No. AID-623-A-11-00013
                           for the Year Ended September 30,
                           2012
                           Audit of USAID Resources Managed
                           by Katutura Youth Enterprise Centre
                           Trust (KAYEC) Under Agreement
4-673-14-004-R   10/7/13                                               4               QC
                           No. 674-A-00-11-00034-00 for
                           the Period From April 20, 2011, to
                           December 31, 2011
                           Audit of USAID Resources Managed
                           by Baylor College of Medicine
                           Children's Foundation Malawi Under
                           Cooperative Agreement No. 674-
                           A-00-10-00093-00 "Community
                           Health Workers as a Bridge
                           Between PMTCT, EID and Pediatric
4-612-14-005-R   10/9/13                                               7               QC
                           HIV Services (Tingathe Program)"
                           and Subagreement no. 674-A-00-
                           10-00035-00 "Extending Quality
                           Improvement for HIV/AIDS in
                           Malawi (EQUIP Program)" for the
                           Period From November 15, 2010, to
                           September 30, 2012
                           Audit of USAID Resources Managed
                           by Selian Lutheran Hospital-AIDS
                           Control Program Under Cooperative
4-621-14-006-R   10/9/13                                               1               QC
                           Agreement No. AID-621-A-11-00004
                           for the Year Ended December 31,
                           2012
                           Audit of USAID Resources Managed
                           by Right to Care (RTC) Under
                           Cooperative Agreement Nos. 674-             8               QC
4-674-14-007-R   10/9/13
                           A-00-08-00007-00 and 674-A-00-              4               UN
                           09-00001-00 for the Year Ended
                           September 30, 2012




                                                      USAID OIG Semiannual Report to the Congress 87
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                  Amt. of
                           Date of
  Report Number                                          Report Title             Findings   Type of Findings
                           Report
                                                                                   ($000)
                                         Audit of USAID Resources Managed
                                         by African Palliative Care Association
                                         Under Agreement No. 674-A-00-09-
                                         00112-00, Subagreement No. H-F3-
  4-674-14-008-R           10/10/13      BOT-07-P-PTR-APBO, Subagreement
                                         17436-APCA-01, and Closeout audit
                                         of Subagreement No. AIDSTAR-
                                         ONE-001 for the Year Ended
                                         March 31, 2013
                                         Audit of USAID Resources Managed
                                         by Marie Stopes Uganda Under
                                         Cooperative Agreement No. AID
  4-617-14-009-R           10/25/13                                                  5             QC
                                         617-A-10-00004 and Sub Grant
                                         No. 19101-002 for the Year Ended
                                         December 31, 2012
                                         Audit of USAID Resources Managed
                                         by Joint Clinical Research Centre
                                         Under Cooperative Agreement
                                         No. AID-617-A-10-00006 Targeted
                                         HIV/AIDS and Laboratory Services
  4-617-14-010-R           10/25/13                                                 59             QC
                                         (THALAS) for the Period July 1, 2011,
                                         to June 30, 2012, and Subagreement
                                         No. 617-A-00-09-00006-00 for
                                         the Period November 30, 2009, to
                                         June 30, 2012
                                         Audit of USAID Resources Managed
                                         by The University of the Western
  4-674-14-011-R           10/29/13      Cape Under Cooperative Agreement
                                         No. 674-A-00-09-00019-00 for the
                                         Year Ended December 31, 2012
                                         Audit of USAID Resources Managed
                                         by The AIDS Support Organisation
                                         (TASO) Uganda limited Under
  4-617-14-012-R            11/6/13                                                  2             QC
                                         Cooperative Agreement No. 617-
                                         A-09-00005-00 for the Year Ended
                                         December 31, 2012




8 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Audit of USAID Resources Managed
                            by Solutions for Innovative Policies,
                            Programs and Technologies NPC              44               QC
4-674-14-013-R   11/6/13
                            Under Agreement No. 674-A-12-              39               UN
                            00009 for the Period May 14, 2012, to
                            December 31, 2012
                            Closeout Audit of USAID Resources
                            Managed by Otse Community
                            Home Based Care Trust Under
4-936-14-014-R   11/6/13    Cooperative Agreement No.
                            GHO-A-00-09-00003-00 for the 11
                            Month Period From April 1, 2011, to
                            February 29, 2012
                            Audit of USAID Resources Managed
                            by Association of Volunteers
                            in International Service (AVSI)
                            Foundation Uganda Under
                            Cooperative Agreement No. AID-
4-617-14-015-R   11/13/13   617-A-11-00001, Subagreement No.
                            TSO1 for the Year Ended December
                            31, 2012, and Closeout Audit of
                            Subagreement No. 016 for the Period
                            From January 1, 2012, to April 30,
                            2012
                            Audit of USAID Resources
                            Managed by Foundation for
                            Professional Development Under
                            Cooperative Agreement Nos.
                            AID-674-A-00-08-0006-00,
4-674-14-016-R   11/18/13                                               2               QC
                            AID-674-A-12-00013, AID-
                            674-A-12-00017, AID-
                            674-A-12-00026, and AID-
                            674-A-12-000037 for the Year Ended
                            December 31, 2012
                            Audit of USAID Resources Managed
                            by Justice for All-Prison Fellowship
4-663-14-017-R   11/19/13   Ethiopia (JFA-PFE) Under Agreement
                            No. 663-A-00-07-00416-00 for the
                            Year Ended December 31, 2012




                                                       USAID OIG Semiannual Report to the Congress 89
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                           Date of
  Report Number                                          Report Title           Findings   Type of Findings
                           Report
                                                                                 ($000)
                                         Audit of USAID Resources
                                         Managed by AMREF Tanzania Under
                                                                                   4             QC
  4-621-14-018-R           11/22/13      Cooperative Agreement No. 621-A-
                                                                                   3             UN
                                         00-08-00018-00 for the Period From
                                         July 27, 2008, to September 30, 2009
                                         Audit of USAID Resources Managed
                                         by University of South Africa Under
                                         Management of Democratic Elections
  4-674-14-019-R           12/2/13
                                         in Africa Grant No. 674-G-00-
                                         11-00066-00 for the Period From
                                         June 20, 2011, to December 3, 2012
                                         Audit of USAID Resources
                                         Managed by Africa Centre for
                                         Holistic Management (ACHM)
                                         Under Grant Agreement No.
  4-902-14-020-R           12/4/13
                                         DFD-G-00-10-00084-00 and
                                         Subagreements 12-ZRR-G-G-0491
                                         and 10-ZCL-G-A-0244 for the Year
                                         Ended December 31, 2012
                                         Audit of USAID Resources Managed
                                         by Intergovernmental Authority
                                         on Development (IGAD) Under
  4-623-14-021-R           12/2/13       limited Scope Grant Award (LSGA)
                                         No. 6230009.02-3-60082 IGAD/
                                         CEWARN for the Year Ended
                                         December 31, 2012
                                         Audit of USAID Resources Managed
                                         by PASADA Under Cooperative
  4-621-14-022-R           12/2/13       Agreement No. AID-621-A-11-00002          5             QC
                                         for the Year Ended December 31,
                                         2012
                                         Audit of USAID Resources Managed
                                         by Fre Addis Ethiopia Yesetoch Merja
                                         Mahiber (Girls' Scholarship Program)
  4-663-14-023-R           12/3/13                                                 5             QC
                                         Under Cooperative Agreement No.
                                         AID-663-A-10-00001 for the Year
                                         Ended August 31, 2012




9 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Audit of USAID Resources Managed
                            by The Diocese of Chikwawa Under
                            Sub-Agreement with Catholic Relief
4-962-14-024-R   12/4/13
                            Services Award Number AID-
                            FFP-A-09-00001 for the Year Ended
                            June 30, 2010
                            Audit of USAID Resources Managed
                            by The Diocese of Chikwawa
4-962-14-025-R   12/4/13    Under Various Subagreements With
                            Catholic Relief Services for the Year
                            Ended June 30, 2011
                            Audit of USAID Resources
                            Managed by Inter-Religious
                            Council of Uganda (IRCU) Under
                            Cooperative Agreement No. AID-
                            617-A-10-00002 (Comprehensive
                                                                        1               QC
4-617-14-026-R   12/5/13    Faith and Community Based HIV/
                                                                        1               UN
                            AIDS Prevention, Care and Treatment
                            Services) and Subagreement No.
                            617-A-00-09-00006-00-IRCU with
                            Management Sciences for Health for
                            the Year Ended December 31, 2012
                            Audit of USAID Resources
                            Managed by Total Land Care Under
                            Subagreement With Catholic Relief
                            Services Award Number AID-                 65               QC
4-962-14-027-R   12/10/13
                            FFP-A-09-00001 (Wellness for               64               UN
                            Agriculture and Life Advancement)
                            for the Period From July 1, 2010, to
                            September 30, 2011




                                                       USAID OIG Semiannual Report to the Congress 91
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                               Amt. of
                           Date of
  Report Number                                         Report Title           Findings   Type of Findings
                           Report
                                                                                ($000)
                                        Audit of USAID Resources
                                        Managed by Total Land Care Under
                                        Cooperative Agreement No. 674-
                                        A-00-09-00051-00 Spice Promotion
                                        in Commercial Enterprise Project
                                        (SPICE), Cooperative Agreement
                                        No. 674-A-00-09-00140-00                  6             QC
  4-612-14-028-R          12/10/13
                                        Kulera Biodiversity Project and           6             UN
                                        Subagreement With Catholic Relief
                                        Services Award Number AID-
                                        FFP-A-09-00001 (Wellness for
                                        Agriculture and Life Advancement)
                                        for the Year Ended September 30,
                                        2012
                                        Audit of USAID Resources
                                        Managed by HIV SA Under
                                        Cooperative Agreement Nos.
                                        AID-674-A-13-00006, AID 674-
                                                                                  6             QC
  4-674-14-029-R          12/11/13      A-00-08-00009-00 and Subaward
                                                                                  6             UN
                                        With ANOVA Under Cooperative
                                        Agreement No. AID-674-A-12-00015
                                        for the Period From October 1, 2012,
                                        to February 28, 2013
                                        Audit of USAID Resources Managed
                                        by Dignitas International Under
                                        Cooperative Agreement No. 674-A-
                                        00-10-00034-00, Support for Health
  4-612-14-030-R          12/12/13
                                        Systems Strengthening and HIV/
                                        AIDS Service Delivery in Malawi's
                                        South East Zone, for the Year Ended
                                        December 31, 2012
                                        Audit of USAID Resources Managed
                                        by African Medical Research
                                        Foundation (AMREF) Tanzania Under
                                                                                  3             QC
  4-621-14-031-R          12/12/13      Cooperative Agreement No. 621-A-
                                                                                  2             UN
                                        00-08-00018-00 for the Angaza Zaidi
                                        Program for the Two-Year Period
                                        Ended September 30, 2011




9 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Audit of USAID Resources
                            Managed by Broadreach Healthcare
                            Proprietary Limited Under
4-674-14-032-R   12/18/13   Cooperative Agreement Nos. 674-
                            A-12-00016 and 674-A-12-00038 for
                            the Period From August 22, 2012, to
                            December 31, 2012
                            Audit of USAID Resources
                            Managed by Lifeline/Childline
                            Under Cooperative Agreement
                            No. 673-A-11-00001 (SHARRP)
4-674-14-033-R    1/2/14
                            and Various Subagreements With
                            EngenderHealth, Intrahealth, and
                            PACT for the Year Ended March 31,
                            2012
                            Audit of USAID Resources
                            Managed by Lifeline/Childline Under
4-673-14-034-R    1/2/14    Cooperative Agreement No. 673-
                            A-11-00001 (SHARRP) for the Year
                            Ended March 31, 2013
                            Audit of USAID Resources Managed
                            by Women in Law and Development
                            in Africa (WiLDAF) Under
4-621-14-035-R    1/6/14                                                1               QC
                            Cooperative Agreement No. 621-A-
                            00-10-00004-00 for the Year Ended
                            December 31, 2012
                            Audit of USAID Resources Managed
                            by Church Alliance for Orphans Trust
                            Under Cooperative Agreement No.
4-673-14-036-R    1/7/14    674-A-00-11-00013-00 (Orphan
                            and Vulnerable Children Program
                            in Namibia) for the Year Ended
                            February 28, 2013
                            Audit of USAID Resources Managed
                            by Common Market for Eastern and
                            Southern Africa (COMESA) Under
                                                                       972              QC
4-623-14-037-R   1/13/14    the Integrated Partnership Assistance
                                                                       965              UN
                            Agreement No. 623-AA-09-001-00-
                            EA for the Year Ended December 31,
                            2012




                                                       USAID OIG Semiannual Report to the Congress 93
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                          Date of
  Report Number                                        Report Title              Findings   Type of Findings
                          Report
                                                                                  ($000)
                                        Audit of USAID Resources Managed
                                        by National Association of Childcare
                                        Workers Under Cooperative
  4-674-14-038-R           1/21/14
                                        Agreement No. AID-674-A-13-00009
                                        for the 5 Months Ended March 31,
                                        2013
                                        Audit of USAID Resources Managed
                                        by Society Family Health Trust Under
                                        Cooperative Agreement No. 674-
  4-673-14-039-R           1/21/14      A-00-11-00017-0, Strengthening              1             QC
                                        HIV Prevention for Most at Risk
                                        Populations in Namibia, for the Year
                                        Ended December 31, 2012
                                        Audit of USAID Resources Managed
                                        by Partners in Hope Under
  4-612-14-040-R          1/23/14       Cooperative Agreement No. 674-A-            1             QC
                                        00-10-00035-00 (EQUIP Malawi) for
                                        the Year Ended March 31, 2013
                                        Closeout Audit of USAID
                                        Resources Managed by Aga Khan
                                        Foundation Mozambique Under
  4-936-14-041-R          1/23/14       Cooperative Agreement No.
                                        GHN-A-00-09-00009-00 (Malaria
                                        Communities Program) for the Year
                                        Ended September 30, 2012
                                        Closeout Audit of USAID Resources
                                        Managed by The Mindset Network
                                        Under Cooperative Agreement
                                        No. 623-A-00-08-00044-00 and
  4-615-14-042-R          1/23/14       Subagreement with Johns Hopkins            13             QC
                                        University Under Cooperative
                                        Agreement No. 674-A-00-08-00039
                                        for the 43-Month Period from June 1,
                                        2008, to December 31, 2011
                                        Audit of USAID Resources Managed
                                        by Hospice Palliative Care Association
                                        of South Africa (HPCA) Under
  4-674-14-043-R           2/13/14
                                        Cooperative Agreement No. 674-
                                        A-00-10-00023 for the Year Ended
                                        March 31, 2013




94	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                    Amt. of
                 Date of
Report Number                          Report Title                 Findings     Type of Findings
                 Report
                                                                     ($000)
                           Audit of USAID Resources Managed
                           by Lewa Wildlife Conservancy
                           Through Northern Rangelands
4-615-14-044-R   2/13/14   Trust (NRT) Under Cooperative
                           Agreement No. 623-A-00-09-00011-
                           00 for the 18-Month Period Ended
                           June 30, 2013
                           Audit of USAID Resources Managed
                           by Laikipia Wildlife Forum Under
                           Cooperative Agreement No.
                                                                      50               QC
4-615-14-045-R   2/13/14   AID-623-A-09-00002 for Laikipia
                                                                      45               UN
                           Biodiversity Conservation Program
                           for the 18-Month Period Ended
                           June 30, 2013
                           Audit of USAID Resources Managed
                           by NEPAD Business Foundation
                           Under the Removing the Barriers
4-674-14-046-R   2/18/14   (RtB) Program, Cooperative
                           Agreement No. 674-A-00-11-00047-
                           00, for the Year Ended March 31,
                           2013
                           Audit of USAID Resources Managed
                           by Childline Mpumalanga Under
4-674-14-047-R   2/21/14   Cooperative Agreement No. AID-
                           674-A-13-00010 for the Period From
                           December 1, 2012, to March 31, 2013
                           Audit of USAID Resources Managed
                           by Nkhoma Synod Relief and
                           Development Under Cooperative              177              QC
4-612-14-048-R   3/3/14
                           Agreement No. 674-A-00-11-00029            166              UN
                           for the Period From February 24,
                           2011, to June 30, 2012




                                                      USAID OIG Semiannual Report to the Congress 95
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                               Amt. of
                           Date of
  Report Number                                         Report Title           Findings   Type of Findings
                           Report
                                                                                ($000)
                                        Closeout Audit of USAID Resources
                                        Managed by Tanzania Red Cross
                                        Society Under Agreement No. 621-
                                        A-00-09-00007-00 (LLIN Hang Up
  4-621-14-049-R            3/4/14      Campaign Program) and Agreement
                                        No. 621-G-00-12-00001 (Flood
                                        Emergency in Dar es Salaam Program)
                                        for the 18-Month Period Ended
                                        June 30, 2013
                                        Audit of USAID Resources Managed
                                        by Catholic AIDS Action Under
                                        Cooperative Agreement No. 674-A-
                                        00-10-00121-00 and Closeout Audits
  4-673-14-050-R           3/18/14
                                        of Grant Agreement No. 674-G-00-
                                        11-00065-00 and Subagreement No.
                                        P3125-SG-006 for the Year Ended
                                        February 29, 2012
                                        Financial Audit of the Program
                                        "Strengthening Southeast Asian Media
                                        Partnerships to Promote Human
                                        Rights and Good Governance,"
                                        USAID/Indonesia Cooperative
                                        Agreement No. AID-497-A-11-00009,
  5-497-14-001-R          10/10/13
                                        Managed by Perhimpunan
                                        Pengembangan Media Nusantara
                                        (PPMN/Indonesian Association
                                        for Media Development), for the
                                        Period From January 1, 2012, to
                                        December 31, 2012
                                        Closeout Financial Audit of the
                                        Cross-Border Vocational Education in
                                        Badakhshan (CVEB) Program, USAID/
                                        Central Asian Republics Cooperative
  5-119-14-002-R          10/16/13
                                        Agreement No. 119-A-00-09-00024,
                                        Managed by the University of Central
                                        Asia (UCA), for the Period From
                                        October 1, 2009, to March 29, 2013
                                        Financial Audit of USAID Funds
                                        Managed by the Asian Disaster
  5-493-14-003-R          10/17/13
                                        Preparedness Center (ADPC), for the
                                        Year Ended December 31, 2012



9 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                            Financial Audit of the High Five
                            Kelurahan Program (High Five),
                            USAID/Indonesia Cooperative
                            Agreement No. AID-497-A-11-00006,
5-497-14-004-R   10/22/13
                            Managed by the Cipta Cara Padu
                            Indonesia (CCP-I) Foundation, for
                            the Period From April 14, 2011, to
                            December 31, 2012
                            Financial Audit of USAID
                            Funds Managed by the Kenan                 53               QC
5-493-14-005-R   10/30/13
                            Foundation Asia for the Year Ended         19               UN
                            September 30, 2011
                            Financial Audit of the Project
                            "Literacy for Peace and Development
                            (LIPAD)," USAID/Philippines'
                            Cooperative Agreement No. 492-A-            4               QC
5-492-14-006-R   10/30/13
                            11-00001, Managed by the Magbassa           1               UN
                            Kita Foundation, Inc. (MKFI) for
                            the Period From January 1, 2012, to
                            December 31, 2012
                            Financial Audits of USAID Funds
                            Managed by the Kemitraan Bagi
                            Pembaruan Tata Pemerintahan
5-497-14-007-R   10/30/13
                            (KEMITRAAN), for the Period From
                            January 1, 2012, to December 31,
                            2012
                            Financial Audit of the Project
                            "Strengthening the Capacity
                            of Civil Society Organizations
                            (CSOs) in the Philippines," USAID/
5-492-14-008-R   11/25/13   Philippines' Contract No. AID-              1               QC
                            492-C-11-00004, Administered by the
                            Ayala Foundation, Inc. (AFI), for the
                            Period From September 28, 2011, to
                            December 31, 2012




                                                       USAID OIG Semiannual Report to the Congress 97
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Financial Audit of the Together for
                                         Good Health (ToGoH) Project,
                                         Cooperative Agreement No. 442-
                                                                                   20             QC
  5-442-14-009-R           11/27/13      A-00-08-00007-00, Managed by the
                                                                                   19             UN
                                         Reproductive Health Association
                                         of Cambodia (RHAC), for the Year
                                         Ended December 31, 2012
                                         Financial Audit of USAID Resources
                                         Managed by the Khmer HIV/AIDS
  5-442-14-010-R           12/10/13
                                         NGO Alliance (KHANA) for the Year
                                         Ended December 31, 2012
                                         Financial Audit of "Support to
                                         Documentation Center of Cambodia",
                                         USAID Cooperative Agreement
  5-442-14-011-R            1/16/14      No. 486-A-00-04-00012-00, for
                                         the Year Ended December 31, 2012;
                                         Managed by Documentation Center
                                         of Cambodia (DC-Cam)
                                         Financial Audit of Maternal and Child
                                         Health Program, USAID Cooperative
                                         Agreement No. 442-A-00-08-00008-
  5-442-14-012-R            1/24/14
                                         00, Managed by the Reproductive and
                                         Child Health Alliance (RACHA) for
                                         the Year Ended December 31, 2012
                                         Financial Audit of the Project
                                         "Investment Enabling Environment
                                         (INVEST)," USAID/Philippines
                                         Contract No. AID-492-C-11-00005,
  5-492-14-013-R            2/3/14       Managed by Orient Integrated
                                         Development Consultants, Inc.
                                         (OIDCI), for the Period From
                                         September 29, 2011, to December 31,
                                         2012




9 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings     Type of Findings
                 Report
                                                                      ($000)
                           Financial Audit of the Anti-Trafficking
                           in Persons Pan-Asian Campaign,
                           USAID/RDMA Cooperative
                           Agreement No. 486-A-00-06-00015-
5-493-14-014-R   2/3/14
                           00, Managed by the MTV EXIT
                           Foundation, for the Period From
                           January 1, 2012, to December 31,
                           2012
                           Financial Audit of USAID Resources
                           Managed by the Freeland Foundation
5-486-14-015-R   2/14/14
                           (Freeland) for the Year Ended
                           December 31, 2012
                           Closeout Audits of USAID Funds
                           Managed by the Yayasan Pusat Telaah
                                                                       29               QC
5-497-14-016-R   2/14/14   dan Informasi Regional (PATTIRO),
                                                                        5               UN
                           for Periods Ending December 31,
                           2012
                           Closeout Financial Audit of the
                           Linking Initiatives and Networking
                           to Control Tuberculosis (TB
                           LINC) Program, USAID/Philippines
                           Cooperative Agreement No.
5-492-14-017-R   2/28/14
                           492-A-00-06-00032, Managed by
                           the Philippine Business for Social
                           Progress, Inc. (PBSP), for the
                           Period From October 1, 2011, to
                           December 31, 2012
                           Closeout Financial Audit of the
                           Program "Building Disaster and
                           Climate Change Resilience in Padang
                           Pariaman Farming Communities,
                           West Sumatera," USAID/Indonesia
5-497-14-018-R   3/18/14   Cooperative Agreement No. AID-
                           497-A-10-00002, Managed by
                           Farmers' Initiatives for Ecological
                           Livelihood and Democracy (FIELD),
                           for the Period From January 1, 2012,
                           to March 29, 2013




                                                       USAID OIG Semiannual Report to the Congress 99
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                           Date of
  Report Number                                          Report Title           Findings   Type of Findings
                           Report
                                                                                 ($000)
                                         Financial Audit of the Master of
                                         Science Program in the Marine
                                         Protected Areas, USAID/Philippines
                                         Cooperative Agreement No. AID-
                                                                                   4             QC
  5-492-14-019-R           3/24/14       492-A-12-00001, Managed by the
                                                                                   4             UN
                                         Marine Environment and Resources
                                         Foundation, Inc. (MERF), for the
                                         Period From October 24,2011, to
                                         December 31, 2012
                                         Financial Audit of the Project
                                         "Reducing Threats to Philippine
                                         Biodiversity and Ecosystems thru
                                         Environmental Law Enforcement
                                         Capacity Strengthening,"                  5             QC
  5-492-14-020-R           3/25/14
                                         Cooperative Agreement No. AID-            2             UN
                                         492-A-12-00002, Managed by the
                                         Tanggol Kalikasan, Inc., for the
                                         Period From December 9, 2011, to
                                         December 31, 2012
                                         Close-out Audit of the Fund
                                         Accountability Statement of USAID
                                         Recourses Managed by the National
                                         Company for Agro-Industries
                                         "ZAYT," Cooperative Agreement
  6-294-14-001-N          10/28/13                                               1,344           QC
                                         Number CA241, Under Task Order
                                         Number AFP-I-01-03-00020-00
                                         With CARANA Corporation, for the
                                         Period From September 27, 2005, to
                                         June 15, 2008
                                         Close-out Examination of Al
                                         Tafawoq for Contracting and
                                         Investment Co. Compliance With
                                         Terms and Conditions of Fixed Price
                                         Subcontract Under Prime APCO/
  6-294-14-001-O          10/22/13       ArCon, Indefinite Quantity Contract
                                         Number 294-I-00-08-00221-00,
                                         Infrastructure Needs Program I,
                                         Task Order Number 51, for the
                                         Period From December 11, 2010, to
                                         October 31, 2011




10 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                  Amt. of
                 Date of
Report Number                           Report Title              Findings     Type of Findings
                 Report
                                                                   ($000)
                            Audit of the Fund Accountability
                            Statement of USAID Resources
                            Managed by Adam Institute
                            for Democracy and Peace,
                            Cooperative Agreement Number
6-294-14-001-R   10/24/13   AID-294-A-11-00009, the Return
                            of the Public Sphere: Reclaiming
                            Civil Society's Role in Conflict
                            Transformation Program, for the
                            Period From September 15, 2011, to
                            September 30, 2012
                            Audit of the Cost Representation
                            Statement of Arabtech Jardaneh,
                            Subcontract Under CH2MHILL
                            Contract Number 294-C-00-
6-294-14-002-N   11/25/13                                           257              QC
                            00-00063-00, Integrated Water
                            Resources Phase III, for the Period
                            From July 1, 2006, to September 30,
                            2007
                            Close-out Examination of Al Fakher
                            Company for Construction's
                            Compliance With Terms and
                            Conditions of Fixed Price
                            Subcontracts, Under Prime APCO/
6-294-14-002-O   10/24/13   ArCon Indefinite Quantity Contract
                            Number 294-I-00-08-00221-00,
                            Infrastructure Needs Program I,
                            Task Order Number 49, for the
                            Period From November 6, 2010, to
                            October 12, 2011




                                                   USAID OIG Semiannual Report to the Congress 101
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Financial Audit of Government
                                         of Egypt's Local Currency Special
                                         Accounts, USAID/Egypt Grant
                                         Agreement Number 263-647 Under
                                         Private Sector Commodity Import
                                         Program, and Grant Agreement
  6-263-14-003-N           11/27/13
                                         Numbers 263-640, 263-644, and 263-
                                         648 Under Cash Transfer Programs,
                                         for the Periods From July 1, 2006,
                                         to June 30, 2007, July 1, 2008, to
                                         June 30, 2009, and July 1, 2010, to
                                         June 30, 2011
                                         Close-out Examination of Al Sadek
                                         Construction and Contracting
                                         Company's Compliance With Terms
                                         and Conditions of Fixed Price
                                         Subcontract Under Prime APCO/
 6-294-14-003-O            10/29/13      ArCon, Indefinite Quantity Contract
                                         Number 294-I-00-08-00221-00,
                                         Infrastructure Needs Program I,
                                         Task Order Number 51, for the
                                         Period From November 27, 2010, to
                                         November 14, 2011
                                         Audit of the Fund Accountability
                                         Statement of Local Costs Incurred
                                         by Parents Circle - Families Forum,
                                         Cooperative Agreement Number               7             QC
  6-294-14-003-R           11/24/13
                                         294-A-00-10-00105-00, History              7             UN
                                         Through the Human Eye, for
                                         the Period From May 6, 2010, to
                                         September 30, 2011
                                         Close-out Examination of Birzeit
                                         Stone Sources Compliance With
                                         Terms and Conditions of Fixed Price
                                         Subcontracts Under Prime APCO/
                                         ArCon, Indefinite Quantity Contract
 6-294-14-004-O            10/29/13
                                         Number 294-I-00-08-00221-00,
                                         Infrastructure Needs Program I, Task
                                         Orders Number 49 and 51, for the
                                         Period From November 6, 2010, to
                                         October 13, 2011



10 2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings    Type of Findings
                 Report
                                                                      ($000)
                            Audit of the Fund Accountability
                            Statement of USAID Resources
                            Managed by Transparency
6-263-14-004-R   11/27/13   International e.V., Berlin, Germany,
                            Award Number 263-A-00-10-00076-
                            00, for the Period From January 1,
                            2012, to December 31, 2012
                            Close-out Examination of Al-
                            A'wa'el Co. for General Contracting
                            Compliance With Terms and
6-294-14-005-O   10/29/13
                            Conditions of its Subcontracts With
                            ARD and ANERA, for the Period
                            From May 19, 2009, to May 10, 2010
                            Close-out Examination of K
                            B L Company for General
                            Constructions' Compliance With
                            Terms and Conditions of Fixed Price
                            Subcontracts Number 1000070,
                            1000082, 1000086, 1000093,
6-294-14-006-O   12/11/13   1000094, 1000118, and 1000122,
                            Under Prime APCO/ArCon Indefinite
                            Quantity Contract Number 294-I-00-
                            08-00221-00, Infrastructure Needs
                            Program I, Task Order Number 49,
                            for the Period From April 14, 2011, to
                            October 25, 2011
                            Close-out Audit of the Fund
                            Accountability Statement of USAID
                            Resources Managed by Palestinian
                            Information and Communications
                            Technology Incubator, Subaward
                            Numbers EDIP-010, and EDIP-
6-294-14-006-R   12/8/13    013 Under Prime CARANA
                            Corporation, Task Order Number
                            EEM-I-03-07-00006-00, Enterprise
                            Development and Investment
                            Promotion Project, for the Period
                            From July 8, 2010, to October 15,
                            2011




                                                    USAID OIG Semiannual Report to the Congress 103
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                  Amt. of
                            Date of
  Report Number                                           Report Title            Findings   Type of Findings
                            Report
                                                                                   ($000)
                                          Close-out Audit of the Fund
                                          Accountability Statement of USAID
                                          Resources Managed by All for Peace
                                          Radio Station, Grant Number 294-
                                          G-00-09-00214-00, One Message to
 6-294-14-008-N             3/27/14       Two Societies-Broadcasting Messages
                                          of Peace-Building to Enact Conflict
                                          Mediation and Reconciliation by
                                          Empowering the Civil Society Sector,
                                          for the Period From July 1, 2010, to
                                          September 28, 2011
                                          Close-out Examination of Holy Family
                                          Hospital Compliance With Fixed
                                          Obligation Grant Number 294-F-00-
 6-294-14-008-O            12/23/13       12-00001, Holy Family Hospital of
                                          Bethlehem Medical Waste Sterilizer,
                                          for the Period From June 19, 2012, to
                                          December 18, 2012
                                          Close-out Financial Audit of USAID
                                          Resources Managed by the National
                                          Laboratory for Veterinary Quality
                                          Control of Poultry Production
                                          (NLQP), Avian Influenza Vaccine
                                          Efficacy Project, Ministry of             13             QC
  6-263-14-008-R             1/5/14
                                          Agriculture and Land Reclamation,         5              UN
                                          USAID/Egypt Project Number
                                          263-0287-Program Element A050.
                                          Implementation Letter Number two,
                                          for the Period From October 1, 2008,
                                          to September 30, 2010




10 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                    Amt. of
                 Date of
Report Number                           Report Title                Findings    Type of Findings
                 Report
                                                                     ($000)
                            Close-out Audit of the Cost
                            Representation Statement of
                            USAID Resources Managed by
                            Center for Engineering & Planning,
                            Subawards Number 24024-10-WB-
                            SA041, 24024-10-WB-SA002, and
6-294-14-009-R   1/21/14
                            24024-08-WB-SA001, Under Prime
                            CHF International, Cooperative
                            Agreement Number 294-A-00-07-
                            00213-00, Emergency Jobs Program,
                            for the Period From November 5,
                            2009, to January 31, 2011
                            Close-out Examination of Diyar
                            Consulting Co. Compliance With
                            Terms and Conditions of Fixed Price
                            Subcontracts Under MWH-Americas,
                            Indefinite Quantity Contract
6-294-14-011-O   01/29/14
                            Number 294-I-00-08-00202-00,
                            Infrastructure Needs Program I, Task
                            Order Numbers 1 and 2, for the
                            Period From November 4, 2010, to
                            September 30, 2011
                            Audit of the Fund Accountability
                            Statement of USAID Resources
                            Managed by Economic Cooperation
                            Foundation, Under Cooperative
6-294-14-011-R   1/23/14    Agreement Number 294-A-00-12-
                            00002, Jenin-Gilboa-Nablus-Haifa
                            Cooperation Zone Program, for the
                            Period From January 23, 2012, to
                            September 30, 2012
                            Close-out Examination of Farash
                            for General Contracting Company
                            Compliance With Terms and
                            Conditions of Subcontract Numbers
6-294-14-012-O    2/6/14    EO3-H-SW-99 and EO3-H-SW-106,
                            Under Prime ANERA, Cooperative
                            Agreement Number 294-A-
                            00-08-00219-00, for the Period
                            From June 20, 2011, to April 25, 2012




                                                   USAID OIG Semiannual Report to the Congress 105
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                           Date of
  Report Number                                          Report Title           Findings   Type of Findings
                           Report
                                                                                 ($000)
                                         Close-out Examination of MEDCO
                                         Contracting Co. Ltd. Compliance
                                         With Terms and Conditions of
                                         Subcontract Under Prime, The
                                         Morganti Group Inc., Indefinite
  6-294-14-013-O           2/11/14
                                         Quantity Contract Number 294-I-00-
                                         08-00216-00, Infrastructure Needs
                                         Program I, Task Order Number 29,
                                         For the Period From October 13,
                                         2010, to July 27, 2011
                                         Close-out Examination of Saqqa &
                                         Khoudary Co. Ltd. Compliance with
                                         Terms and Conditions of Subcontract
                                         Under Prime, The Morganti Group
                                         Inc., Indefinite Quantity Contract
  6-294-14-014-O           2/11/14
                                         Number 294-I-00-08-00216-00,
                                         Infrastructure Needs Program I, Task
                                         Order Number 45, For the Period
                                         From April 19, 2011, to October 3,
                                         2012
                                         Audit of USAID Resources
                                         Managed by Education and
                                         Society Enterprises-Mifalot,
                                         Cooperative Agreement Number
  6-294-14-014-R           1/28/14
                                         AID-294-A-00-12-00004, United
                                         Soccer for Peace Program, for the
                                         Period From February 24, 2012, to
                                         September 30, 2012
                                         Examination of Dimensions
                                         Healthcare Compliance With
                                         Terms and Conditions of Fixed
                                         Price Subcontract Number 294-
                                         C-00-08-00225-00-07 Under
  6-294-14-015-O           2/24/14       Prime Chemonics, Contract
                                         Number 294-C-00-08-00225-00,
                                         Palestinian Health Sector Reform
                                         and Development Project, for the
                                         Period From January 21, 2012, to
                                         December 31, 2012




10 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                  Amt. of
                 Date of
Report Number                          Report Title               Findings     Type of Findings
                 Report
                                                                   ($000)
                           Audit of the Fund Accountability
                           Statement of USAID Resources
                           Managed by Keshev, Award Number
6-294-14-015-R   1/29/14
                           294-A-00-10-00110-00, Press For
                           Peace Project, for the Period From
                           May 20, 2010, to September 30, 2011
                           Close-out Examination of Business
                           Excellence Services Company's
                           Compliance With Terms and
                           Conditions of Subcontract Number
                           FPC-EDIP-004-2011 Under Prime
6-294-14-016-O   2/25/14   CARANA Corporation, Task Order
                           Number EEM-I-03-07-00006-00,
                           Enterprise Development and
                           Investment Promotion Project, for
                           the Period From May 29, 2011, to
                           November 15, 2011
                           Audit of the Fund Accountability
                           Statement of USAID Resources
                           Managed by Eco-Peace, Friends of the
                           Earth Middle East, Promoting Water
                           Conservation and Environmental
6-294-14-018-R   2/17/14   Education in Jerusalem Good Water
                           Neighbors Program, Cooperative
                           Agreement Number 294-A-00-
                           10-00206-00, for the Period
                           From September 30, 2011, to
                           September 30, 2012
                           Audit of the Fund Accountability
                           Statement of USAID Resources
                           Managed by Givat Haviva, Under
                           Cooperative Agreement Number
6-294-14-019-R   2/18/14                                             2               QC
                           AID-294-A-11-00005, Communicating
                           Peace Project, for the Period
                           From September 15, 2011, to
                           September 30, 2012




                                                  USAID OIG Semiannual Report to the Congress 107
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                   Amt. of
                            Date of
  Report Number                                           Report Title             Findings   Type of Findings
                            Report
                                                                                    ($000)
                                          Close-out Audit of USAID Resources
                                          Managed by First Microfinance
                                          Foundation, Aswan and Qena
                                          Governorates Microfinance Program,
  6-263-14-023-R            3/27/14                                                  53             QC
                                          Cooperative Agreement Number
                                          263-A-00-08-00054-00, for the
                                          Period From September 7, 2008, to
                                          September 6, 2012
                                          Recipient-Contracted Audit of USAID
                                          Resources Managed by Network on
                                          Ethics/Human Rights, Law, HIV/AIDS
                                          Prevention, Support and Care (NELA)
  7-620-14-001-R           10/31/13       Under the NELA Consortium AIDS
                                          Initiatives in Nigeria (NECAIN)
                                          (Cooperative Agreement No. 620-
                                          A-00-07-00211-00) for the Period
                                          January 1 to December 31, 2011
                                          Recipient-Contracted Audit of
                                          USAID Resources Managed by
                                          Society for Family Health Under the
                                          Expanded Social Marketing Project
                                          in Nigeria (Agreement No. 620-A-
                                          11-0001) for the Period January 1,
  7-620-14-002-R           11/29/13                                                   4             QC
                                          2012, to December 31,2012 and
                                          the Strengthening HIV Prevention
                                          Services for Most-at-Risk Populations
                                          Program (Agreement No. 620-A-12-
                                          00002) for the Period May 23, 2012,
                                          to December 31, 2012
                                          Recipient-contracted audit of USAID
                                          resources managed by the Gembu
                                          Centre for HIV/AIDS Advocacy
                                          Nigeria (GECHMN) under the New
  7-620-14-003-R           12/31/13
                                          Tomorrows Project (Cooperative
                                          Agreement No. 620-A-00-08-00076-
                                          00) for the Period January 1, 2012, to
                                          December 31, 2012




10 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings    Type of Findings
                 Report
                                                                      ($000)
                            Recipient-Contracted Audit
                            of USAID Resources Managed
                            by the Association Tissilte for
                            Development for the Sewerage and
7-608-14-004-R   1/30/14    Wastewater Reuse in Tidili Area
                            Project (Cooperative Agreement
                            No.608-A-11-00003) for the Period
                            From March 2011 Through December
                            2012
                            Closeout Audit of USAID Resources
                            Managed by Pro-Health Intemational
                            (PHI) Under the HIV/AIDS Reduction
                                                                       43              QC
7-620-14-005-R   2/27/14    Program in the Niger Delta (CA
                                                                       11              UN
                            No. 620-A-00-08-00132-00) for
                            the Period from January 1, 2011, to
                            May 31, 2012
                            Financial Audit of the USAID
                            Resources Managed by United States
                                                                       121             QC
G-391-14-001-R   10/2/13    Educational Foundation in Pakistan,
                                                                       121             UN
                            for the Period From October 1, 2008,
                            to September 30, 2012
                            Financial Audit of the Program Titled:
                            "Disbursement Service for Tubewell
                            Efficiency Improvement Program,"
G-391-14-004-R   10/25/13   USAID/Pakistan Agreement no.
                            391-A-00-11-01230-00, Managed by
                            Khushhali Bank Limited, for the Year
                            Ended December 31, 2012
                                        U.S.-Based Contractors
                            Carana Corporation Report on
3-000-14-001-D   10/2/13    Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2006
                            Democracy International, Inc. Report
                                                                       13              QC
3-000-14-001-I   10/2/13    on Incurred Costs for Fiscal Year (FY)
                                                                       13              UN
                            Ended December 31, 2010
                            Louis Berger Group, Inc. (LBGI)
                            Report on Audit of Cost Accounting
3-000-14-002-D   10/2/13    Standards (CAS) Disclosure
                            Statement Revision 1 and Revision 2,
                            Effective July 1, 2008



                                                    USAID OIG Semiannual Report to the Congress 109
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                  Amt. of
                           Date of
  Report Number                                          Report Title             Findings   Type of Findings
                           Report
                                                                                   ($000)
                                         Democracy International, Inc. Report
  3-000-14-002-I           10/4/13       on Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2011
                                         Casals & Associates, Inc. Report on
                                                                                    149            QC
 3-000-14-003-D            10/2/13       Incurred Costs for Fiscal Year (FY)
                                                                                    149            UN
                                         Ended December 31, 2004
                                         Pillar Systems Corporation Report on
  3-000-14-003-I           10/3/13       Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2008
                                         Parsons Infrastructure & Technology
                                         Group, Inc., Parsons Project Services,
                                         Inc., and Parsons Group International,     942            QC
 3-000-14-004-D            10/9/13
                                         Ltd., Report on Incurred Costs for         28             UN
                                         Fiscal Year (FY) Ended December 28,
                                         2007
                                         Pillar Systems Corporation Report on
  3-000-14-004-I           10/3/13       Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2009
                                         Black & Veatch Special Projects
                                         Corporation Report on Incurred
 3-000-14-005-D            10/17/13                                                 81             QC
                                         Cost for Fiscal Year (FY) Ended
                                         December 31, 2008
                                         Pillar Systems Corporation Report on
  3-000-14-005-I           10/3/13       Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2010
                                         Camp Dresser & McKee, Inc. Report
 3-000-14-006-D           10/23/13       on Corporate Incurred Costs for
                                         Fiscal Year (FY) 2006
                                         Pillar Systems Corporation Report on
  3-000-14-006-I           10/4/13       Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2011
                                         Louis Berger Group, Inc. (LBGI)
                                         Report on Audit of Cost Accounting
                                         Standards Disclosure Statements
 3-000-14-007-D            11/4/13
                                         Revision 2, Effective July 1,2009, and
                                         Revisions 3 and 4, Both Effective
                                         July 1, 2012




110	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings   Type of Findings
                 Report
                                                                      ($000)
                            Review of Ecodit, Inc. Report on
                            Incurred Costs for Fiscal Years (FY)
3-000-14-007-I   10/10/13
                            Ended September 30, 2006, and
                            December 31, 2006
                            Louis Berger Group, Inc. - Nation
                            Building Segment (LBGI-NB) Report
                            on Audit of Cost Accounting
3-000-14-008-D   11/6/13
                            Standards Disclosure Statement
                            Revisions 1 and 2, Effective
                            July 1, 2008
                            Desk Review of Ecodit, Inc. Report
3-000-14-008-I   10/15/13   on Incurred Costs for Fiscal Year (FY)     61             QC
                            Ended December 31, 2007
                            CH2M HILL Group Management,
                            Inc. Report on Incurred Cost
3-000-14-009-D   11/21/13   Intermediate Home Office Allocation
                            Contractor for Fiscal Year (FY) Ended
                            December 31, 2007
                            Desk Review of Ecodit, Inc. Report
3-000-14-009-I   10/15/13   on Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2008
                            CDM Constructors, Inc. Report on
3-000-14-010-D   11/20/13   Incurred Costs for Fiscal Year (FY)
                            2006
                            Desk Review of Ecodit, Inc. Report
3-000-14-010-I   10/15/13   on Incurred Costs for Fiscal Year (FY)     16             QC
                            Ended December 31, 2009
                            Land O'Lakes International
                            Development Division Report on
3-000-14-011-D   12/2/13    Incurred Cost for Fiscal Years (FYs)       38             QC
                            Ended December 31, 2006, and
                            December 31, 2007
                            Desk Review of Ecodit, Inc. Report
3-000-14-011-I   10/15/13   on Incurred Costs for Fiscal Year (FY)     54             QC
                            Ended December 31, 2010
                            John Snow, Inc. (JSI) Report on Audit
3-000-14-012-D   1/16/14    of Incurred Costs for Fiscal Years
                            (FY) 2005 and 2006




                                                    USAID OIG Semiannual Report to the Congress 111
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                           Date of
  Report Number                                          Report Title           Findings   Type of Findings
                           Report
                                                                                 ($000)
                                         CORE International, Inc. Report on
                                                                                  101            QC
  3-000-14-012-I          10/25/13       Incurred Costs for Fiscal Year (FY)
                                                                                  101            UN
                                         Ended December 31, 1998
                                         Bechtel National, Inc. (BNI) Report
  3-000-14-013-D            2/3/14       on Audit of Incurred Costs for the
                                         Year Ended December 31, 2006
                                         Desk Review of CORE International,
                                                                                  231            QC
  3-000-14-013-I          10/25/13       Inc. Incurred Cost for Fiscal Year
                                                                                  231            UN
                                         Ended December 31, 1999
                                         Development Alternatives, Inc.
                                         (DAI) Report on Audit of Incurred        57             QC
  3-000-14-014-D           2/19/14
                                         Costs for Fiscal Year (FY) Ended         57             UN
                                         November 30, 2000
                                         CORE International, Inc. Report on
                                                                                  270            QC
  3-000-14-014-I          10/25/13       Incurred Costs for Fiscal Year (FY)
                                                                                  270            UN
                                         Ended December 31, 2000
                                         Development Alternatives, Inc.
                                         (DAI) Report on Audit of Incurred        33             QC
  3-000-14-015-D           3/19/14
                                         Costs for Fiscal Year (FY) Ended         33             UN
                                         November 30, 2001
                                         CORE International, Inc. Report on
                                                                                 1,099           QC
  3-000-14-015-I          10/25/13       Incurred Costs for Fiscal Year (FY)
                                                                                 1,099           UN
                                         Ended December 31, 2001
                                         CH2M HILL International Services,
                                         Inc. Report on Audit of Incurred         339            QC
  3-000-14-016-D           3/25/14
                                         Costs for Fiscal Year (FY) Ended         251            UN
                                         December 31, 2007
                                         CORE International, Inc. Report on
                                                                                 1,842           QC
  3-000-14-016-I          10/25/13       Incurred Costs for Fiscal Year (FY)
                                                                                 1,842           UN
                                         Ended December 31, 2002
                                         Camp Dresser & McKee, Inc. (CDM)
                                         Report on Audit of Corporate
  3-000-14-017-D           3/25/14
                                         Incurred Costs for the Year Ended
                                         December 29, 2007
                                         CORE International, Inc. Report on
                                                                                 2,268           QC
  3-000-14-017-I          10/28/13       Incurred Costs for Fiscal Year (FY)
                                                                                 2,268           UN
                                         Ended December 31, 2003




112 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                  Amt. of
                 Date of
Report Number                           Report Title              Findings     Type of Findings
                 Report
                                                                   ($000)
                            CORE International, Inc. Report on
                                                                    49               QC
3-000-14-018-I   10/30/13   Incurred Costs for Fiscal Year (FY)
                                                                    49               UN
                            Ended December 31, 2004
                            CORE International, Inc. Report on
                                                                     5               QC
3-000-14-019-I   10/30/13   Incurred Costs for Fiscal Year (FY)
                                                                     5               UN
                            Ended December 31, 2005
                            CORE International, Inc. Report on
                                                                    664              QC
3-000-14-020-I   10/30/13   Incurred Costs for Fiscal Year (FY)
                                                                    664              UN
                            Ended December 31, 2006
                            CORE International, Inc. Report on
                                                                     2               QC
3-000-14-021-I   11/4/13    Incurred Costs for Fiscal Year (FY)
                                                                     2               UN
                            Ended December 31, 2007
                            CORE International, Inc. Report on
                                                                    71               QC
3-000-14-022-I   11/4/13    Incurred Costs for Fiscal Year (FY)
                                                                    71               UN
                            Ended December 31, 2008
                            CORE International, Inc. Report on
                                                                    155              QC
3-000-14-023-I   11/4/13    Incurred Costs for Fiscal Year (FY)
                                                                    155              UN
                            Ended December 31, 2009
                            CORE International, Inc. Report on
                                                                    30               QC
3-000-14-024-I   11/4/13    Incurred Costs for Fiscal Year (FY)
                                                                    30               UN
                            Ended December 31, 2010
                            DPW Training & Associates, LLC
3-000-14-025-I   11/5/13    Report on Incurred Costs for Fiscal      3               QC
                            Year (FY) Ended December 31, 2007
                            DPW Training & Associates, LLC
3-000-14-026-I   11/6/13    Report on Incurred Costs for Fiscal     26               QC
                            Year (FY) Ended December 31, 2008
                            DPW Training & Associates, LLC
                                                                    114              QC
3-000-14-027-I   11/8/13    Report on Incurred Costs for Fiscal
                                                                    66               UN
                            Year (FY) Ended December 31, 2009
                            DPW Training & Associates, LLC
3-000-14-028-I   11/12/13   Report on Incurred Costs for Fiscal     77               QC
                            Year (FY) Ended December 31, 2010
                            Synergy Strategies Group, LLC
3-000-14-029-I   1/16/14    Report on Incurred Costs for Fiscal
                            Year (FY) Ended December 31, 2008
                            Synergy Strategies Group, LLC
3-000-14-030-I   1/16/14    Report on Incurred Costs for Fiscal
                            Year (FY) Ended December 31, 2009



                                                   USAID OIG Semiannual Report to the Congress 113
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                  Amt. of
                           Date of
  Report Number                                          Report Title             Findings   Type of Findings
                           Report
                                                                                   ($000)
                                         SSG-Advisors, LLC Report on
  3-000-14-031-I           1/24/14       Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2010
                                         SSG-Advisors, LLC Report on
  3-000-14-032-I           1/27/14       Incurred Costs for Fiscal Year (FY)
                                         Ended December 31, 2011
                                         International Business Initiatives
                                         Corporation Report on Incurred
  3-000-14-033-I           3/10/14                                                  44             QC
                                         Costs for Fiscal Year (FY) Ended
                                         December 31, 2007
                                         International Business Initiatives
                                         Corporation Report on Incurred
  3-000-14-034-I           3/21/14
                                         Costs for Fiscal Year (FY) Ended
                                         December 31, 2008
                                         Social Impact, Inc. Report on Incurred
  3-000-14-037-I           3/21/14       Costs for Fiscal Year (FY) Ended
                                         December 31, 2003
                                         Social Impact, Inc. Report on Incurred
  3-000-14-038-I           3/25/14       Costs for Fiscal Year (FY) Ended           19             QC
                                         December 31, 2004
                                         Social Impact, Inc. Report on Incurred
                                                                                    21             QC
  3-000-14-039-I           3/25/14       Costs for Fiscal Year (FY) Ended
                                                                                    16             UN
                                         December 31, 2005
                                         Social Impact, Inc. Report on Incurred
  3-000-14-040-I           3/26/14       Costs for Fiscal Year (FY) Ended
                                         December 31, 2006
                                         Independent Audit of The Louis
                                         Berger Group Inc. (LBGI), Direct
  6-267-14-001-D          10/28/13       Costs Billed Under INMA Contract          1,221           QC
                                         No. 267-C-00-07-00500-00 for FY
                                         2008 Through FY 2010
                                         Independent Audit of Incurred and
                                         Billed Costs of the QED Group,
                                         LLC, Purchase Order Number 267-
  6-267-14-002-D           1/27/14
                                         M-00-09-00513 (Perform), for the
                                         Period From October 1, 2011, to
                                         November 6, 2012




114	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                  Amt. of
                 Date of
Report Number                           Report Title              Findings     Type of Findings
                 Report
                                                                   ($000)
                            Audit of Locally Incurred Costs
                            by Louis Berger Group, Inc.,
                            Contract Number 294-C-00-05-
6-294-14-004-N   12/8/13    00233-00, Evaluation of Alternative     23               QC
                            Configuration Program, for the
                            Period From March 1, 2006, to
                            October 26, 2010
                            Audit of the Cost Representation
                            Statement of USAID Resources
                            Managed by ARD, Inc., Contract
                                                                    361              QC
6-267-14-006-N   3/10/14    Number 267-C-00-10-00006-00,
                                                                    164              UN
                            Access to Justice Program, for
                            the Period October 1, 2010, to
                            September 30, 2011
                            Close-out Audit of Locally Costs
                            Incurred by AECOM International
                            Development, Inc., Subcontract
                            Number GG477A-2007-001,
                            Under Prime Louis Berger
6-294-14-007-N   3/27/14
                            Group, Inc., Task Order Number
                            GEG-I-01-04-00003-00, Modernizing
                            Financial Institutions Program, for
                            the Period From July 1, 2009, to
                            September 29, 2011
                            Examination of American Science
                            and Engineering Inc.'s Compliance
                            With Terms and Conditions of
                            Fixed Price Subcontract Number
                            GP0602 Under Prime Chemonics,
6-294-14-007-O   12/19/13
                            Palestinian Integrated Trade
                            Arrangement, Contract Number
                            PCE-I-00-98-00015-00, for the
                            Period From December 9, 2008, to
                            September 30, 2009




                                                   USAID OIG Semiannual Report to the Congress 115
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                Amt. of
                           Date of
  Report Number                                         Report Title            Findings   Type of Findings
                           Report
                                                                                 ($000)
                                        Close-out Audit of the Cost
                                        Representation Statement of Local
                                        Costs Incurred by Chemonics
                                        International Inc., Under Task Order
  6-294-14-007-R          12/26/13      Number PCE-I-22-98-00015-00,
                                        Palestinian Integrated Trade
                                        Arrangement, for the Period From
                                        October 1, 2011, to September 28,
                                        2012
                                        Close-out Audit of Local Costs
                                        Incurred by Louis Berger Group
                                        Inc. Under Contract Number
                                        294-GEG-I-00-04-00003-00, Task
 6-294-14-009-N            3/30/14                                                46             QC
                                        Order Number 1, Modernizing
                                        Financial Institutions Program, for
                                        the Period From October 1, 2010, to
                                        September 29, 2011
                                        Close-out Examination of APCO/
                                        ArCon's Compliance With Terms
                                        and Conditions of USAID Indefinite
                                        Quantity Contract Number 294-I-00-
 6-294-14-009-O             1/5/14
                                        08-00221-00, Infrastructure Needs
                                        Program I, Task Order Number 51,
                                        for the Period From November 4,
                                        2010, to October 4, 2011
                                        Close-out Examination of Morganti
                                        Group, Inc. Compliance With Terms
                                        and Conditions of Indefinite Quantity
                                        Contract Number 294-I-00-08-
  6-294-14-010-O           1/21/14
                                        00216-00, Task Order Number 45,
                                        Infrastructure Needs Program I, for
                                        the Period From April 12, 2011, to
                                        July 5, 2012




116	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                   Amt. of
                 Date of
Report Number                           Report Title               Findings     Type of Findings
                 Report
                                                                    ($000)
                            Close-out Audit of the Cost
                            Representation Statement of USAID
                            Resources Managed by Training
                            Resources Group, Inc., Subcontract
                            Number 294-C-00-08-00225-00-
6-294-14-020-R   2/19/14
                            TRG, Under Prime Chemonics,
                            Contract Number 294-C-00-08-
                            00225-00, Flagship Project, for the
                            Period From October 1, 2009, to
                            September 30, 2011
                            Close-out Audit of Local Costs
                            Incurred by Chemonics International
                            Inc., Task Order Number
6-294-14-022-R   3/18/14    EEM-I-04-07-00008-00, Trade
                            Facilitation Project, for the Period
                            From October 1, 2012, to August 30,
                            2013
                            Financial Audit of USAID Resources
                            Managed by Aircraft Charter
                            Solutions, Inc. Under Contract          9,391             QC
F-306-14-001-N   10/13/13
                            No. 306-C-00-10-00510-00 for            7,778             UN
                            the Period January 5, 2010, to
                            December 31, 2011
                            Close-out Audit of Costs Incurred
                            by Tetra Tech for the Kabul
                            Electricity Service Improvement
                                                                     557              QC
F-306-14-002-N   11/27/13   Program (KESIP) under Contract
                                                                     556              UN
                            No. 306-EPP-I-06-03-00008-00 for
                            the Period May 5, 2009, Through
                            March 31, 2012
                            Audit of Local Costs Incurred in
                            Afghanistan by Management Systems
                            International Under the Afghanistan
F-306-14-003-N   12/31/13   Anti-Corruption Authority Project,       313              QC
                            Contract No. 306-OFD 1-06-08-
                            00072-00 for the Period October 1,
                            2010, to June 30, 2012




                                                    USAID OIG Semiannual Report to the Congress 117
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Audit of Local Costs Incurred in
                                         Afghanistan by ARD, Inc. under Kabul
                                         City Initiative (KCl) Project, Task
 F-306-14-004-N            1/29/14       Order (TO) EPP-I-05-04-00035-00
                                         under IQC EPP-I-00-04-00035-00
                                         for the Period of October 1, 2010, to
                                         September 30, 2012
                                         Audit of Costs Incurred in
                                         Afghanistan by Development
                                         Alternatives Inc. Under The
                                         Incentives Driving Economic
                                                                                  2,730           QC
 F-306-14-005-N            2/11/14       Alternatives for the North, East
                                                                                  2,727           UN
                                         and West, Cooperative Agreement
                                         No. 306-A-00-09-00508-00,
                                         for the Period March 2, 2009, to
                                         December 31, 2012
                                         Audit of the Costs Incurred In
                                         Afghanistan by Tetra Tech EM, Inc.
                                         Under the Afghanistan Engineering
                                                                                  6,764           QC
 F-306-14-006-N            2/24/14       Support Program, Award No.
                                                                                  6,764           UN
                                         EDH-I-00-08-00027-00 for the
                                         Period of November 9, 2009, to
                                         September 30, 2012
                                         Close-Out Audit of the Costs
                                         Incurred by Citizen Network For
                                         Foreign Affairs (CNFA) Under Award
                                         Number 306-A-00-08-00517, for the
                                                                                   30             QC
  F-306-14-007-N           2/27/14       Afghanistan Farm Services Alliance
                                                                                   30             UN
                                         (AFSA) for the Period From March
                                         2, 2008, to December 31, 2009, and
                                         From January 1, 2012, to June 15,
                                         2012
                                         Close-Out Audit of Costs Incurred by
                                         Deloitte Consulting LLP to Implement
                                         the Afghanistan Economic Growth
                                                                                    1             QC
 F-306-14-009-N            3/31/14       and Governance Initiative (EGGI)
                                                                                    1             UN
                                         Project 306-EEM-1-04-07-00005
                                         for the Period October 1, 2010, to
                                         August 31, 2013




118 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                     Amt. of
                 Date of
Report Number                           Report Title                 Findings   Type of Findings
                 Report
                                                                      ($000)
                                         U.S.-Based Grantees
                            Southern Africa Enterprise
                            Development Fund (SAEDF), OMB
3-000-14-001-E   12/4/13                                              2,769           QC
                            Circular A-133 Audit Report for Fiscal
                            Year (FY) Ended September 30, 2012
                            Population Services International
3-000-14-001-L   3/10/14    Limited Scope Review for Fiscal Years
                            2010 and 2011
                            Review of Research Triangle Institute
                            (RTI), OMB Circular A-133 Audit
3-000-14-001-T   11/7/13
                            Report for Fiscal Year Ended
                            September 30, 2012
                            National Albanian American Council,
                            OMB Circular A-133 Audit Report for        34             QC
3-000-14-002-T   12/2/13
                            Fiscal Year (FY) Ended December 31,        34             UN
                            2012
                            Program for Appropriate Technology
                            in Health (PATH), OMB Circular             312            QC
3-000-14-003-T   12/2/13
                            A-133 Audit Report for Fiscal Year         274            UN
                            (FY) Ended December 31, 2012
                            Desk Review of Childfund
                            International USA, OMB Circular
3-000-14-004-T   12/2/13
                            A-133 Audit Report for Fiscal Year
                            Ended June 30, 2011
                            Desk Review of National Association
                            of Regulatory Utility Commissioners
3-000-14-005-T   12/4/13
                            OMB Circular A-133 Audit Report for
                            Fiscal Year Ended June 30, 2012
                            The Jane Goodall Institute for
                            Wildlife Research, Education &
3-000-14-006-T   12/11/13   Conservation (TJGI), OMB Circular
                            A-133 Audit Report for Fiscal Year
                            (FY) Ended December 31, 2010
                            International Relief and Development
                            Holdings, Inc. and Affiliates OMB
3-000-14-007-T   12/12/13
                            Circular A-133 Audit Report for Fiscal
                            Year (FY) Ended December 31, 2012




                                                    USAID OIG Semiannual Report to the Congress 119
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Save the Children Federation, Inc.
                                         OMB Circular A-133 Audit Report
  3-000-14-008-T            1/6/14
                                         for Fiscal Years Ended September 30,
                                         2008, and December 31, 2008
                                         The Jane Goodall Institute for
                                         Wildlife Research, Education and
  3-000-14-009-T           12/17/13      Conservation (TJGI) OMB Circular
                                         A-133 Audit Report for Fiscal Year
                                         Ended December 31, 2011
                                         Africare OMB Circular A-133 Audit
  3-000-14-010-T           12/18/13      Report for Fiscal Year Ended June 30,
                                         2011
                                         Adventist Development And Relief
                                         Agency International (ADRA), OMB          11             QC
  3-000-14-011-T            1/6/14
                                         Circular A-133 Audit Report for the        4             UN
                                         Year Ended December 31, 2012
                                         World Vision International And
                                         World Vision, Inc. (U.S.A.) (WV),
  3-000-14-012-T            1/6/14
                                         OMB Circular A-133 Audit Report for
                                         Fiscal Year Ended September 30, 2012
                                         Family Health International
                                         Development 360 OMB Circular
  3-000-14-013-T            1/6/14
                                         A-133 Audit Report for Fiscal Year
                                         Ended September 30, 2012
                                         Population Services International,
                                         OMB Circular A-133 Audit Report for
  3-000-14-014-T            1/7/14
                                         Fiscal Year (FY) Ended December 31,
                                         2012
                                         American University of Beirut, OMB
                                         Circular A-133 Audit Report for the
  3-000-14-015-T            1/14/14                                                50             QC
                                         Nine Month Period Ended June 30,
                                         2011
                                         American Community School at
                                         Beirut (ACSB), OMB Circular A-133
  3-000-14-016-T           1/22/14                                                 10             QC
                                         Audit Report for Fiscal Year Ended
                                         June 30, 2011




12 0 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                   Amt. of
                 Date of
Report Number                           Report Title               Findings    Type of Findings
                 Report
                                                                    ($000)
                            American Community School at
                            Beirut (ACSB), OMB Circular A-133
3-000-14-017-T   1/24/14                                             112             QC
                            Audit Report for the Year Ended
                            June 30, 2012
                            Pacific Institute for Studies in
                            Development, Environment, and
3-000-14-018-T    2/3/14    Security (PISDES), OMB Circular          21              QC
                            A-133 Audit Report for the Year
                            Ended December 31, 2012
                            Desk Review of Grassroot Soccer,
                            Inc., OMB Circular A-133 Audit
3-000-14-019-T   1/31/14
                            Report for Year Ended December 31,
                            2012
                            Food for the Hungry, Inc. & Food for
                            the Hungry Foundation, Inc. (FH),
                                                                      1              QC
3-000-14-020-T    2/6/14    OMB Circular A-133 Audit Report for
                                                                      1              UN
                            the Fiscal Year Ended September 30,
                            2010
                            Samaritan's Purse, OMS Circular
                                                                    1,508            QC
3-000-14-021-T   2/12/14    A-133 Audit Report for the Fiscal
                                                                    1,508            UN
                            Year Ended December 31, 2010
                            Desk Review of the OMB Circular
                            A-133 Audit Report for Food for
3-000-14-022-T    3/3/14
                            the Hungry, Inc. for the Year Ended
                            September 30, 2011
                            Search for Common Ground, OMB
                                                                     33              QC
3-000-14-023-T    3/6/14    Circular A-133 Audit Report for the
                                                                     33              UN
                            Fiscal Year Ended December 31, 2010
                            American University of Beirut (AUB),
3-000-14-024-T   3/20/14    OMB Circular A-133 Audit Report for      38              QC
                            the Year Ended September 30, 2008
                            Audit of the Fund Accountability
                            Statement of Locally Incurred Costs
                            by Peace Players International,
                            Cooperative Agreement Number
6-294-14-002-R   10/29/13
                            294-A-00-10-00113-00, Twinned
                            Basketball Clubs Project, for
                            the Period From July 1, 2010, to
                            September 30, 2011




                                                   USAID OIG Semiannual Report to the Congress 121
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

                                                                                 Amt. of
                           Date of
  Report Number                                          Report Title            Findings   Type of Findings
                           Report
                                                                                  ($000)
                                         Audit of the Fund Accountability
                                         Statement of Local Costs Incurred
                                         by CHF International, Cooperative
                                         Agreement Number 267-A-00-                389            QC
  6-267-14-005-N            2/19/14
                                         08-00503-00, Community Action             389            UN
                                         Program III, for the Period From
                                         October 1, 2010, to September 30,
                                         2011
                                         Close-out Audit of the Fund
                                         Accountability Statement of Locally
                                         Incurred Costs by William Davidson
                                         Institute, Subaward Number
                                         EEM-A-00-06-00001-00 Under Prime
  6-294-14-005-R           11/27/13      FHI360, Cooperative Agreement
                                         Number 294-A-00-08-00222-00,
                                         Expanded and Sustained Access to
                                         Financial Services Program, for the
                                         Period From October 1, 2009, to
                                         August 31, 2011
                                         Audit of the Fund Accountability
                                         Statement of USAID Resources
                                         Managed by Near East Foundation,
                                         Cooperative Agreement Number
  6-294-14-010-R           1/22/14       AID-294-A-11-00010, Olive Oil
                                         Without Borders, Palestinian -
                                         Israeli Olive Oil Project, for the
                                         Period From September 16, 2011, to
                                         September 30, 2012
                                         Close-out Audit of the Fund
                                         Accountability Statement of Local
                                         Costs Incurred by Education
                                         Development Center Under
  6-294-14-012-R            1/27/14      Cooperative Agreement Number
                                         294-A-00-05-00241-00, Palestinian
                                         Youth Empowerment Program, for
                                         the Period From December 1, 2011,
                                         to September 30, 2012




12 2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

                                                                   Amt. of
                 Date of
Report Number                           Report Title               Findings     Type of Findings
                 Report
                                                                    ($000)
                           Audit of the Fund Accountability
                           Statement of Local Costs Incurred
                           by Education Development Center,
                           Under Cooperative Agreement
6-294-14-013-R   1/28/14
                           Number 294-A-00-05-00241-00,
                           Palestinian Youth Empowerment
                           Program, for the Period From July 1,
                           2010, to November 30, 2011
                           Audit of the Fund Accountability
                           Statement of USAID Resources
                           Managed by International Youth
                           Foundation, Under Award Number
6-294-14-016-R   2/3/14    294-A-00-10-00209-00, Youth
                           Entrepreneurship Development
                           Program, for the Period From
                           October 1, 2011, to September 30,
                           2012
                           Audit of the Fund Accountability
                           Statement of Local Costs Incurred
                           by American Near East Refugee
                           Aid (ANERA), Cooperative
6-294-14-017-R   2/6/14    Agreement Number 294-A-00-08-
                           00219-00, Emergency Water and
                           Sanitation Project (EWAS II), for the
                           Period From October 1, 2011, to
                           September 30, 2012
                           Audit of the Fund Accountability
                           Statement of USAID Resources
                           Managed by Catholic Relief Services,
                           Under Cooperative Agreement
6-294-14-021-R   2/24/14
                           Number 294-A-00-10-00208-00,
                           Civic Participation Program, for the
                           Period From October 1, 2011, to
                           September 30, 2012




                                                   USAID OIG Semiannual Report to the Congress 123
                                 Performance Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                       USAID
                           October 1, 2013–March 31, 2014

  Report Number           Date of Report                          Report Title            Amt. of Findings   Type of
                                                                                              ($000)         Findings
                                                       Economy and Efficiency
                                                Audit of USAID/Dominican Republic's
  1-517-14-001-P               10/7/13
                                                Effective Schools Program
                                                Audit of USAID/Guatemala's Multi-
  1-520-14-002-P              11/26/13
                                                Sector Alliances Program
                                                Audit of USAID/Jamaica's Basic
  1-532-14-003-P              12/23/13                                                          12             QC
                                                Education Project
                                                Audit of USAID/Colombia's
  1-514-14-004-P               1/16/14          Consolidation and Enhanced Livelihood
                                                Initiative-Central Region
                                                Audit of USAID/Haiti's Improved
  1-521-14-005-P                3/3/14
                                                Cooking Technology Program
                                                Audit of USAID/Peru's Alternative
  1-527-14-006-P               3/21/14
                                                Development Activities
                                                Audit of USAID/Kenya's Tuberculosis
  4-615-14-001-P              10/22/13
                                                Activities
                                                Audit of USAID's Food Security
  4-962-14-002-P                1/7/14                                                          87             QC
                                                Program in Madagascar
                                                Audit of USAID/Mozambique's Clinical
                                                HIV/AIDS Services Strengthening
  4-656-14-003-P               1/15/14
                                                Project in Sofala, Manica, and Tete
                                                Provinces
                                                Audit of USAID/Indonesia's Kinerja
  5-497-14-001-P               11/5/13
                                                Program
                                                Audit of USAID/Central Asian
  5-176-14-002-P               1/13/14          Republics' Family Farming Program for
                                                Tajikistan
                                                Audit of USAID/Yemen's Community
  6-279-14-001-P               10/7/13
                                                Livelihoods Project
                                                Audit of USAID/Iraq's Elections Support
  6-267-14-002-P               12/5/13
                                                Follow-on Project
                                                Audit of USAID/Jordan's Fiscal Reform
  6-278-14-003-P               12/11/13                                                        3,728           BU
                                                Project II
                                                Audit of USAID/Iraq's Administrative
  6-267-14-004-P              12/15/13
                                                Reform Project
                                                Audit of USAID/Jordan's Strengthening
  6-278-14-005-P               1/22/14
                                                Family Planning Project




12 4 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                Performance Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USAID
                          October 1, 2013–March 31, 2014

Report Number    Date of Report                Report Title                 Amt. of Findings   Type of
                                                                                ($000)         Findings
                                  Audit of USAID/Iraq's Broadening
6-267-14-006-P      2/12/14       Participation through Civil Society
                                  Project
                                  Audit of USAID/West Africa's Peace
7-625-14-001-P      3/28/14
                                  Through Development II Program
                                  Audit of USAID's Fiscal Year 2013
                                  Compliance With the Federal
A-000-14-001-P      10/15/13
                                  Information Security Management Act
                                  of 2002
                                  Audit of USAID/Afghanistan's
                                                                                16,308           QC
F-306-14-001-P      3/23/14       Management Controls Over Overtime
                                                                                16,283           UN
                                  Compensation
                                  Audit of USAID/Afghanistan's Financial
F-306-14-002-P      3/29/14       Access for Investing in the Development
                                  of Afghanistan Project
                                  Audit of USAID/Pakistan's Power
G-391-14-001-P      12/20/13                                                      110            QC
                                  Distribution Program
                                  Audit of USAID/Pakistan's Government-
G-391-14-002-P      12/20/13
                                  to-Government Assistance Program
                                  Audit of USAID/Pakistan's Sindh Basic
G-391-14-003-P      3/21/14                                                      9,600           BU
                                  Education Program




                                                    USAID OIG Semiannual Report to the Congress 125
                                 Miscellaneous Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                        USAID
                           October 1, 2013–March 31, 2014

  Report Number            Date of                                  Report Title                   Amt. of    Type of
                           Report                                                                  Findings   Findings
                                                                                                    ($000)
                                                 Quality Control Reviews (QCR)
                                         Quality Control Review of Urbano Ventocilla y
                                         Asociados, S.C. of Peru, Regarding the Close-out
                                         Audit of the Certified Expenditures Report of the
  1-527-14-001-Q          12/23/13       "Strengthening Institutions and Policies Project"
                                         Contract No. AID-527-C-08-00010 Modification No. 4,
                                         for the Period From January 1, 2012, to June 30, 2013,
                                         Managed by Consultandes S.A.
                                         Quality Control Review of Ramirez, Enriquez &
                                         Asociados of Peru, Regarding the Audit of the Fund
                                         Accountability Statement of Cooperative Agreement
  1-527-14-002-Q            1/8/14       No. 527-A-00-12-00002 "Digital Inclusion Program,"          27         QC
                                         Managed by the Information and Education Center for
                                         the Prevention of Drug Abuse (CEDRO), for the Period
                                         From February 29 to December 31, 2012
                                         Quality Control Review of the Controller General
                                         of the Republic of Peru, Regarding the Audit of the
                                         Strategic Objective Agreement No. 527-0423, Managed
  1-527-14-003-Q           1/10/14
                                         by the Comisión Nacional Para el Desarrollo y Vida Sin
                                         Drogas (DEVIDA) for the Period From January 1 to
                                         December 31, 2011
                                         Quality Control Review of Audit of USAID Resources
                                         Managed by Marie Stopes Uganda Under Cooperative
                                         Agreement No. AID 617-A-10-00004, Subagreement
  4-617-14-001-Q           11/18/13      Nos. 11 and 12 (Under Cooperative Agreement AID-
                                         617-A-00-06-00009-00) and Subcontract No. RFP01/2/
                                         MSU for the Period August 1, 2010, to December 31,
                                         2011
                                         Quality Control Review of the Audit of the Wildlife and
                                         Environment Society of South Africa (WESSA) Under            5         QC
  4-674-14-002-Q            1/6/14
                                         Cooperative Agreement 674-A-00-11-00015-00 for the           4         UN
                                         Period January 17, 2011, to March 31, 2012




12 6 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                Miscellaneous Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                       USAID
                          October 1, 2013–March 31, 2014

Report Number    Date of                        Report Title                       Amt. of    Type of
                 Report                                                            Findings   Findings
                                                                                    ($000)
                            Quality Control Review of the Audit of USAID
                            Resources Managed by Katatura Youth Enterprise
4-673-14-003-Q    3/3/14    Center Trust (KAYEC) Under Cooperative Agreement
                            Number 674-A-00-11-00034-00 for the Year Ended
                            December 31, 2011
                            Quality Control Review of Audit of USAID Resources
                            Managed by Catholic AIDS Action Under Cooperative
                            Agreement No. 674-A-00-10-00121-00 and Closeout          434        QC
4-673-14-004-Q   3/18/14
                            Audits of Grant Agreement No. 674-G-00-11-00065-         434        UN
                            00 and Subagreement No. P3125-SG-006 for the Year
                            Ended February 29, 2012
                                                Other
                            Agreed-Upon Procedures Review of USAID Resources
4-617-14-001-S   10/21/13   Managed by Inter-Religious Council of Uganda Under
                            Cooperative Agreement AID-617-A-10-00002
6-276-14-001-S   12/1/13    Survey of Selected USAID Syria-Related Activities
                            Review to Verify Whether Water Pipes and Fittings
                            Purchased by USAID/West Bank and Gaza for the
6-294-14-002-S   12/15/13                                                           2,668       BU
                            Palestinian Water Authority Were Used as Intended on
                            Approved Mission Projects
                            Review of USAID's New Counter-Trafficking in Persons
9-000-14-001-S   11/27/13
                            Program
                            Review of USAID/Afghanistan's Electoral Assistance
F-306-14-001-S    2/6/14
                            Program




                                                    USAID OIG Semiannual Report to the Congress 127
                               Reports With Questioned and Unsupported Costs
                                                   USAID
                                       October 1, 2013-March 31, 2014

                                                                 Number
                                                                                                                Unsupported Costs
                          Reports                                of Audit         Questioned Costs ($)
                                                                                                                      ($)1
                                                                 Reports

 A. For which no management decision had                                                            2,3                             2,3
                                                                     77                81,647,811                     68,618,031
    been made as of October 1, 2013

                                                                                                     4                              4
 B. Add: Reports issued
                                                                    132                60,291,577                     48,383,149
    October 1, 2013-March 31, 2014


 Subtotal                                                           209               141,939,388                    117,001,180

 C. Less: Reports with a management decision                              5                          6                                  6
                                                                    139               112,460,761                    100,563,338
    made October 1, 2013-March 31, 2014
       Value of costs disallowed by agency
                                                                                       39,849,333                     35,466,913
       officials

       Value of costs allowed by agency officials                                      72,611,428                     65,096,425

  D. For which no management decision had                                                            7                              7
                                                                     72                29,478,674                     16,437,842
     been made as of March 31, 2014
 1
   Unsupported costs, a subcategory of questioned costs, are reported separately as required by the Inspector General Act.
 2
   The ending balances on September 30, 2013, for questioned costs totaling $82,051,376 and for unsupported costs totaling $68,823,689
 were decreased by $403,565 for questioned costs and decreased by $205,838 for unsupported costs respectively, to reflect adjustments in
 recommendations from prior periods.
 3
   Amounts include $18,795,310 in questioned costs and $17,813,542 in unsupported costs for audits performed for OIG by other federal
 audit agencies.
 4
   Amounts include $2,860,365 in questioned costs and $516,779 in unsupported costs for audits performed for OIG by other federal audit
 agencies.
 5
   Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports counted here may be
 counted again in the figure below it because some reports have multiple recommendations and fall into both categories.
 6
   Amounts include $21,226,568 in questioned costs and $17,989,858 in unsupported costs for audits performed for OIG by other federal
 audit agencies.
 7
   Amounts reflect $429,107 in questioned costs and $340,463 in unsupported costs for audits performed for OIG by other federal audit
 agencies.




12 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
             Reports With Recommendations That Funds Be Put to Better Use
                                         USAID
                             October 1, 2013-March 31, 2014


                                                 Number of Audit
                   Reports                                                     Value ($)
                                                    Reports


A. For which no management decision had
                                                       0                           0
   been made as of October 1, 2013

B. Add: Reports issued
                                                       4                      70,995,662
   October 1, 2013-March 31, 2014


Subtotal                                               4                      70,995,662

C. Less: Reports with a management decision
                                                       4                      70,995,662
   made October 1, 2013-March 31, 2014

    Value of costs disallowed by agency
                                                                               67,577,670
    officials

    Value of costs allowed by agency officials                                 3,417,992

D. For which no management decision had
                                                       0                           0
   been made as of March 31, 2014




                                                       USAID OIG Semiannual Report to the Congress 129
                       Reports Over 6 Months Old With No Management Decision
                                                USAID
                                    October 1, 2013-March 31, 2014


     Report
                                   Auditee                         Issue Date                    Status
     Number

                                                                                 Recommendation 5: USAID/
                                                                                 Pakistan determine the allowability
                                                                                 of $1,359,337 in questioned costs
                                                                                 (unsupported) and recover those
                                                                                 costs determined to be unallowable.
                                                                                  The Office of Acquisition and
                                                                                 Assistance; the Office of Financial
                                                                                 Management; and Bureau for
                                                                                 Economic Growth, Education, and
  G-391-12-001-P      Pakistan                                        11/3/11    Environment will investigate the
                                                                                 unsupported questioned costs of
                                                                                 $1,359,337 and make a decision on
                                                                                 those costs. A management decision
                                                                                 on this recommendation will be
                                                                                 reached when USAID/Pakistan
                                                                                 determines whether the questioned
                                                                                 costs are allowed or disallowed; final
                                                                                 action will occur when any disallowed
                                                                                 amount is collected.
                                                                                 Recommendation 1: USAID/Haiti
                                                                                 requested supporting documentation
                                                                                 for all the questioned costs included
                      Haiti, Rural Justice Center                                in the audit report from Rural Justice.
  3-521-13-001-N                                                    9/16/2013
                      Field Office                                               As of March 31, 2014, Rural Justice
                                                                                 has not provided the requested
                                                                                 supporting documentation to USAID/
                                                                                 Haiti.
                                                                                 Recommendation 2: USAID/Haiti
                                                                                 requested supporting documentation
                                                                                 for all the questioned costs included
                      Haiti, Rural Justice Center                                in the audit report from Rural Justice.
  3-521-13-001-N                                                    9/16/2013
                      Field Office                                               As of March 31, 2014, Rural Justice
                                                                                 has not provided the requested
                                                                                 supporting documentation to USAID/
                                                                                 Haiti.




13 0 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                 Reports Over 6 Months Old With No Management Decision
                                          USAID
                              October 1, 2013-March 31, 2014


   Report
                           Auditee             Issue Date                     Status
   Number

                                                              Recommendation 3: USAID/Haiti
                                                              requested supporting documentation
                                                              for all the questioned costs included
                 Haiti, Rural Justice Center                  in the audit report from Rural Justice.
3-521-13-001-N                                 9/16/2013
                 Field Office                                 As of March 31, 2014, Rural Justice
                                                              has not provided the requested
                                                              supporting documentation to USAID/
                                                              Haiti.

                                                              Recommendation 4: USAID/Haiti
                                                              requested supporting documentation
                                                              for all the questioned costs included
                 Haiti, Rural Justice Center                  in the audit report from Rural Justice.
3-521-13-001-N                                 9/16/2013
                 Field Office                                 As of March 31, 2014, Rural Justice
                                                              has not provided the requested
                                                              supporting documentation to USAID/
                                                              Haiti.
                                                              Recommendation 5: USAID/Haiti
                                                              requested supporting documentation
                                                              for all the questioned costs included
                 Haiti, Rural Justice Center                  in the audit report from Rural Justice.
3-521-13-001-N                                 9/16/2013
                 Field Office                                 As of March 31, 2014, Rural Justice
                                                              has not provided the requested
                                                              supporting documentation to USAID/
                                                              Haiti.
                                                              Recommendation 6: USAID/Haiti
                                                              requested supporting documentation
                                                              for all the questioned costs included
                 Haiti, Rural Justice Center                  in the audit report from Rural Justice.
3-521-13-001-N                                 9/16/2013
                 Field Office                                 As of March 31, 2014, Rural Justice
                                                              has not provided the requested
                                                              supporting documentation to USAID/
                                                              Haiti.
                                                              Recommendation 7: USAID/Haiti
                                                              requested supporting documentation
                                                              for all the questioned costs included
                 Haiti, Rural Justice Center                  in the audit report from Rural Justice.
3-521-13-001-N                                 9/16/2013
                 Field Office                                 As of March 31, 2014, Rural Justice
                                                              has not provided the requested
                                                              supporting documentation to USAID/
                                                              Haiti.




                                                  USAID OIG Semiannual Report to the Congress 131
       Significant Management Decisions With Which the Inspector General Disagrees
                                         USAID
                             October 1, 2013-March 31, 2014



 Section 5(a)(12) of the Inspector General Act requires semiannual reports to include information concerning
 any significant management decisions with which the inspector general disagrees.

 During this reporting period, there were no instances in which the Inspector General disagreed with a
 significant management decision.




      Noncompliance with the Federal Financial Management Improvement Act of 1996
                                         USAID
                             October 1, 2013-March 31, 2014




 Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an update on issues
 outstanding under a remediation plan required by the Federal Financial Management Improvement Act of 1996
 (FFMIA) (Public Law 104-208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to comply
 substantially with (1) federal financial management system requirements, (2) federal accounting standards, and
 (3) the U.S. Standard General Ledger at the transaction level. An agency that is not substantially compliant with
 FFMIA must prepare a remediation plan.

 Under audit reports A-000-13-003-P, dated November 14, 2012, and A-00-14-001-P, dated October 15,
 2013, OIG identified an instance of substantial concompliance with FFMIA as required by OMB Bulletin 7-04,
 Audit Requirements for Financial Statements. OIG reported that (1) USAID had not established an effective
 risk management program to ensure that policies and procedures are assessed and working as intended and
 (2) USAID's decentralized management of information technology and information security did not allow the
 Agency to implement a process to effectively assess, respond to, and monitor information security risk across
 the organization. To address this deficiency, USAID has prepared a 3-year corrective action plan, which is
 expected to be fully implemented by fiscal year 2015.




132 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                          Significant Revisions of Management Decisions
                                              USAID
                                  October 1, 2013-March 31, 2014



Section 5(a)(11) of the Inspector General Act requires a description and explanation of the reasons for any
significant revised management decisions during the reporting period.

During this reporting period, USAID did not make any significant revisions of management decisions.




                        Significant Findings From Contract Audit Reports
                                              USAID
                                  October 1, 2013-March 31, 2014



The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section 845) requires
inspectors general to submit information on contract audit reports, including grants and cooperative
agreements, that contain significant audit findings in semiannual reports to the Congress.

The act defines “significant audit findings” to include unsupported, questioned, or disallowed costs in excess of
$10 million and other findings that the inspector general determines to be significant.

During the reporting period, OIG had no significant findings from contract audit reports for USAID.




                                                          USAID OIG Semiannual Report to the Congress 133
134 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND
ACTIVITIES: MILLENNIUM CHALLENGE
CORPORATION



The Millennium Challenge Corporation forms partnerships with some of the world’s poorest countries
and provides large-scale grants to them when they demonstrate that they are committed to good
governance, economic freedom, and investment in their citizens. These grants fund country-led
solutions for reducing poverty through sustainable economic growth.




Pictured above is the MCC-funded Mtoni Service Station on the Zanzibar Archipelago. (Photo by Jake Lyell for
MCC.)




	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   13 5
13 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
FINANCIAL MANAGEMENT



Fund Accountability Statements

OIG reviews and approves fund accountability statement audits of compact funds under recipient
government management. These fund accountability statement audits are conducted by independent
public auditors. Under the terms of MCC compacts, funds expended by a recipient country must be
audited at least annually. The recipient country establishes an accountable entity, usually a Millennium
Challenge Account, that produces financial statements documenting account activity. The audit of a fund
accountability statement is conducted by an audit firm that OIG has approved.

The selected audit firm issues an opinion on whether the financial statements present fairly, in all
material respects, the program revenues and costs incurred and reimbursed, in conformity with the
terms of a compact agreement and related supplemental agreements for the period being audited.

In addition, the audit firm is required to employ generally accepted government auditing standards in
performing the audits. All MCA audit reports are reviewed, approved, and issued by OIG.

During this reporting period, OIG issued nine fund accountability statement audit reports, which
made eight recommendations.




	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   137
13 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ECONOMIC GROWTH



Audit of the Millennium Challenge
Corporation-Funded Program in Namibia                       SIGNIFICANT FINDINGS AND ACTIVITIES
Report No. M-000-14-002-P
                                                            • In its audit of the education and tourism
                                                            projects in Namibia, OIG found that the
In 2008, MCC signed a 5-year compact with                   projects were achieving their goals but made
the Republic of Namibia to reduce poverty                   eight recommendations to improve the
and stimulate economic growth through three                 projects’ implementation.
projects: a $142 million education project, a
$68 million tourism project, and a $52 million
agriculture project.

In its audit of the education and tourism projects, OIG found that the projects were achieving their goals
but made several recommendations to improve their implementation as a result of problems that were
identified.

For example, in the education project, five of six renovated schools OIG visited had construction defects,
and two of the schools were too small to accommodate current students. Teachers lacked training
on science equipment, and textbooks and cars were not marked as required to show that they were
provided by the United States. OIG also found staffing limitations that may affect the operation of some
educational facilities.

With the tourism project, conservancy grants were not audited for environmental compliance, and
problems with measuring training and sustaining and sharing knowledge of that training were also
identified.

OIG made eight recommendations to strengthen the MCC-funded program in Namibia. MCC has made
management decisions on each of them and taken final action on six.




	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   139
14 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
MANAGEMENT ACCOUNTABILITY




Audit of the Millennium Challenge
Corporation’s Controls Over the Use of                         SIGNIFICANT FINDINGS AND ACTIVITIES
Premium Class Travel
                                                               • OIG found that MCC has implemented
Report No. M-000-14-001-P
                                                               adequate internal controls over the use of
                                                               premium class travel. Of the $1.1 million MCC
Federal travel regulations govern the use of all               spent on air travel for the 5-month period
official government travel, including the use of               between October 2012 and February 2013,
premium class travel. The regulations authorize                $691,000 covered air travel that included
the use of premium class travel when the flight                at least one premium class segment. OIG
                                                               identified one internal control weakness: MCC
is 14 hours or more. To qualify, the traveler may
                                                               did not document domestic premium class
not take a rest stop and must report to work the
                                                               travel segments for international trips. As a
following day or sooner.                                       result, international trips that totaled more
                                                               than $102,000 may have contained domestic
The Government Accountability Office (GAO)                     segments that might not have been allowed
issued an audit of the use of premium class                    under MCC’s travel policy.
travel by all federal agencies, including MCC.
                                                               • Independent auditors expressed an
GAO provided a management letter to MCC
                                                               unqualified opinion on MCC’s FY 2013 financial
in 2008 outlining its findings. GAO found that
                                                               statements. They identified one issue that was
“although MCC employees met the 14-hour                        considered a material weakness and three
rule—MCC policy states that travelers on flights               other issues that were considered significant
less than 14 hours must fly coach—trips were not               deficiencies. The material weakness was a
authorized or justified as required.” In addition,             modification of a previous finding, involving
GAO found several internal control weaknesses                  ineffective and inefficient integration of data,
                                                               processes, and controls within MCC’s financial
and offered recommendations to strengthen
                                                               management systems. The audit also found
MCC’s policies.
                                                               deficiencies in the validation control over grant
                                                               accrual estimates, monitoring of audits, and
OIG conducted this audit to determine whether                  controls of information systems.
MCC has since implemented adequate internal
controls to prevent improper use of premium class
travel. OIG found that MCC has implemented
adequate internal controls, and these included
a comprehensive travel policy and the segregation of duties for the review and approval of the travel
authorizations. Of the $1.1 million MCC spent on air travel for the 5-month period between October


	                                                    U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   141
2012 and February 2013, $691,000 covered air travel that included at least one premium class segment.
OIG identified one internal control weakness: MCC did not document domestic premium class travel
segments for international trips. As a result, international trips that totaled more than $102,000 may have
contained domestic segments that might not have been allowed under MCC’s travel policy.

OIG made two recommendations, and MCC made management decisions on both of them.

Audit of the Millennium Challenge Corporation’s Financial Statements, Internal Controls, and
Compliance for the Period Ending September 30,
2013 and 2012
Report No. M-000-14-001-C

OIG contracted with the independent certified public accounting firm of CliftonLarsonAllen LLP
to audit MCC’s financial statements. The independent auditors expressed an unqualified opinion on
MCC’s FY 2013 financial statements. They identified one issue that was considered a material weakness
and three other issues that were considered significant deficiencies. The material weakness was a
modification of a previous finding, involving ineffective and inefficient integration of data, processes,
and controls within MCC’s financial management systems. The audit also found deficiencies in the
validation control over grant accrual estimates, monitoring of audits, and controls of information
systems.

The audit made 11 recommendations for improvement, and MCC has made managements decisions on
all of them.

MCC Employee Suspended for Storage of Personally Identifiable Information

OIG received a complaint from MCC that an MCC employee improperly stored personally identifiable
information (PII) on the MCC network shared drive. OIG and the Securities and Exchange Commission
(SEC) conducted a joint investigation into the matter and searched MCC’s shared drive. A spreadsheet
containing names, Social Security numbers, and dates of birth of 3,700 SEC employees was found on
the shared drive in a folder for the sole use of one MCC employee. The employee, who was a former
SEC employee, admitted to downloading the spreadsheet containing PII to be used as reference for his
position at MCC. The employee received a 5-day suspension.

MCC Residential Country Director Suspended for Misuse of Official Vehicle

OIG confirmed allegations that an MCC resident country director in Asia misused a government vehicle
and driver on multiple occasions, including on a trip from the beach to the employee’s office. MCC
originally proposed the employee’s 30-day suspension for unauthorized and improper use of government




14 2 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
property, use of employee’s time for an unofficial purpose, and carrying unauthorized passengers in a
government vehicle for an unofficial purpose. Upon appeal, MCC reduced the charges to two counts of
unauthorized and improper use of government property and suspended the employee for 3 days.




                                                    USAID OIG Semiannual Report to the Congress 143
14 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
TABLES: MILLENNIUM CHALLENGE
CORPORATION



Tables

The tables on the following pages provide information required by the Inspector General Act of 1978, as
amended. OIG has no information to report this period in the areas listed below:

•	   Incidents in which USAID OIG was refused assistance or information
•	   Reports with recommendations that funds be put to better use
•	   Reports over 6 months old with no management decision
•	   Significant management decisions with which the Inspector General disagrees
•	   Significant revisions of management decisions
•	   Significant findings from contract audit reports




	                                                U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   14 5
            Significant Recommendations Described Previously Without Final Action
                                            MCC
                               October 1, 2013–March 31, 2014

                                                                                                              Final
                                                                        Date of              Management      Action
  Report Number                        Report Title                               Rec. No.
                                                                        Report               Decision Date   Target
                                                                                                              Date
                         Audit of the Millennium Challenge
                         Corporation's Fiscal Year 2012
 M-000-13-001-P          Compliance With the Federal                    11/6/12      6          11/6/12       8/1/14
                         Information Security Management
                         Act of 2002
                                                                                     1         11/13/12      12/13/14
                                                                                     2         11/13/12      12/13/14
                Audit of the Millennium                                              9         11/13/12      12/13/14
                Challenge Corporation's Financial                                   10         11/13/12      12/13/14
 M-000-13-001-C Statements, Internal Controls, and                     11/15/12     11         11/13/12      12/13/14
                Compliance for the Period Ending                                    13         11/13/12      12/13/14
                September 30, 2012 and 2011                                         14         11/13/12      12/13/14
                                                                                    12         11/13/12      12/13/14
                                                                                    19         11/13/12      12/13/14
                Fund Accountability Statement
                (FAS) and Close-Out Audit
                of the Millennium Challenge
                Corporation’s (MCC) Resources
                Managed by the Millennium
                Challenge Georgia Fund (MCG)
 M-000-13-008-N Under the Compact Agreement                              1/8/13      1          8/6/13       9/19/14
                Between the MCC and the
                Government of Georgia for the
                Period from January 1, 2011, to
                April 7, 2011, (FAS) and April 8,
                2011, to August 4, 2011 (Close-
                out)
                Audit of the Millennium Challenge
                Corporation's Monitoring of
 M-000-13-004-P                                                         2/12/13      1          2/12/13      7/31/14
                Trafficking in Persons in MCC-
                funded Programs.

                Audit of the Millennium Challenge
                                                                                     9          9/20/13      6/30/14
                Corporation’s Fiscal Year 2013
                                                                                    11          9/20/13      8/31/14
 M-000-13-005-P Compliance with the Federal                             9/20/13
                                                                                    12          9/20/13      5/31/14
                Information Security Management
                                                                                    14          9/20/13      5/31/14
                Act of 2002




14 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                       MCC
                          October 1, 2013–March 31, 2014

                                                                                   Amt. of
                 Date of                                                                      Type of
Report Number                                   Report Title                       Findings
                 Report                                                                       Findings
                                                                                    ($000)
                                      Programs and Operations
                              Audit of the Millennium Challenge Corporation's
                              Financial Statements, Internal Controls, and
M-000-14-001-C   12/13/13
                              Compliance for the Period Ending September 30,
                              2013, and 2012
                      Millennium Challenge Account (MCA) Audits and Reviews
                              Audit of the Millennium Challenge Corporation's
                              (MCC) Resources Managed by Millennium Challenge
                              Account-El Salvador (MCA-El Salvador), Under the
M-000-14-001-N    10/9/13
                              Compact Agreement Between the MCC and the
                              Government of El Salvador from September 21, 2012,
                              to January 18, 2013
                              Audit of the Millennium Challenge Corporation's
                              (MCC) Resources Managed by Millennium Challenge
                              Account-Burkina Faso (MCA-Burkina Faso), Under
M-000-14-002-N   10/28/13
                              the Compact Agreement Between the MCC and the
                              Government of Burkina Faso from January 1, 2012,
                              to December 31, 2012
                              Audit of the Fund Accountability Statement of the
                              Millennium Challenge Corporation's (MCC), and the
                              Government of Lesotho (GOL) Resources Managed
M-000-14-003-N   11/14/13     by (MCA-Lesotho), Under the Compact Agreement
                              Between the MCC and the Government of the
                              Kingdom of Lesotho for the Period January 1, 2013,
                              to September 17, 2013
                              Audit of the Fund Accountability Statement of
                              the Millennium Challenge Corporation's (MCC)
                              Resources Managed by (MCA-Mozambique), Under
M-000-14-004-N    1/14/14
                              the Compact Agreement Between the MCC and
                              the Government of Mozambique for the Period
                              January 1, 2012, to December 31, 2012
                              Audit of the Millennium Challenge Corporation's
                              (MCC) Resources Managed by Millennium Challenge
                              Account-Lesotho (MCA-Lesotho), Under the
M-000-14-005-N    1/16/14
                              Compact Agreement between the MCC and the
                              Government of the Kingdom of Lesotho from
                              January 1, 2013, to September 17, 2013




                                                  USAID OIG Semiannual Report to the Congress 147
                                   Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                        MCC
                           October 1, 2013–March 31, 2014

                                                                                                Amt. of
                            Date of                                                                        Type of
  Report Number                                                     Report Title                Findings
                            Report                                                                         Findings
                                                                                                 ($000)
                                           Audit of the Millennium Challenge Corporation’s
                                           (MCC) Resources Managed by Millennium Challenge
                                           Account-Senegal (MCA-Senegal), Under the               316        QC
 M-000-14-006-N             2/26/14
                                           Compact Agreement Between the MCC and the              274        UN
                                           Government of Senegal from January 1, 2012, to
                                           December 31, 2012
                                           Audit of the Millennium Challenge Corporation’s
                                           (MCC) Resources Managed by Millennium Challenge
                                           Account-Philippines (MCA-Philippines), Under the
 M-000-14-007-N             2/27/14
                                           Compact Agreement Between the MCC and the
                                           Government of the Republic of the Philippines from
                                           July 1, 2012, to December 31, 2012
                                           Audit of the Millennium Challenge Corporation’ss
                                           (MCC) Resources Managed by Millennium Challenge
                                           Account-Mongolia (MCA-Mongolia), Under the            3,385       QC
 M-000-14-008-N              3/11/14
                                           Compact Agreement Between the MCC and the             1,643       UN
                                           Government of Mongolia from January 1, 2013, to
                                           September 17, 2013
                                           Audit of the Millennium Challenge Corporation’s,
                                           (MCC) Resources Managed by Millennium Challenge
                                           Account-Morocco (MCA-Morocco), Under the
                                           Compact Agreement Between the MCC and
 M-000-14-009-N             3/26/14
                                           the Government of Morocco for the Period
                                           January 1, 2013, to September 30, 2013, and the
                                           Close-Out Period (120 Days After the Compact End
                                           date)




14 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                              Performance Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                        That Funds Be Put to Better Use
                                      MCC
                         October 1, 2013-March 31, 2014



   Report        Date of                                       Amount of
                                    Report Title                                Type of Findings
   Number        Report                                         Findings

                          Audit of the Millennium
                          Challenge Corporation's
M-000-14-001-P   12/17/13
                          Controls Over the Use of
                          Premium Class Travel

                          Audit of the Millennium
M-000-14-002-P   12/17/13 Challenge Corporation-Funded
                          Program in Namibia




                              Miscellaneous Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                        That Funds Be Put to Better Use
                                      MCC
                         October 1, 2013-March 31, 2014



   Report        Date of                                       Amount of
                                    Report Title                                Type of Findings
   Number        Report                                         Findings

                          Limited Scope Audit of
                          Millennium Challenge Account-
                          Morocco (MCA-Morocco)
M-000-14-001-S   10/11/13
                          Review of Purchases, Contracts,
                          and Administrative Work
                          Products




                                                   USAID OIG Semiannual Report to the Congress 149
                                Reports With Questioned and Unsupported Costs
                                                     MCC
                                        October 1, 2013-March 31, 2014

                                                                  Number
                                                                                     Questioned
                           Reports                                of Audit                                 Unsupported Costs ($)
                                                                                      Costs ($)
                                                                  Reports

 A. For which no management decision had
                                                                      3                 440,981                     165,371
    been made as of October 1, 2013 1

 B. Add: Reports issued
                                                                      2                3,701,018                   1,916,904
    October 1, 2013-March 31, 2014


 Subtotal                                                             5                4,141,999                   2,082,275

 C. Less: Reports with a management decision
                                                                      3                 440,981                     165,371
    made October 1, 2013-March 31, 2014
         Value of costs disallowed by agency
                                                                                         1,330                          0
         officials

         Value of costs allowed by agency officials                                     439,651                     165,371

  D. For which no management decision had
                                                                      2                3,701,018                   1,916,904
     been made as of March 31, 2014


  1
      The amounts in the top row of this table have been adjusted to properly reflect management decisions on Audit Report
      No. M-000-13-020-N that were inadvertently omitted from the last Semiannual Report to the Congress.




15 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND TABLES:
UNITED STATES AFRICAN DEVELOPMENT
FOUNDATION



The United States African Development
Foundation provides grants of up to $250,000                SIGNIFICANT FINDINGS AND ACTIVITIES
to local community groups and enterprises that
                                                            • Auditors concluded that USADF is in
benefit underserved and marginalized groups in
                                                            substantial compliance with FISMA and has
Africa. The Foundation measures grant success               developed and documented the majority of the
in terms of jobs, increased income levels, and              information security policies and procedures
improved social conditions.                                 required under the act. However, auditors
                                                            noted a number of weaknesses in which either
Audit of U.S. African Development Foundation                documented policy and procedures were
                                                            inadequate or management had a policy or
Activities in Turkana
                                                            procedure but was not following it.
Report No. 4-ADF-14-004-P
                                                            • Auditors expressed an unmodified opinion on
According to the Kenyan Government, Turkana             USADF’s fiscal year 2013 financial statements
County—the area adjacent to Lake Turkana in             and notes. The report contained no material
the northwestern corner of the country—is the           weaknesses or significant deficiencies in
poorest and most remote county in Kenya. More           USADF’s internal control over financial
                                                        reporting and no instances of noncompliance
than 70 percent of the people in this traditionally
                                                        with applicable provisions of laws, regulations,
pastoralist society rely on food aid, and 20 percent
                                                        contracts, and grant agreements.
are malnourished. Although the county continues
to suffer from humanitarian crises, it has the
potential to address them. USADF launched
the Turkana Food Security Program in March
2011, pledging $10 million in project grants over
5 years to increase food security in the region and
help inhabitants earn higher incomes. USADF’s approach involves working with grantees to build their
capacity while promoting ownership and sustainability of their projects, which in Turkana focus on
livestock, irrigated agriculture, and fisheries.

OIG noted several achievements within the projects, including grantees’ increased ability to operate their
businesses and projects successfully. Nearly all grantees demonstrated knowledge and skills acquired
through USADF’s business and financial management training. They expressed appreciation for the
program and displayed a sense of ownership and responsibility toward their respective projects. One
livestock owner said he used the profits from livestock sales at a newly constructed facility in Lodwar to



	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   151
start a motorcycle taxi business and continue his children’s education. He said he also benefitted from a
USADF-supported revolving loan fund and business training.

Despite these achievements, OIG determined that the projects audited are not yet reaching their goals
to increase food security and promote income generation. The audit also found other problems, such
as USADF’s not following its own project development policies, inaccurate and unreliable performance
data, weak internal controls employed by two grantees, poor financial and business practices, insufficient
contractor vetting and management, and lack of a strategy to capitalize on opportunities created by the
presence of oil companies in the Lake Turkana region.

OIG made 14 recommendations to improve the program and identified more than $16,000 in questioned
costs and nearly $43,000 in funds to be put to better use. USADF allowed more than $9,000 in
questioned costs and is in the process of determining the allowability of more than $6,000 remaining.
Final action was taken on 6 of the 14 recommendations.

Audit of the U.S. African Development Foundation’s Fiscal Year 2013 Compliance With the Federal
Information Security Management Act of 2002
Report No. A-ADF-14-002-P

FISMA requires agencies to develop, document, and implement an agency-wide information security
program to protect their information and information systems, including those provided or managed by
another agency, contractor, or other source. The act also requires agencies to have an annual assessment
of their information systems.

OIG contracted with the independent certified public accounting firm of Cotton & Company LLP to
conduct the audit in accordance with U.S. Government auditing standards. The objective of the audit
was to determine whether USADF implemented selected minimum security controls for selected
information systems to reduce the risk of data tampering, unauthorized access to and disclosure of
sensitive information, and disruptions to USADF’s operations.

The auditors concluded that USADF is in substantial compliance with FISMA and has developed and
documented the majority of the information security policies and procedures required under FISMA.
However, auditors noted a number of weaknesses where either documented policy and procedures were
inadequate or management had a policy or procedure but was not following it.

Based on the identified weaknesses in USADF’s information security controls, OIG made
17 recommendations to assist USADF in strengthening its information security program. USADF made
management decisions on all 17 recommendations and took final action on 9 of them.




152 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Audit of the United States African Development Foundation’s Financial Statements for Fiscal Years
2013 and 2012
Report No. 0-ADF-14-002-C

OIG contracted with the certified public accounting firm of GKA PC to conduct an audit of USADF’s
financial statements as of September 30, 2013, and 2012.

The independent auditor expressed an unmodified opinion on USADF’s fiscal year 2013 financial
statements and notes. The report states that the financial statements presented fairly, in all material
respects, USADF’s financial position, the net cost of operations, the changes in net position, and
budgetary resources for the years ended September 30, 2013, and 2012, in conformity with generally
accepted U.S. accounting principles.

The report did not note any material weaknesses or significant deficiencies in USADF’s internal control
over financial reporting or instances of noncompliance with applicable provisions of laws, regulations,
contracts, and grant agreements.

Tables

The tables on the following pages provide information required by the Inspector General Act of 1978, as
amended. OIG has no information to report this period in the areas listed below:

•	 Incidents in which OIG was refused assistance or information
•	 Miscellaneous reports with associated questioned costs, unsupported costs, or recommendations
   that funds be put to better use
•	 Significant management decisions with which the Inspector General disagrees
•	 Significant revisions of management decisions
•	 Reports over 6 months old with no management decision
•	 Significant findings from contract audit reports




                                                       USAID OIG Semiannual Report to the Congress 153
            Significant Recommendations Described Previously Without Final Action
                                          USADF
                               October 1, 2013-March 31, 2014

                                                                                         Management
       Report                                                     Date of       Rec.                    Final Action Target
                                    Report Title                                          Decision
       Number                                                     Report        No.                            Date
                                                                                            Date
                           Audit of the African                                  1         9/17/08*          10/31/14
  7-ADF-08-007-P           Development Foundation/                 9/17/08       7         9/17/08*          10/31/14
                           Ghana Project Activities                             14         9/17/08**         10/31/14
                                                                                       *Revised management decision 6/30/2011
                                                                                       **Revised management decision 5/3/2011




                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USADF
                             October 1, 2013-March 31, 2014


       Report              Date of                                                   Amount of
                                                     Report Title                                        Type of Findings
       Number              Report                                                     Findings

                                        Audit of the African
                                        Development Foundation's
  0-ADF-14-002-C           12/16/13
                                        Financial Statements For Fiscal
                                        Years 2013 and 2012




15 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                Performance Audits
Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                             Funds Be Put to Better Use
                                      USADF
                          October 1, 2013-March 31, 2014


    Report           Date of                                            Amount of
                                          Report Title                                   Type of Findings
    Number           Report                                              Findings


                                Audit of U.S. African                       16                 QC
4-ADF-14-004-P       3/13/14    Development Foundation                       6                 UN
                                Activities in Turkana                       43                 BU
                                Audit of the U.S. African
                                Development Foundation's Fiscal
A-ADF-14-002-P       11/27/13   Year 2013 Compliance With the
                                Federal Information Security
                                Management Act of 2002




                       Reports With Questioned and Unsupported Costs
                                          USADF
                               October 1, 2013-March 31, 2014

                                                   Number
                                                                      Questioned
                   Reports                         of Audit                           Unsupported Costs ($)
                                                                       Costs ($)
                                                   Reports

A. For which no management decision had
                                                         0                 0                   0
   been made as of October 1, 2013

B. Add: Reports issued
                                                         1               16,109               6,427
   October 1, 2013-March 31, 2014


Subtotal                                                 1               16,109               6,427

C. Less: Reports with a management decision
                                                         1               9,184                 0
   made October 1, 2013-March 31, 2014
    Value of costs disallowed by agency
                                                                           0                   0
    officials

    Value of costs allowed by agency officials                           9,184                 0

D. For which no management decision had
                                                         1               6,925                6,427
   been made as of March 31, 2014




                                                             USAID OIG Semiannual Report to the Congress 155
                  Reports With Recommendations That Funds Be Put to Better Use
                                             USADF
                                  October 1, 2013-March 31, 2014


                                                               Number of Audit
                          Reports                                                Value ($)
                                                                  Reports


 A. For which no management decision had
                                                                         0          0
    been made as of October 1, 2013

 B. Add: Reports issued
                                                                         1        42,696
    October 1, 2013-March 31, 2014


 Subtotal                                                                1        42,696

 C. Less: Reports with a management decision
                                                                         1        42,696
    made October 1, 2013-March 31, 2014

       Value of costs disallowed by agency
                                                                                  42,696
       officials

       Value of costs allowed by agency officials                                   0

  D. For which no management decision had
                                                                         0          0
     been made as of March 31, 2014




15 6	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND TABLES:
INTER-AMERICAN FOUNDATION



The Inter-American Foundation is an
                                                            SIGNIFICANT FINDINGS AND ACTIVITIES
independent U.S. Government agency created
to provide development assistance in Latin
                                                            • An independent auditor expressed an
America and the Caribbean. IAF provides grant               unmodified opinion on IAF’s fiscal year 2013
support for the most creative ideas for self-help           audited financial statements and notes. The
received from grassroots groups and NGOs, while             report contains no material weaknesses,
encouraging partnerships among community                    identifies one significant deficiency in IAF’s
organizations, businesses, and local governments            internal control over financial reporting,
                                                            and finds no instances of noncompliance
that are working to improve the quality of life for
                                                            with selected applicable provisions of laws,
poor people and strengthen democratic practices.
                                                            regulations, contract, and grant agreements.

Audit of the Inter-American Foundation’s
Financial Statements for Fiscal Years 2013 and
2012
Report No. 0-IAF-14-003-C

During this reporting period, OIG issued an audit report prepared by the certified public accounting
firm of Brown & Company, CPAs, PLLC, on the financial statements as of September 30, 2013, and 2012
of IAF. The independent auditor expressed an unmodified opinion on IAF’s fiscal year 2013 audited
financial statements and notes. The report states that the financial statements presented fairly, in all
material respects, IAF’s financial position, the net cost of operations, the changes in net position, and
budgetary resources for the years ended September 30, 2013, and 2012, in conformity with accounting
principles generally accepted in the United States. The report contains no material weaknesses,
one significant deficiency in IAF’s internal control over financial reporting, and no instances of
noncompliance with selected applicable provisions of laws, regulations, contract, and grant agreements.

OIG reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issued by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin 14-02,
"Audit Requirements for the Federal Financial Statements," as amended.

In connection with our contract with the independent auditor, OIG reviewed the firm’s related audit
documentation. Our review found no instances in which the independent auditor did not comply, in all
material respects, with the auditing standards discussed above.


	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   157
Tables

The tables on the following page provide information required by the Inspector General Act of 1978, as
amended. OIG has no information to report in this period in the areas listed below:

•	 Incidents in which OIG was refused assistance or information
•	 Performance audits with associated questioned costs, unsupported costs, or recommendations that
   funds be put to better use
•	 Miscellaneous reports with associated questioned costs, unsupported costs, or recommendations
   that funds be put to better use
•	 Reports with questioned or unsupported costs
•	 Reports with recommendations that funds be put to better use
•	 Reports over 6 months old with no management decision
•	 Significant management decisions with which the Inspector General disagrees
•	 Significant revisions of management decisions
•	 Significant findings from contract audit reports




15 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
      Significant Recommendations Described Previously Without Final Action
                                      IAF
                         October 1, 2013-March 31, 2014

                                                                       Management
   Report                                        Date of       Rec.                 Final Action Target
                        Report Title                                    Decision
   Number                                        Report        No.                         Date
                                                                          Date
                 Audit of the Inter-American
                 Foundation's Fiscal Year
                 2013 Compliance with                           1         9/17/08         5/13/14
A-IAF-13-007-P                                   9/30/13
                 the Federal Information                        5         9/30/13         6/13/14
                 Security Management Act
                 of 2002




                                Financial Audits
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                        That Funds Be Put to Better Use
                                      IAF
                         October 1, 2013-March 31, 2014


   Report        Date of                                              Amount of
                                       Report Title                                 Type of Findings
   Number        Report                                                Findings


                            Audit of the Inter-American
                            Foundation's Financial
0-IAF-14-003-C   12/16/13
                            Statements For Fiscal Years 2013
                            and 2012




                                                      USAID OIG Semiannual Report to the Congress 159
16 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS: OVERSEAS
PRIVATE INVESTMENT CORPORATION



The Overseas Private Investment Corporation (OPIC) is a U.S. Government institution that mobilizes
private capital to address development challenges. It works with the private sector to help U.S. businesses
gain footholds in emerging markets by promoting increased revenues, jobs, and growth opportunities
at home and abroad. Operating in more than 150 countries, OPIC provides financing, guarantees, and
political risk insurance, and it offers support for private equity investment funds.

OIG provides oversight of OPIC under 22 U.S.C. 2199(e). In addition, Senate Report 113-81, which
accompanied the Department of State, Foreign Operations, and Related Programs Appropriations
Bill for 2014, directed OPIC to (1) enter into an FY 2014 oversight agreement with USAID OIG, (2)
allocate funding to support a mutually agreed-upon oversight plan, and (3) reimburse OIG for costs
related to oversight and audit functions. This language was later endorsed in the Explanatory Statement
accompanying the Consolidated Appropriations Act, 2014 (P.L. 113-76).

Efforts to establish this FY 2014 oversight agreement with OPIC have been problematic, and as of
March 31, 2014, no agreement was in place. USAID OIG efforts to engage OPIC on the subject met with
significant delays. OIG initially contacted OPIC to initiate discussions on an FY 2014 agreement in
September 2013. However, OPIC did not provide any substantive response until February 2014.

Throughout the process of negotiating this oversight agreement, OPIC has sought to limit the scope
of OIG’s oversight activities. In some cases, OPIC representatives have ruled out oversight proposals
without first developing an understanding of underlying requirements or consulting with OIG staff.

Without first agreeing on oversight plans, OPIC sent OIG a draft interagency agreement signed by
OPIC’s president on March 31, 2014, that provided a basis for the conduct of only three of seven oversight
activities that we proposed. OIG did not sign this agreement because it does not reflect a mutually
agreed-upon plan of work.

In the interest of ensuring that OPIC receives at least minimum levels of oversight in FY 2014, OIG has
commenced work on the subset of oversight activities identified in this draft agreement. OIG completed
fraud awareness briefings for OPIC personnel in FY 2014 and plans to conduct an audit on OPIC
compliance with FISMA requirements and an assessment of OPIC purchase, combined integrated, and
travel card programs in line with requirements in the Government Charge Card Abuse Prevention Act
of 2012 (P.L. 112-194) and OMB Memorandum M-13-21.



	                                                  U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   161
In our judgment, this work is more limited than appropriate or warranted. As of the end of March
2014, OPIC had rejected or deferred consideration of OIG proposals related to oversight of its financial
statement audit, the conduct of a related quality control review, and the conduct of a risk assessment and
a performance audit of OPIC programs and activities.

USAID OIG has advised OPIC’s board and relevant congressional committees of our concerns with this
process and OPIC’s response to oversight proposals.

Tables

The table that follows provides information required by the Inspector General Act of 1978, as amended.
OIG has no information to report this period in the areas listed below:

•	 Incidents in which OIG was refused assistance or information
•	 Financial audits with associated questioned costs, unsupported costs, or recommendations that
   funds be put to better use
•	 Miscellaneous reports with associated questioned costs, unsupported costs, or recommendations
   that funds be put to better use
•	 Reports with questioned or unsupported costs
•	 Reports with recommendations that funds be put to better use
•	 Reports over 6 months old with no management decision
•	 Significant management decisions with which the Inspector General disagrees
•	 Significant revisions of management decisions
•	 Significant findings from contract audit reports




            Significant Recommendations Described Previously Without Final Action
                                           OPIC
                               October 1, 2013-March 31, 2014

                                                                                       Management
       Report                                                     Date of       Rec.                Final Action Target
                                    Report Title                                        Decision
       Number                                                     Report        No.                        Date
                                                                                          Date
                           Audit of Overseas Private
                                                                                 1       9/26/13         6/30/14
                           Investment Corporation's
                                                                                 3       9/26/13         6/30/14
                           Compliance with Provisions
  A-OPC-13-006-P                                                   9/26/13       7       9/26/13         6/30/14
                           of the Federal Information
                                                                                10       9/26/13         7/31/14
                           Security Management Act of
                                                                                12       9/26/13         7/31/14
                           2002 for Fiscal Year 2013




162	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
PEER REVIEWS




The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-203) requires federal
inspectors general to report on results of peer reviews in their semiannual reports.

The following are results of peer reviews conducted on USAID OIG during the reporting period.

Audit

The last peer review of USAID OIG’s audit functions was completed in September 2012. There are
no outstanding recommendations from a peer review conducted on USAID OIG that have yet to be
implemented.

Investigations

The last peer review of USAID OIG’s investigative functions was completed in April 2011. There are
no outstanding recommendations from a peer review conducted on USAID OIG that have yet to be
implemented.




	                                                U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   16 3
16 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ABBREVIATIONS


BU		      funds recommended to be put to better use

DCAA		    Defense Contract Audit Agency

FISMA		   Federal Information Security Management Act of 2002

IAF		     Inter-American Foundation

MCA		     Millennium Challenge Account

MCC		     Millennium Challenge Corporation

NGO		     nongovernmental organization

OIG		     Office of Inspector General

OPIC		    Overseas Private Investment Corporation

OMB		     Office of Management and Budget

PEPFAR	   President’s Emergency Plan for AIDS Relief

QC		      questioned costs

TB		      tuberculosis

UN		      unsupported costs

USADF		   United States African Development Foundation

USAID		   United States Agency for International Development




	                                         U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   16 5
United States Agency for International Development

            Office of Inspector General

          1300 Pennsylvania Avenue, NW

                   Room 6.6.D

             Washington, D.C. 20523
